<html>
<title> - OVERSIGHT FIELD HEARING ON MANAGEMENT OF THE COLORADO RIVER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                   MANAGEMENT OF THE COLORADO RIVER

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                  July 9, 2001 in Salt Lake City, Utah

                               __________

                           Serial No. 107-46

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 -------
73-637              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 9, 2001.....................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     4
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     4
        Prepared statement of....................................     5
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     6
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Napolitano, Hon. Grace, a Representative in Congress from the 
      State of California........................................     4

Statement of Witnesses:
    Anderson, D. Larry, Director, Utah Division of Water 
      Resources, and Utah Commissioner, Upper Colorado River 
      Commission.................................................     6
        Prepared statement of....................................     8
    Davidson, Thomas J., Wyoming Commissioner, Upper Colorado 
      River Commission, and Deputy Attorney General, Wyoming 
      Attorney General's Office..................................    53
        Prepared statement of....................................    55
    Dishlip, Herb, Assistant Director, Arizona Department of 
      Water Resources............................................    19
        Prepared statement of....................................    23
    Holsinger, Kent, Assistant Director, Colorado Department of 
      Natural Resources..........................................    30
        Prepared statement of....................................    32
    Jones, Jeanine, Drought Preparedness Manager, California 
      Department of Water Resources..............................    25
        Prepared statement of....................................    27
    Mulroy, Patricia, General Manager, Southern Nevada Water 
      Authority..................................................    37
        Prepared statement of....................................    40
    Mutz, Philip B., Upper Colorado River Commissioner, State of 
      New Mexico.................................................    41
        Prepared statement of....................................    45

Additional materials supplied:
    Graff, Thomas J., Regional Director, Environmental Defense, 
      Letter submitted for the record by The Honorable Grace 
      Napolitano.................................................    81

 
      OVERSIGHT FIELD HEARING ON MANAGEMENT OF THE COLORADO RIVER

                              ----------                              


                          Monday, July 9, 2001

                     U.S. House of Representatives

                         Committee on Resources

                          Salt Lake City, Utah

                              ----------                              

    The Committee met, pursuant to call, at 9:30 a.m., at the 
Department of Natural Resources, 1594 West North Temple, Salt 
Lake City, Utah, Hon. James V. Hansen (Chairman of the 
Committee) presiding.

 STATEMENT OF THE HONORABLE JAMES HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. Good morning. We welcome you here this 
morning to the Committee of Natural Resources of the U.S. House 
of Representatives. I'm the Chairman of the Committee, Jim 
Hansen. Grace Napolitano is from California, who is here on my 
left. Ken Calvert is the Chairman of the Subcommittee of Water 
and Power, and is from California. Seated next to him is Chris 
Cannon from the state of Utah in the Third District. We expect 
any moment to have Jim Gibbons of the state of Nevada. And I 
understand that these mikes work differently than they do in 
the House of Representatives. Jim Gibbons should walk in any 
minute from the state of Nevada.And so, because we believe in 
starting on time, we're going to go ahead. And I'll have some 
opening remarks and I'll turn to my colleagues.
    This field hearing will explore the broad issues of the 
management of the Colorado River in the coming decades from the 
perspective of the Upper and Lower Colorado Basin states. 
Today's witnesses represent each of these states, will provide 
insight to the Committee of the various and often contentious 
issues that we must grapple with in the coming years.
    In light of the legislation recently introduced which 
authorized the massive CALFED water projects, it is appropriate 
that we also explore the future management of the Colorado 
River and California's relationship with other Basin states as 
well.
    We are all familiar with the contentious issues of the 
Colorado River, ranging from the operation of the Federal dams 
to the protection of endangered species, to Indian water 
rights, to the marketing of water between states and water 
users. While each of these issues have been the subject of 
numerous hearings, we will likely only be able to touch on 
these topics today. But as we discuss the water needs of 
California and other states, we should strive to reach a 
reasonable balance between the water users, recreationists, and 
environmental concerns.
    Unfortunately, some have already made up their minds to 
take an unreasonable and unbending position that is neither 
realistic nor conducive to public discourse. And so I think we 
should be very careful as we look at this; we would hope that 
people would have an open mind, that they would see that the 
southwest part of America is predicated on the Colorado River 
drainage. And there are a lot of states involved in this, and 
we would appreciate it if people, as this thing unfolds, would 
work on that.
    Some people are of the opinion that we should drain Lake 
Powell. I think you might as well forget that. I don't think 
that will ever occur, but who knows. And that we have to 
realize if we find ourselves without the water and power that 
comes out of Lake Powell right now, we would be in very tough 
shape.
    Some who advocate preaching recycling and conservation 
often refuse to accept the fact that the Colorado water and its 
tributaries are the cleanest source of energy in the West. All 
sources of energy need a fuel; in this case fuel is water. The 
Colorado River water is used and reused nearly a half dozen 
times between its headwaters and the delta through a series of 
highly efficient dams. Unfortunately, no one ever seems to talk 
about that.
    I would challenge anyone to come up with an alternative 
source of power that uses the same fuel four or six times over, 
providing power to literally millions of homes and businesses, 
with zero greenhouse gas emissions. You just simply can't. 
Simply put, hydropower is among the most environmentally 
friendly sources of water we have, and we should not overlook 
that fact as we discuss the management of the Colorado River.
    Unfortunately, I have no doubt that someday some well- 
meaning and naive Member of Congress from the East, eager to 
curry favor with the green lobby, will introduce legislation to 
decommission Glen Canyon Dam. I don't think that day is too far 
away. And as long as I'm Chairman of the Committee, don't count 
on it. At that time it will be our responsibility as Members of 
the Committee to educate that person to the reality of the role 
that water plays in the West.
    In light of this drain-it movement under way, I believe 
that Members of this Committee should also be concerned with 
the discussion that will take place between the United States 
and Mexico in September regarding the Colorado River delta. 
There is significant pressure coming from these same 
environmental groups to reallocate substantial amounts of water 
to restore the Colorado River delta. This will undoubtedly have 
immediate and long-term ramifications on all the basin states. 
The secretary should be very careful not to enter into 
agreements without the consultation and agreement of the 
states.
    I don't know if the witnesses are prepared to discuss this 
issue today. But the Committee should certainly be prepared to 
provide the Secretary with guidance if necessary. And as many 
you of folks know, what the secretaries do can be overturned by 
legislation, and is done on a very regular basis, whether it's 
the Defense Department or the resources somewhere else, and in 
the last 8 years we spent an awful lot of time doing it.
    I want to thank Chairman Calvert for all the work that he 
has done on these issues. Ken has just been a Godsend to us on 
the Committee, and he's working here with Josh Johnson, who's 
holding this button down so I can talk to you folks. Josh has 
served on my personal staff for a while, he's been over on 
Energy and Water, and now is Chief of Staff of this 
Subcommittee. Ken has devoted a tremendous amount of time and 
energy over the recent months in working for solutions to 
address California's long-term water and energy needs.
    I also want to thank the other Members of the Committee who 
have arranged their schedules and travel plans to be here 
today.
    Finally, I want to extend the Committee's appreciation to 
the Utah Department of Natural Resources and Director Kathleen 
Clark for hosting today's hearing. They have been most 
accommodating in making arrangement for this hearing in such 
short notice.
    Now it is my pleasure to hear from the Chairman of the 
Subcommittee, Mr. Calvert of California, and then the 
gentlelady from California, the gentleman from Utah, and the 
gentleman from Nevada.

  STATEMENT OF THE HONORABLE KEN CALVERT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you, Mr. Chairman. And, you know, we 
hear a lot about exports of water from the Colorado River to 
California. I was happy when I came here today that--relieved 
that we're importing water here to Utah from California. So I 
just wanted you to know that it's not just a one-way street, 
you know, so.
    The Chairman. Yes, you've stolen our water fair and square.
    Mr. Calvert. Recently I've been doing a series of field 
hearings in my home state of California, discussing issues 
related to water supply, quality, and reliability. And 
throughout these hearings I've learned that California's water 
security is directly tied to water security in the entire 
western United States.
    Water issues cross borders here in the West like the 
meandering river. One issue that continually comes before my 
Subcommittee, particularly when it comes to California's water 
security, is the management and operations of the Colorado 
River. As each of you know, this river has been a focal point 
of water for all of us in the West for many decades, and 
promises to continue to be.
    We speak of the collective body of law, how to regulate 
Colorado River water in the West as the Law of the River. 
Though we've made good progress defining that law, challenges 
certainly continue. The environment, the possibility of a long-
term drought, California's 4.4 Plan, and the simple lack of 
enough water will be challenges in the future. So I certainly 
look forward to today's hearing and each state's perspective on 
issues surrounding the management and operations of the 
Colorado River.
    And thank you, Mr. Chairman, for being the host in such a 
delightful location here in the state of Utah. Thank you.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    Recently, I have been doing a series of field hearings in my home 
state of California'discussing issues related to water supply, quality 
and reliability. Throughout these hearings, I have learned that 
California's water security is directly tied to water security in the 
entire Western United States. Water issues cross boarders here in the 
West, like a meandering River. One issue that continually comes before 
my Subcommittee, particularly when it comes to California's water 
security, is the management and operations of the Colorado River. As 
each of you know, this river has been a focal point of water for all of 
us in the West for many decades, and promises to continue to be. We 
speak of the collective body of law about how to regulate Colorado 
River water in the West as the ``Law of the River.'' While we have made 
good progress defining that law, challenges certainly continue. The 
environment, the possibility of a long term drought, the California 4.4 
Plan and the simple lack of enough water will be challenges in the 
future.
    I look forward today to hear each State's perspective on issues 
surrounding the management and operations of the Colorado River.
                                 ______
                                 
    The Chairman. Thank you. Miss Napolitano?

 STATEMENT OF THE HONORABLE GRACE NAPOLITANO, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman, and it is a 
pleasure to be here. And mine is very short and sweet. I have 
been involved with the Colorado River for a number of years 
simply because I was privy to a lot of the information at the 
state level. And essentially I have vested interests in the 
fact that the Colorado River provides good, quality water for 
the whole basin in my area. And it isn't just for my 
constituents that I'm concerned for the future of that delivery 
of that water, but also for my children and my grandchildren 
and their grandchildren.
    I think all of us need to understand that no matter what we 
decide, what happens in the decades to come is something that 
we need to be concerned about, because things are changing. Not 
only do we not have what--we go through the cycles of drought 
all through this western area, and I think if we work together 
we can come to solutions that are going to be beneficial to all 
of the western states. It is my hope that we will continue to 
work together, as we did on getting the Colorado River Moab 
site addressed that had been sitting for a long time.
    I was asked repeatedly, why do you have an interest? Well, 
we do drink the Colorado water, and so the interest has to be 
there for all of us. And I think working together we can come 
to some solution. I'm glad I'm here to listen to what is said 
so that we can then move forward and begin the work that needs 
to be done.
    Thank you, sir, thank you, my colleagues.
    The Chairman. Thank you, gentlelady. The gentleman from 
Utah, Mr. Cannon.

 STATEMENT OF THE HONORABLE CHRIS CANNON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. Geez, being in Congress would be a 
lot more pleasant if we could have all of our meetings out 
here. Or at home, for those from other states. I'd also like to 
thank the gentlelady from California, Ms. Napolitano, for her 
interest in this subject over the long- term. We've worked 
closely together on moving the tailings out of the Moab area 
and off the Colorado River. I know many people downstream have 
a concern about that.
    I'm pleased to have this opportunity to examine the 
management of the Colorado River. We who live in the arid West 
know just how critical water supply issues are. The Resources 
Committee and the Colorado River managers are faced with dual 
tasks. We live in an era where we're more sensitive to 
environmental effects or actions, and on the other hand, we 
must ensure an adequate supply of water for a burgeoning 
population.
    A study by the University of Colorado's Center for the 
American West projects that 48 million more people will be 
added to the 11 Western states by 2050. Utah alone will grow by 
about 59 percent, to reach about 3.6 million people, according 
to these projections, and therefore must adopt a forward-
looking approach to water management to accommodate this 
growth. In other words, the Colorado River will play a key role 
in providing the water we need; both the Upper and Lower Basin 
states must find ways to make better use of the water that we 
have.
    I'm pleased to be working on a bill to, among other things, 
encourage wastewater reuse in the Central Utah Project. This 
kind of innovative management applied to the Colorado River is 
the only way to ensure that we have the water necessary to 
sustain our Western population.
    I look forward to hearing the testimony of the witnesses. 
They have a chance to offer us information that we need to make 
good policy decisions and ensure the preservation of the 
Colorado River, while continuing to provide for the needs of 
the generations to come.
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                         from the State of Utah

    Thank you, Mr. Chairman, for holding this hearing today. Being in 
Congress would be all the more enjoyable if we could always stay in the 
beautiful state of Utah to get our work done.
    I am pleased to have this opportunity to examine management of the 
Colorado River. We who live in the arid West know just how critical 
water supply issues are. The Resources Committee and Colorado River 
managers are faced with dual tasks. We live in an era where we are more 
sensitive to the environmental efforts of our actions. ON the other 
hand, we must ensure an adequate supply of water for our burgeoning 
population. A study by the University of Colorado's Center of the 
American West projects that 48 million more people will be add3ed to 
the 11 Western states by 2050. Utah alone will grow by 59% to almost 
3.6 million people. We must adopt a forward-looking approach to water 
management if we are to accommodate this growth.
    Management of the Colorado River will play a key role in providing 
the water we need. Both the upper and lower basin states must find ways 
to make better use of the water that we have. I am pleased to be 
working on a bill to, among other things, encourage wastewater reuse in 
the Central Utah Project. This kind of innovative management applied to 
the Colorado River is the only way to ensure that we have the water 
necessary to sustain our western population.
    I look forward to hearing the testimony of the witnesses. They are 
the true experts who can offer us the information that we need to make 
good policy decisions and ensure the preservation of the Colorado 
River, while continuing to provide for the needs of the generations to 
come.
                                 ______
                                 
    The Chairman. Gentleman from Nevada, Mr. Gibbons.

  STATEMENT OF THE HONORABLE JIM GIBBONS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman. And as a 
Representative from Nevada whose state contains the southern 
part of the Colorado River Basin in that area, I'm honored and 
pleased to be here. Thank you for the invitation to invite us 
to attend.
    And let me say that I do believe that the future of the 
Colorado River is not only more secure, but it's much brighter, 
through hearings that we're having here today and through the 
leadership of not only you, Mr. Chairman, and Mr. Calvert as 
well, but I think because of the groups and the interests that 
everyone is showing in now improving the Colorado River as we 
have here today.
    As for my good colleague and friend, Mr. Cannon from Utah, 
I am in complete agreement with him that we should move at 
least to Salina, Kansas, the capital of the United States; it 
would make the commute a whole lot easier. And I do appreciate 
the fact to be here.
    Once again, thank you for the invitation and your 
leadership on this issue.
    The Chairman.All of the statements will be included in 
their entirety in the record. And if people want to abbreviate, 
by all means, please do it.
    The Chairman. For today's hearing, we just have one panel, 
but we've structured it that way. We want to hear from you 
folks, what you want to say, what you feel strong about.
    And normally we limit you to 5 minutes. We purposely did 
not bring our clock that cuts you off, but we would appreciate 
it if you would just kind of speak from the heart. If you want 
to read your statement, that's up to you. But following that, I 
will turn to Members of the panel here to ask you all the tough 
questions.
    So this is the order they tell me we're supposed to do this 
in. Mr. D. Larry Young? Larry Anderson. Put my glasses on to 
get this straight, Larry. Director of Utah Division of Water 
Resources; Mr. Herb Dishlip, Assistant Director, Arizona 
Department of Water Resources; Mrs. Jeanine Jones, Drought 
Preparedness Manager, California Department of Water Resources; 
Mr. Kent Holsinger, is that correct?
    Mr. Holsinger. Holsinger.
    The Chairman. Close enough. Assistant Director, Colorado 
Department of Natural Resources; Miss Patricia Mulroy, General 
Manager, Southern Nevada Water Authority; Mr. Phillip Mutz, 
Upper Colorado River Commissioner, State of New Mexico; and Mr. 
Thomas J. Davidson, the Governor's Representative, Wyoming 
Attorney General's Office. We'd be happy to take you in that 
order. Larry, if you want to start, you're on.

  STATEMENT OF D. LARRY ANDERSON, DIRECTOR, UTAH DIVISION OF 
                        WATER RESOURCES

    Mr. Anderson. Thank you very much. I don't know if I have 
to touch this, or maybe it doesn't work. Anyway--
    The Chairman. Have you got power? Can everybody hear Mr. 
Anderson?
    Mr. Anderson. Congressman Hansen and Members of Congress, 
those from the Resources Committee, I want to thank you for the 
opportunity to testify today on behalf of the states--State of 
Utah concerning management of the Colorado River. I am Larry 
Anderson, the Director of the Utah Division of Water Resources, 
Utah Interstate Streams Commissioner, and Governor Leavitt's 
representative on Colorado River water issues.
    From the dawn of recorded history down to our time, men 
have prayed and fought for the water that makes soil productive 
and sustains life. If an area receives less than 20 inches of 
precipitation annually, irrigation is necessary.
    As you can see from the map over here that I brought in 
showing the annual precipitation, the western United States, 
and particularly the Colorado River Basin, there in those nice 
red--
    The Chairman. Do you want to bring that out so the rest of 
the folks here in the audience can see it?
    Mr. Anderson. Those nice red and orange colors there, the 
hot ones show that the western United States, particularly the 
Colorado River basin, is in what I would call the great 
American desert. We receive within the Colorado River basin 
about 14 inches of precipitation annually, and you can see as 
you move east how that--colors get a lot calmer and cooler as 
you move there, and see that the precipitation on the East 
Coast varies from about 30 inches up to as much a 100 inches. 
So we truly do live in the great American desert.
    Because of the critical role of water in the arid West, the 
Colorado River has been the subject of extensive negotiations 
and litigation. This has resulted in the development of a 
complex set of Federal and state laws, compacts, court 
decisions, treaties, and other agreements, collectively known 
as a Law of the River. The principal documents forming the Law 
of the River again are shown over here on this poster.
    While some may want you to believe that the Law is archaic 
and unresponsive to current problems, you will note that the 
list of items comprising the Law of the River continues to 
grow, showing a dynamic and static law--and not a static law, 
with the most recent additional item added to the Law of the 
River being the Interim Surplus Guidelines, which were added in 
January of this year.
    In the mid-1990's, the Colorado River Basin states began 
discussions on the development of a plan to encourage 
California to implement measures to reduce its use of Colorado 
River water from 5.2 million acre-feet annually back to its 
allocated amount of 4.4 million acre-feet.
    With the encouragement of the Secretary of Interior, the 
basin states were able to reach a consensus agreement of what 
we call Interim Surplus Guidelines. The Secretary of Interior 
adopted those guidelines in January of this year, and issued a 
record of decision that was acceptable to all of the basin 
states.
    The advantage of the Interim Surplus Guidelines is it gives 
California water users more certainty on when and how surpluses 
will be determined for the next 15 years. The advantage to the 
other six basin states is that it requires California to 
systematically ratchet down its use of Colorado River water, 
and by the year 2016, California has committed to live within 
its Compact allocation of 4.4 million acre-feet.
    A document that goes hand in hand with the Interim Surplus 
Guidelines is the California 4.4 Plan. This plan outlines the 
measures California water users will implement to achieve the 
conservation benchmarks outlined by the record of the decision. 
We support and fully expect California to finalize the plan, 
their 4.4 Plan, by December of 2002.
    Because a continuation of the Interim Guidelines is 
dependent upon California's being successful. We encourage 
Congress and all Federal agencies to support and assist 
California wherever necessary in completing all of the 
agreements that they must sign within the state of California 
and all the environmental regulations that they must comply 
with. And if necessary, expedite any Federal reviews required 
to help California be successful in their plan.
    In recent years Federal legislation has been introduced to 
protect the Salton Sea ecosystem. I am concerned that such an 
effort may conflict with the California 4.4 Plan. Remind you 
that the Salton Sea is a man-made lake created in the 1900's by 
the failure of a canal carrying Colorado River water to 
irrigators in the Imperial Valley, and the Salton Sea is 
maintained today by agricultural inefficiency and runoff. Any 
efforts to guarantee additional flows to the Salton Sea could 
conflict with conservation efforts to transfer agricultural 
water to M&I uses as contemplated in the California 4.4 Plan 
and in the Interim Surplus Guidelines.
    Environmental groups have recently expressed a concern over 
the Colorado River delta ecosystem in Mexico. The Federal 
Governments of both the United States and Mexico have agreed to 
meet to discuss delta concerns and issues, and have scheduled a 
joint educational symposium in Mexicali, Mexico on September 
11th and 12th. The basin states request that the U.S. 
Government invite us to be involved in the development of any 
solutions to the problems in the delta.
    I don't have to remind this group that the Colorado River 
is totally appropriated, the water has been allocated to the 
basin states and to the country of Mexico in the use of water. 
Any additional water will have to be--will have to come from 
one of those sources.
    Even though there are many unresolved issues facing the 
Colorado River water users, the basin states are trying to work 
cooperatively with the Federal Government, Indian tribes, and 
nongovernment organizations to resolve them. While the process 
is not easy, history tells us that if those involved exercise 
trust and comity among themselves, acceptable solutions are 
likely to be found. Thank you.
    [The prepared statement of Mr. Anderson follows:]

Statement of D. Larry Anderson, Utah Commissioner, Upper Colorado River 
       Commission, and Director, Utah Division of Water Resources

    The Colorado River falls more than 12,000 feet as it flows from the 
Rocky Mountains to its outlet in the Gulf of California. The river has 
a huge drainage basin that covers over 244,000 square miles. The seven 
Colorado River Basin states (Arizona, California, Colorado, Nevada, New 
Mexico, Utah, Wyoming) comprise about one-twelfth of the area of the 
continental United States. Despite the size of the watershed, the 
Colorado River ranks only sixth among the nation=s rivers in volume of 
flow, with an average annual undepleted flow in excess of 17.5 million 
acre-feet (MAF) (15 MAF at Lee Ferry, the compact division point). 
Demands on the Colorado River are not limited to needs within the 
basin. In fact, more water is exported from the basin than from any 
other river in the country. The river provides municipal and industrial 
water for more than 24 million people living in the major metropolitan 
areas of Los Angeles, Phoenix, Las Vegas, Salt Lake City, Denver, and 
hundreds of other communities in the seven states. It also provides 
irrigation water to about 2.0 million acres of land. The river has over 
60 MAF of storage capacity and 4,000 megawatts of hydroelectric 
generating capacity. The river is often described as the most regulated 
river in the world. Considering its importance to the basin states, 
Native American Indian Tribes and Mexico, the agreements that have been 
reached to divide the rivers water must be considered of the utmost 
importance.
    Over half of the state of Utah is located in the Colorado River 
Basin, and the river is an important economic, recreational, and 
environmental resource for the citizens of the state. A significant 
portion of Utah=s economy revolves around and is supported by the use 
of the Colorado River and its tributaries for power generation, 
irrigation, and tourism as well as a water supply for Utah=s growing 
population. Thus, Utah is vitally concerned with the management of the 
Colorado River in the 21st Century.

                          THE LAW OF THE RIVER

    Because of the critical role of water in the arid west, the 
Colorado River has been the subject of extensive negotiations and 
litigation. This has resulted in the development of a complex set of 
federal laws, compacts, court decisions, treaties, state laws and other 
agreements collectively known as ``The Law of the River.'' The 
principal documents forming ``The Law of the River'' include:
    <bullet> The Colorado River Compact of 1922;
    <bullet> The Boulder Canyon Project Act of 1928;
    <bullet> The Mexican Treaty of 1944;
    <bullet> The Upper Colorado River Basin Compact of 1948;
    <bullet> The Colorado River Storage Project Act of 1956;
    <bullet> The U.S. Supreme Court's Arizona v. California decision 
and decree of 1963;
    <bullet> The Colorado River Basin Project Act of 1968;
    <bullet> Criteria for Coordinated Long-Range Operation of Colorado 
River Reservoirs of 1970;
    <bullet> Minute 242 of the International Boundary and Water 
Commission of 1973;
    <bullet> The Colorado River Basin Salinity Control Act of 1974;
    <bullet> The Grand Canyon Protection Act of 1992;
    <bullet> Colorado River Interim Surplus Criteria of 2001
    In addition to these documents, several other federal and state 
laws impact use of the river. Some are California=s Self Limitation 
Act, the federal Endangered Species Act, National Environmental Policy 
Act, Clean Water Act, and the Wild and Scenic Rivers Act.
    While some groups may have you believe ``The Law of the River'' is 
archaic and unresponsive to current problems, it should be pointed out, 
as evidenced by the preceding information that ``The Law of the 
River,'' has evolved over time and adapted to various needs and 
situations. The key to this process has been the comity and respect the 
participants have shown each other while also ensuring the newer 
elements are consistent with and conform to the principals embodied in 
the previously existing compacts, laws, treaties, and court decisions.

                       INTERIM SURPLUS GUIDELINES

    One of the most important issues in the Colorado River Basin today 
is the increasing municipal and industrial demands in the Lower 
Division States of Arizona, California, and Nevada versus available 
water supply as allocated by ``The Law of the River.'' Unless and until 
the Lower Division States take the necessary steps to live within their 
basic entitlement of 7.5 MAF per year, Utah=s ability to continue to 
develop and use its Upper Basin allocation could be impaired. With the 
goal in mind of protecting Utah=s future development and use of 
Colorado River Water, Utah joined with the other six Basin states in 
responding to a call from the Secretary of the Interior to develop a 
plan by which the short term needs of the Lower Division States could 
be met during a transition period while the Lower Division States, 
specifically California, develop and implement a plan to limit use of 
Colorado River water to the amount allowed under ``The Law of the 
River.''
    The result of this process in essence is the ``Colorado River 
Interim Surplus Guidelines'' as adopted in the Secretary of the 
Interior=s Record of Decision (ROD) dated January of 2001.
    The Surplus Guidelines allow the Secretary to provide water to meet 
municipal and industrial (M&I) uses in the Lower Basin, particularly in 
California, during an interim period 2001- 2016 when Colorado River 
reservoirs are projected to be relatively full. Water users in 
California have been using approximately 5.2 MAF annually over the past 
20 years, 800,000 acre-feet more each year than their compact 
allocation. Interim surplus guidelines allow California 15 years to 
implement conservation programs to reduce their demand for Colorado 
River water by 800,000 AF annually. During this 15-year time frame, the 
basin states have agreed to give California a greater assurance than 
hydrology may afford that surpluses will be declared and M&I water 
demands met. These criteria, however, are structured in such a way as 
to also provide protection to the other basin states against the 
potential impacts of dry hydrology in the next 15 years. This 
protection will reduce the allowable California M&I water demands that 
can be met by surpluses as the reservoirs are lowered because of 
drought. Utah strongly supports the consensus reached by the seven 
Colorado River Basin states and requests the federal government and 
Secretary of the Interior continue to follow through on the commitments 
of all parties and be willing to enforce the provisions of the Interim 
Surplus Criteria Guidelines outlined in the ROD if that is necessary to 
assure that certain time sensitive bench marks are met. Utah believes 
such monitoring and, if necessary, enforcement is critical to 
protecting the rights of the Upper Division states (Colorado, New 
Mexico, Utah and Wyoming) and the water allocated to them under ``The 
Law of the River.''

                          CALIFORNIA 4.4 PLAN

    Of great interest and concern to all the Colorado River Basin 
states is the success of the California 4.4 Plan (4.4 Plan), which is 
an integral part of the Interim Surplus Guidelines ROD. This plan 
outlines the necessary steps California water users must take to meet 
the requirements of the Interim Surplus Guidelines ROD. Utah supports 
California=s development of the 4.4 plan and fully expects this plan to 
be finalized and in place by December of 2002 with all necessary 
agreements and compliance documents executed. While we have some 
concern over the conflicts the 4.4 plan has generated in California, we 
fully anticipate and expect the water users in California to solve 
their problems as the viability of the ``Interim Surplus Guidelines'' 
hangs in the balance. Similarly, there are some agreements which 
involve parties in Arizona and Nevada along with parties in California 
that need to be completed. Utah encourages Congress and federal 
agencies to provide support for and facilitate these agreements 
wherever appropriate, and if necessary, expedite any required federal 
review processes.

                               SALTON SEA

    Somewhat related to the 4.4 Plan are current federal efforts to 
protect/restore the Salton Sea. Some of the proposals being considered 
may be at odds with the 4.4 Plan. While the Salton Sea has become an 
important wildlife habitat, it should also be recognized that the 
Salton Sea is a manmade habitat dependent upon agricultural 
inefficiency and runoff. Any water dedicated for use in the Salton Sea 
will have to come from existing water uses in the area, which may 
conflict with the transfer of agricultural water to municipal use as 
contemplated in the 4.4 Plan and the benchmarks in the ROD. Given the 
relationship between the Salton Sea and Colorado River water use under 
the 4.4 plan, the impacts of both efforts should be carefully 
evaluated.

                          COLORADO RIVER DELTA

    The Colorado River is an international resource. Recently several 
environmental organizations have raised concerns over the Colorado 
River Delta ecosystem in Mexico, and the Mexican government has asked 
the United States to enter into a dialog concerning the restoration and 
protection of the Colorado River Delta. Utah expects the federal 
government will continue to consult with the seven Colorado River Basin 
states concerning any and all issues related to Colorado River flows to 
Mexico. At the present time environmental groups, research 
institutions, the Basin states, and the federal governments of both the 
United States and Mexico are looking for options to find ways to 
protect and restore the Colorado River Delta in Mexico. A joint, two-
country educational symposium is currently scheduled to be held in 
Mexicalli, Mexico on September 11 and 12 to discuss what is known about 
the Delta today.
    As international issues are considered, the federal government and 
Congress should recognize that the Colorado River is fully allocated 
and used. Thus, any water dedicated to the Delta will have to be taken 
from current water users and existing allocations. Also, once water has 
been delivered to the international boundary, the United States can do 
nothing about how the water is used in Mexico. The sovereign right of 
Mexico to control waters within Mexico is the same right the United 
States and the Colorado River Basin states have within their respective 
boundaries. Further any changes in Colorado River water deliveries to 
Mexico will have to take into account not only the traditional ``Law of 
the River,'' but specifically state water rights.

               FUTURE OF GLEN CANYON DAM AND LAKE POWELL

    In connection with the Colorado River Delta discussions, we have 
begun to hear the first inkling of a supposed connection between the 
operation of Glen Canyon Dam, and the well-being of the Colorado River 
Delta downstream. The erroneous theory seems to be that if the dam were 
decommissioned, the Delta would thrive. Utah opposes this and other 
unwise efforts to drain Lake Powell. Lake Powell is an integral 
component of the management and operation of the Colorado River, is 
essential to the Upper Basin states= continued effort to implement 
their responsibilities under ``The Law of the River,'' and provides 
uncounted recreation, flood control, power generations and other 
benefits. The Utah Legislature recently passed a resolution (copy 
attached) opposing the draining of Lake Powell. Utah, and, we believe, 
other Colorado River Basin states steadfastly oppose any efforts to 
decommission Glen Canyon Dam or drain Lake Powell. As stated in a Salt 
Lake Tribune editorial, it is ``Dam Foolishness.''

        UPPER COLORADO RIVER ENDANGERED FISHES RECOVERY PROGRAM

    Utah=s development of its remaining allocation of Colorado River 
Water is dependent upon compliance with the Endangered Species Act 
(ESA); particularly treatment of the four listed Colorado River fishes 
(Colorado Pikeminnow, Humpback Chub, Razorback Sucker, and the 
Bonytail). To comply with the ESA, Utah, Wyoming, Colorado, United 
States Fish and Wildlife Service (USF&WS), the United States Bureau of 
Reclamation, the Western Area Power Administration, and Environmental 
Defense Fund entered into a cooperative agreement in 1988 to recover 
these species. Much research has been completed during the last 12 
years to help us learn more about these fish. Today participants in the 
Upper Colorado River Endangered Fishes Recovery Program (Recovery 
Program) have developed a Recovery Implementation Program and a 
Recovery Action Plan that will, to the best knowledge of the scientists 
involved, recover these fishes while still allowing water use and 
development in the Upper Colorado River Basin. With the help and 
support of Chairman Hansen and this Committee, long term funding 
authorization has been obtained from Congress, along with a commitment 
by the states to cost-share at substantial levels. Utah asks that 
federal appropriations for this purpose continue.
    Revised recovery goals are currently undergoing review by the 
USF&WS and will be published this fall. Comparison of the preliminary 
drafts of the recovery goals with current population estimates indicate 
the Colorado Pikeminnow and the Humpback Chub are recovering to the 
point that down-listing is a distinct possibility in the near future if 
population trends continue. Utah is very supportive of the program and 
has committed $3.4 million over the next five years for capital 
construction of facilities for fish recovery. This is in addition to an 
ongoing commitment of resources for research, monitoring, and 
maintenance. The need for consensus in decision-making is an important 
factor in the success of the Recovery Program. The unity of purpose and 
trust among the participants along with a manageable committee size 
(currently nine members) helps the Implementation Committee make 
decisions and set policy that allows the program to succeed. Utah would 
also like to commend the federal agency participants and the 
environmental organization members of the Recovery Program for their 
willingness to discuss issues and work out solutions.

                   MULTI SPECIES CONSERVATION PROGRAM

    Fundamental to the original intent of the Recovery Program 
Cooperative Agreement was the implicit understanding that the listed 
fishes could be recovered, down-listed, and eventually de-listed in the 
Upper Basin independent of the Lower Colorado River Basin status of the 
fish.
    Utah supports the Multi-Species Conservation Program (MSCP) in the 
Lower Colorado River Basin. We note, however, that the size and scope 
of the MSCP both in terms of issues and species to be addressed, as 
well as the shear number of participants will make the success a 
difficult challenge, because consensus and unity of purpose and action 
becomes exponentially greater as the number of participants and issues 
increase. Thus, Utah believes it is imperative that recovery, down-
listing, and de-listing of currently-listed species in the Upper Basin 
not be tied in any direct or indirect way to the status of the fishes 
in the Lower Basin.

                GLEN CANYON ADAPTIVE MANAGEMENT PROGRAM

    The Grand Canyon Protection Act directed the Secretary of the 
Interior to operate Glen Canyon Dam to enhance the downstream resources 
along the river through the Grand Canyon while still meeting the 
purposes for which the dam was built. To reduce downstream impacts to 
fisheries and habitat, one of the changes made was to modify the 
hydroelectric power plant operation from a peaking power facility to a 
partial peaking power facility.
    There is a growing concern over the objectives and goals of the 
Glen Canyon Adaptive Management Program principally because many 
participants fail to recognize this program is constrained by ``The Law 
of the River.'' The Adaptive Management Workgroup, established by the 
Grand Canyon Protection Act, is an advisory group to the Secretary of 
the Interior and thus has no formal decision responsibility, a fact 
sometimes ignored by some members of the group.

                               CONCLUSION

    In conclusion, while philosophical musings and an emotional desire 
to return to simpler times have a powerful appeal, we as a society must 
acknowledge that our standard of living is, in large measure, based on 
changes we have wrought to our natural environment, including rivers 
such as the Colorado. Changes to river operations will have to be based 
on facts established using sound science and need to take into account 
the social and economic costs and benefits derived from current 
operations. Congress and the Administration need to recognize that the 
constraints of ``The Law of the River'' have been carefully and 
painfully established by legislation, negotiation, and litigation over 
a period of many years. Even though there are many unresolved issues 
facing the Colorado River water users, the basin states are trying to 
work cooperatively with the federal government, Indian tribes, and non-
governmental organizations to resolve them. While the process is not 
easy, history tells us if those involved continue to exercise comity, 
acceptable solutions are likely to be found to most problems.
                                 ______
                                 
    (Attachments to Mr. Anderson's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T3637.015
    
    [GRAPHIC] [TIFF OMITTED] T3637.001
    
    [GRAPHIC] [TIFF OMITTED] T3637.002
    
    [GRAPHIC] [TIFF OMITTED] T3637.003
    
    [GRAPHIC] [TIFF OMITTED] T3637.004
    
    [GRAPHIC] [TIFF OMITTED] T3637.005
    
    The Chairman. Thank you, Mr. Anderson. Mr. Dishlip?

    STATEMENT OF HERB DISHLIP, ASSISTANT DIRECTOR, ARIZONA 
                 DEPARTMENT OF WATER RESOURCES

    Mr. Dishlip. Mr. Chairman, Members of the Committee, on 
behalf of Governor Hull, I'd like to thank you for the 
opportunity to be here today to address Colorado River issues 
to the 21st century as it relates to the state of Arizona.
    I'm Herb Dishlip. I'm Assistant Director for the Arizona 
Department of Water Resources. Within the Arizona state 
government, the Department of Water Resources is the agency 
that is responsible for policy development and coordination of 
activities with regard to the Colorado River. Within Arizona, 
the Colorado River is probably our most important renewable 
water resource.
    Our current use of water averages about six and a half 
million acre-feet a year. We're a growing state. One of our 
biggest challenges is to manage the water supply, to 
accommodate growth, and still be able to live within our means. 
The 2.8 million acre-feet of entitlement that we have for the 
Colorado River between the Upper and Lower Basins represents 
about half of our water supply. Especially when you consider 
the fact that we are able to use water more than one time, use 
the water, generate return flows, and recycle that same water 
supply more than one time. So it is obviously the critical 
renewable water resource.
    By comparison, our local rivers generate about 1.5 million 
acre-feet, and the balance of our water supply comes from 
groundwater. And a great deal of that groundwater supply has 
been chronically mined, resulting in lowering of water tables 
over the last 60 years.
    Within our state, our biggest challenge is to reverse the 
overdraft situation and become much more reliant upon a 
renewable and reliable supply such as the Colorado River. In 
large part because of the importance of the Colorado River and 
the allocation of that river to our state, Arizona's had a long 
history of being very cautious and somewhat contentious with 
regard to the Colorado River supplies.
    Back when they did the first issue on the Law of the River 
in 1922, our state was only 10 years old; we'd become a state 
in 1912. And so one of the very first major political issues 
faced by our leadership was the Colorado River and the 
formation of the Colorado River Compact. And while we 
participated in the negotiation of the Compact, when they 
brought that Compact back to our state legislature, our state 
legislature refused to ratify it; we were the holdout. And so 
that didn't make them very popular, but it was a message really 
that in Arizona, when it comes to the Colorado River, people 
take it very, very seriously.
    Ultimately, our holdout didn't work; the Compact was 
ratified without our signature, and Hoover Dam was allowed to 
be built and development of the river supply moved forward.
    Finally, in 1944, the state realized being recalcitrant 
wasn't getting anywhere, and they did ratify the Compact and 
entered into a contract to utilize our Lower Basin supply of 
2.8 million acre-feet. Once they did that, they got fairly 
serious about putting that water to use.
    And probably the cornerstone of the ability to put that 
water to use was the development of a major diversion project 
from the river to bring it into the central basins in the 
Phoenix and Tucson area called the Central Arizona Project. But 
development of the Central Arizona Project was very long, it 
was hard-fought, it ended up in having to go to the Supreme 
Court for long years of litigation in the Arizona versus 
California case. And coming out of that case, there finally was 
a decision, and finally in 1968 it did lead to the 
authorization and beginning of construction of the Central 
Arizona Project. But again, I think it left kind of a feeling 
of a siege mentality within our state historically; that in 
order to get Colorado River supplies put to use, we were going 
to have to fight very hard for it and we were going to have to 
protect that water supply any way we can.
    With the utilization of the Central--construction of the 
Central Arizona Project though, now we are fully utilizing our 
water supplies. And it really is a new era with regard to water 
and water management in Arizona that we have now full 
capability to use all 2.8 million acre-feet of our Lower Basin 
entitlement.
    Realizing that things really have turned the corner with 
regard to the development and use, we really have focused our 
attention now on management of the Colorado River. And that's 
where, in today's issues, the interim surplus criteria was so 
important.
    As we look to the development of the river supply, one of 
the things that are--is our greatest concern is that over the 
long-term this supply is overallocated, that there is not 
enough water generated from the Colorado River to meet all the 
needs in the basin. And one of the compromises made to get the 
Central Arizona Project was that that project would take on a 
junior priority relative to California in particular in times 
of shortage. And that compromise that was made, that we 
accepted to take shortages, really has had a critical factor 
with regard to how we've looked at use of the Colorado River 
and trying to make sure that other users live within their 
means.
    Considering where we are with regard to use within our 
state, we're just building up to full utilization. The 
development of surplus criteria would have normally been a 
fairly low priority for our state; we're not really in need of 
water above the 2.8 million acre-feet on occasion, although we 
are trying to develop ways to take advantage of it through 
groundwater recharge projects. But it normally would not have 
been a high priority. But when California raised the issues 
with regard to needing more flexible reservoir operating 
criteria, we did become engaged, along with the other basin 
states, in a strong dialogue, seeing if ultimately we could get 
California to agree to reduce their overall demand, especially 
for municipal use of water, to get it back down to within their 
normal year entitlement.
    We feel that's probably the greatest security policy that 
the State of Arizona could buy, that having California living 
within its means lowers the risk of shortages to Arizona 
considerably. So we were willing to enter into these interim 
surplus arrangements.
    Part of the agreement we worked out with California and 
Nevada on the Interim Surplus Agreement is that in many years 
Arizona will actually forebear its use of the 46 percent of our 
legal entitlement to surplus water, and we will do that in 
deference to the promise by California that they will be 
reducing their demand over a 15-year period.
    Now historically, with that background I gave you about how 
contentious Arizona's been, you would have thought that a 
proposal for us to waive our rights to water would have been 
dead on arrival in our legislature. But quite frankly, there is 
a new attitude in Arizona, much more willingness to work with 
the other states to have a better management program. And I'm 
pleased to say that at the end of the last legislature, both 
House and Senate passed a concurrent resolution, and Senator 
Hull signed that resolution, which fully endorsed the interim 
surplus criteria and allowed the provisions of that criteria to 
go into place with regards to Arizona and Arizona water use.
    That's kind of--fortunately now, that took an awful lot of 
time, maybe six to 10 years of discussion and negotiation. 
Hopefully, that issue is now behind us and the interim surplus 
criteria in place, and we can look forward to future working 
together with the other states.
    A number of issues are emerging with regard to the Colorado 
River. First of all, just coming off of the interim surplus 
criteria, the need to reduce the 4.4 million acre-feet by 
California. Inherent in that agreement is an understanding that 
we're going to have to better manage and account for the 
Colorado River water. We need to know who is using water, how 
much, how much return flow is generated, and are we living up 
to these agreements by living within our means. We definitely 
need to have better accounting mechanisms. And included in that 
determination, we need to know whether the water that is pumped 
from the flood plain near the Colorado River should be 
considered Colorado River water, subject to Federal law, or 
should it be considered groundwater, subject to state law. 
These are important decisions that have to be made, mostly on a 
technical basis, but it's critical to doing that better 
accounting.
    We have a number of issues emerging. Arizona shares the 
border with Mexico, our southern border, and in particular, we 
even have a section of Arizona that has--about 26-mile section 
where we share the border, that the Colorado River west of 
Arizona is the Republic of Mexico. And this is in our Yuma 
area. And the management of water supplies in the Yuma area has 
long been subject to a lot of issues, especially with regard to 
the salinity of the water and how return flows are generated. 
And really emerging issues have to do in large part with how 
are we managing the water supply that we deliver to the 
Republic of Mexico.
    The salinity issue at the south international boundary has 
been raised through the International Boundary Water 
Commission. We are working with the Bureau of Reclamation and 
the IBWC to see if we can find ways at certain periods of time 
to improve the quality of the water that is delivered at the 
south boundary.
    Related to the issue of south boundary deliveries is the 
issue of the Yuma Desalting Plant. I think the--coming out of 
the interim surplus criteria was a recognition that as we 
manage the water supply, what happened back in the early 1970's 
under the Salinity Control Act and the authorization of the 
desalting plant, which has not been operated, that issue is now 
coming into focus, should it be operated, shouldn't it be 
operated, if it's not operated, what alternative means can be 
done. The primary focus is not really so much in most years to 
improve the quality of the water so much to deliver to the 
Republic of Mexico, but to actually reclaim some water and make 
it more usable within our entitlement, and save water supplies 
in Lake Mead from being released.
    One of the difficult issues with the Yuma Desalting Plant 
is that in the interim period that has evolved, drainage water 
from the Wellton-Mohawk project has resulted in a very high 
quality riparian habitat in the Republic of Mexico called the 
Cienega de Santa Clara. There's a great deal of wildlife value 
and benefit associated with that use of that water.
    The State of Arizona is very interested in making sure that 
some kind of solution is put in place, whether we run the 
desalt plant or find an alternative, but something that's done 
that doesn't create an impact to our water users, does not 
create increased risks of shortages.
    But we are willing to work with the Bureau of Reclamation 
and the IBWC to see if other alternatives are out there. Right 
now I don't know that there are any, but we are willing to try 
to solve that problem as well.
    The delta has been mentioned by Mr. Anderson. This is 
another emerging issue. The delta again is a valuable wildlife 
resource in the Republic of Mexico. The difficulty is on an 
overappropriated river where a treaty, an international treaty 
has been in place for many years, where can we generate 
additional water resources to restore the delta. This is a very 
difficult problem.
    I think as Arizona has looked at this issue, we want to 
make sure that if any effort is put into delta restoration for 
wildlife, it's being done in the most scientifically useful 
way. And again, it has to be done in a way that has no impact 
on Arizona water users and on the reliability of that supply.
    The last issue I want to mention is Endangered Species Act. 
The Endangered Species Act, while many people feel needs to be 
modified, I think most water users now are of the understanding 
that it's not going to go away, and that we have to accommodate 
the needs of the endangered species somewhat as a cost of doing 
business.
    In that regard, the state of Arizona is participating with 
Nevada, California, and the Federal Government to develop a 
multispecies conservation program, to invest funding and 
resources in trying to restore habitat along the Lower Colorado 
River Basin. We think this is a very valuable program.
    One of the difficulties though is that the cost of doing 
business for endangered species can become very high, and there 
is a lot of uncertainty with where the funding will come from 
with regard to putting that program in place, how much will it 
cost, how much will that translate into impacts on existing 
power and water users.
    Those are some of the highlights of the issues with regard 
to the Colorado River as we look at the 21st century. I just 
want to reiterate how important the Colorado River is to the 
state of Arizona. It really is our lifeline. And as our history 
has shown, we're willing to invest a great deal of time, money, 
energy, hopefully not any more litigation, that's hopefully not 
the direction we're headed with the Colorado River any more, 
but it is a really critical water supply for our state. Thank 
you.
    [The prepared statement of Mr. Dishlip follows:]

 Statement of Herb Dishlip, Assistant Director, on behalf of Joseph C. 
         Smith, Director, Arizona Department of Water Resources

    Good Morning. I would like to thank the House Committee on 
Resources for the opportunity to provide the State of Arizona's 
perspective regarding management of the Colorado River for the 21st 
century. The Arizona Department of Water Resources is the agency within 
Arizona that is statutorily authorized to represent the State's 
position regarding Colorado River matters in dealings with the 
Department of the Interior, other federal agencies and the 
representatives of the other basin states.
The Importance of the Colorado River to Arizona
    The Colorado River is Arizona's largest and most valuable renewable 
water resource. Arizona has an annual water demand for about 6.5 
million acre feet (maf). Our primary internal stream systems, the Salt, 
Verde, Gila and Little Colorado Rivers produce only about 1.5 maf 
annually. On the other hand, our Colorado River entitlements in the 
Lower and Upper Basins total 2.85 maf. Some of that supply is used more 
than once since irrigation uses along the Colorado River produce 
useable return flows. When that fact is considered, the Colorado River 
can meet over half our needs. The final primary water source used in 
our State is groundwater, and much of that withdrawal and use 
represents a mining condition. In many of our State's basins, water 
tables have dropped by hundreds of feet over the last sixty years.
    In large part due to the importance of the Colorado River in 
Arizona's water budget, the State has had a history of being very 
conservative and protective with its supplies and its claims for water 
rights. While Arizona participated fully in the negotiation of the 
Colorado River Compact in the early 1920's when it came time to ratify 
that agreement, the Legislature refused. The Compact negotiations were 
successful in apportioning water between the Upper and Lower Basins, 
but did not apportion the water between the Lower Basin states. 
Arizonans believed that they would need, and indeed deserved, a much 
larger share of the Colorado River supply than what California was 
offering. The Arizonans believed that if they continued to hold out and 
use their political influence to delay the construction of Hoover Dam, 
the California representatives would relent and Arizona would get a 
larger share of the Colorado River. While that was the theory, the 
reality was that the other Basin states lost patience with Arizona's 
recalcitrance and moved forward to have the Compact ratified by six 
states as long as California ratified and as long as they agreed to 
limit their share to no more than 4.4 maf. This event allowed the 
beginning of the development of the Colorado River, but it also fixed 
in place within Arizona a very long-term perspective of caution 
regarding Colorado River management.
    Arizona finally relented to the inevitable and agreed to ratify the 
Compact in 1944. It then began to move forward aggressively to develop 
its water share, primarily through the construction of the Central 
Arizona Project (CAP). Federal authorization for the construction of 
the project came slowly due to objections first from California and 
then from the Upper Basin states. This process, which finally came to a 
head in 1968, left Arizona with somewhat of a siege mentality regarding 
protecting its Colorado River supplies. Another outcome of the CAP 
negotiations was that Arizona had to accept a lower priority for its 
CAP water in times of river shortage. In other words, California would 
be entitled to all of its 4.4 maf so long as the CAP received any 
water. This one compromise of establishing priorities between the 
states, while very common in the west, was new to the Colorado River. 
The risk of having to bear shortages to our basic entitlement has had a 
greater impact on Arizona's perspective on Colorado River management 
than any other factor.
    While it is clear that the water supply from the Colorado River is 
critical to Arizona's economy, there are many other ways that Arizona 
benefits from the Colorado River. Hydroelectric power from the Bureau 
of Reclamation (Bureau) dams is widely used within Arizona. 
Recreational activities, including boating and rafting, are very 
important to our citizens and to a much broader national and 
international community. The Colorado River is also very valuable as a 
wildlife resource. It provides both sport fishing and extremely 
valuable riparian habitat for non-sport fishing and other wildlife.
Today's Colorado River Issues
    This background history sets the stage for dealing with today's 
Colorado River issues. By far the greatest issue in recent years has 
been the development of Interim Surplus Criteria. While California has 
been using more than its basic apportionment of 4.4 maf for many years, 
Arizona is just now approaching full use of its entitlement. Without a 
significant need for additional water, the development of surplus 
criteria would normally have been a low priority. Arizona water users 
would be perfectly satisfied to hold reservoirs high thereby maximizing 
carryover storage to protect against shortages.
    Arizona could have dug-in like we have in the past and refused to 
cooperate with California. However, in recognition that the conditions 
and issues of the late 1990's were very different than the early 
1920's, Arizona's water community decided that reaching a reasonable 
compromise with California was preferable to continuing to fight. 
Somewhat due to a strong linkage between the two state's economies and 
somewhat due to the recognition that our interests have a lot more in 
common than we have differences, we attempted to put together a package 
which provided California with the necessary relief it needed, but 
still protected Arizona from impact of shortage. We believe that the 
seven basin states proposed agreement presented to the Secretary of the 
Interior and ultimately adopted as his preferred alternative, while 
somewhat complex, set the stage for a new era in dealing cooperatively 
to solve future water management issues.
    In recognition that the overall agreement will result in a 
reduction of California's water demand to 4.4 maf over 15 years, 
Arizona has agreed to a surplus criteria that will in many of those 
years waive its rights to its 46% of annual surplus entitlements. 
Previously, such an agreement would be dead on arrival in Arizona, but 
that was not the case. The good faith agreements made by California 
water agencies, especially the San Diego County Water Authority, the 
Imperial Irrigation District, the Coachella Valley Water District and 
the Metropolitan Water District of Southern California, have been 
treated with a new sense of trust. Recently, the Arizona Legislature 
passed, and Governor Jane Hull signed, a concurrent resolution that 
will provide Arizona's official blessing to the agreements that 
underlie the surplus criteria.
Emerging Colorado River Issues
    With the surplus criteria issue hopefully behind us it is time to 
look forward to solving new critical issues along the Colorado River.
    <bullet> Better measurement and water accounting
    The Interim Surplus Criteria and the California 4.4 Plan define 
limits on various water users. Those limits must be enforced. The 
Bureau must now begin to act as the water master or state engineer. The 
Bureau must refine its definition of the Colorado River water 
accounting surface to more firmly establish what water is considered 
Colorado River water subject to the ``Law of the River ``and what is 
considered groundwater subject to state laws. Another part of 
enforcement will be to define when water users have exceeded their 
entitlement and then require payback or mitigation. More accurate 
methods of determining consumptive uses must be adopted including more 
accurate accounting of measured and unmeasured return flows.
    <bullet> Mexican border issues
    Salinity levels have long been an issue and resulted in a 
modification of the 1944 treaty through adoption of Minute 242. 
Management of irrigation return flows in the Yuma area plays a critical 
role in deliveries to Mexico. The Mexican officials have expressed 
concern about rising salinity levels at the southern international 
boundary. Opportunities are being investigated to provide an alternate 
water supply during critical periods to alleviate some of the water 
quality concerns.
    The implementation of the Interim Surplus Criteria has put focus on 
the issues associated with the running of the Yuma Desalting Plant 
(Desalting Plant). This Desalting Plant was constructed as an 
authorized feature of the Colorado River Salinity Control Act, but it 
has never been operated. Currently, over 100,000 acre feet of 
irrigation return flows in the Yuma area are being bypassed to Cienega 
de Santa Clara. The Salinity Control Act established a national 
obligation to reclaim that supply and make it useable for delivery to 
Mexican water users. However, in the intervening years, the return 
flows have created a very valuable wildlife resource in the Cienega. 
The Bureau must find ways to meet the obligation established by the 
Salinity Control Act. Arizona is willing to work with the Bureau in 
identifying alternatives that will not require the use of the Desalting 
Plant. However, Arizona is not willing to bear any additional risks to 
its water supplies or increase the risk of shortages to the CAP that 
could be the result of alternatives that would be less effective than 
the original concept of reclaiming the water through the Desalting 
Plant.
    Restoration of the wildlife habitat associated with Colorado River 
Delta in Mexico has been the subject of much recent discussion. 
Arizona, along with the other basin states, has begun to engage in a 
dialogue with non-governmental organizations and the International 
Boundary and Water Commission to better define the problems and needs 
of the Delta. Arizona believes restoration efforts must be done using 
the best scientific information about the needs of region. Arizona is 
cautious about proposals that might require water resources that would 
be in addition to those provided to the Republic of Mexico in the 1944 
Treaty. As mentioned earlier in this testimony, Colorado River 
resources are extremely important and valuable to Arizona. We cannot 
foresee support for any plan that would put Arizona's ability to fully 
utilize its share of that resource at risk because more water would 
need to be made available to the Delta.
    <bullet> Endangered Species Issues
    The Lower Colorado River area has been identified as critical 
habitat for a number of endangered species. Arizona has joined with the 
other Lower Basin states and the federal agencies to develop a 
comprehensive management approach called the Multi-Species Conservation 
Program (MSCP). Arizona believes that the MSCP currently represents the 
best approach to providing for recovery of existing endangered species 
while at the same time providing adequate habitat to avoid the listing 
of any new species. The comprehensive nature of the MSCP is intended to 
provide the means to allow the Bureau and the various water and power 
users to continue to operate the Colorado River system to provide 
traditional benefits while still protecting critical habitat. While 
there are many who advocate that the Endangered Species Act should be 
modified, it is not going away. It must be dealt with as part of the 
``cost of doing business''. The MSCP is a positive cooperative Federal, 
state and private process to mitigate endangered species impacts and to 
recover species. Unfortunately, this new cost of business can be very 
expensive. How will the funding be obtained? What is a fair 
distribution of the costs? Resolution of these issues will make or 
break the program.
Conclusion
    Arizona has long recognized the importance of the Colorado River to 
its economy and its quality of life. As the 21St century begins, we 
recognize that without increased attention paid to the management of 
the River's resources, new issues and conflicts will arise. Arizona's 
involvement in the development of the Interim Surplus Criteria should 
be viewed as an example of how the State and its water and power users 
have recognized that parties with differing points of view can work 
cooperatively to find innovative solutions and avoid litigation. New 
issues are emerging and will undoubtedly be difficult to solve. It is 
Arizona's desire to be an active participant in finding solutions to 
those issues.
                                 ______
                                 
    The Chairman. Thank you. Ms. Jeanine Jones.

   STATEMENT OF JEANINE JONES, DROUGHT PREPAREDNESS MANAGER, 
            CALIFORNIA DEPARTMENT OF WATER RESOURCES

    Ms. Jones. Mr. Chairman, Members, thank you for inviting 
California to testify at your field hearing today. I'm Jeanine 
Jones, the Drought Preparedness Manager for the California 
Department of Water Resources, and an alternate board member of 
California's Colorado River Board.
    The Colorado River is our largest interstate water supply 
and it's very important to urbanized southern California, which 
is about 60 percent reliant on imported supplies. About half of 
California's population lives within the service area of the 
Metropolitan Water District in southern California, and more 
than half of the service area's imported water supply comes 
from the Colorado River.
    If we were limited today to our basic annual interstate 
apportionment of 4.4 million acre-feet, MWD's Colorado River 
Aqueduct would be flowing only about half full. And this fact 
has been one of the significant inducements for our local 
agencies who use river water to work together to develop the 
Colorado River Water Use Plan. The Plan describes actions that 
the local agencies will take to reduce their use of river 
water, such as, for example, transfers of conserved 
agricultural water to the urban areas, lining the remaining 
unlined portions of the major U.S. Bureau of Reclamation 
conveyance facilities, and groundwater storage projects.
    Implementing the Plan can't be accomplished, however, 
without further quantification of the agencies' historical 
rights to river water that were established in the 1931 
agreement. So therefore, this entails negotiating a new 
agreement among the local agencies that's known as the 
Quantification Settlement Agreement, or the QSA. This master 
agreement, together with a number of other documents and 
accompanying agreements, will establish the framework to allow 
Plan activities, such as the agricultural to urban water 
transfers.
    In 1999, the local agencies reached agreement on the key 
terms to be used for this QSA and its water budget, and work 
since then has focused on finalizing the QSA, the related 
agreements, as well as on the state and Federal environmental 
compliance activities that will allow the agencies' boards of 
directors to execute this package of agreements.
    The QSA and related agreements are expected to be finalized 
for environmental review by the end of this year, leaving next 
year for completion of the Federal and state environmental 
processes. It is imperative that the QSA and its accompanying 
agreements be executed by the end of 2002, as was already 
mentioned, or else the benefits to California of the recently 
adopted Interim Surplus Guidelines will be suspended until such 
time as California does execute the agreement. The Guidelines, 
in essence, are providing a safety net for California while the 
measures in the Water Use Plan are being put in place, and 
their suspension would put urbanized southern California at 
substantial risk of shortages.
    California appreciates the recognition of the other basin 
states of this risk of substantial M&I shortages as well as the 
other states' cooperation in developing the joint proposal that 
eventually became the Interim Surplus Criteria that were 
approved earlier this year.
    The local agencies are making good progress toward 
implementing on-the-ground actions to reduce use of river 
water, assisted by substantial state funding that's been made 
available through the state's general fund and through voter- 
approved bond measures for the water management actions. For 
example, we recently executed a contract providing $74 million 
of state financial assistance to Metropolitan Water District 
for lining the remaining portion of the Coachella Canal, and 
we're very near signature of another contract providing $35 
million in state funding for MWD's Hayfield Groundwater Storage 
Project, which will cost a little more than double the amount 
of our contribution.
    The most significant obstacle at this point to the local 
agencies being able to finalize the QSA package and move 
forward with the Water Use Plan is uncertainty associated with 
Salton Sea environmental restoration plans. When the agencies 
had agreed to the key terms in 1999, it was expected that a 
Salton Sea restoration program would be adopted fairly soon, 
prior to QSA execution, therefore defining a baseline against 
which the environmental impacts of the proposed urban water 
transfers could be assessed. As it has turned out, selection 
and implementation of the Salton Sea Restoration Plan remains 
pending. And if these issues aren't addressed in a timely 
manner, the local agencies may not be able to reach agreement 
on the QSA before the initial compliance date for the Interim 
Surplus Guidelines, which is, of course, a concern to everyone. 
We remain hopeful that a way can be found to accommodate Salton 
Sea restoration programs while allowing the QSA to go forward. 
Thank you.
    [The prepared statement of Ms. Jones follows:]

 Statement of Jeanine Jones, Drought Preparedness Manager, California 
                     Department of Water Resources

    Mr. Chairman, Members, thank you for inviting California to 
participate with the other Basin States in your field hearing. My 
testimony will briefly describe the role of the Colorado River in 
California's overall water supplies, then summarize the status of 
implementation of California's Colorado River Water Use Plan and the 
Colorado River Interim Surplus Guidelines affecting Lake Mead 
operations. The Colorado River Water Use Plan is a framework document 
identifying how California will reduce its use, over a multi-year 
period, to the basic interstate apportionment provided in statute. The 
Interim Surplus Guidelines, adopted by the Department of Interior this 
January, are a key component of the Water Use Plan.
Role of Colorado River in California's Water Supplies
    The Colorado River is California's largest interstate water supply. 
To put the river into perspective with California's overall water 
supplies, the State's average annual intrastate surface water runoff is 
about 71 million acre-feet; average annual interstate Colorado River 
supplies have historically been about 5.2 MAF. Colorado River supplies 
have been highly reliable, buffering urbanized Southern California 
against the impacts of the State's 1987-92 drought. Nearly 60 MAF of 
surface water storage has been developed on the river system as a 
whole, corresponding to about four times the river's average annual 
flow. This substantial storage capacity makes possible the operational 
flexibility key to implementing the Interim Surplus Guidelines.
    Much of the area within California served by the Colorado River has 
no other significant water supply. The river supports agricultural 
water users in the southeastern corner of the State--providing 
virtually all of the water used by Imperial Irrigation District (IID), 
Palo Verde Irrigation District (PVID), and the Yuma Project, as well as 
much of the water used by Coachella Valley Water District (CVWD). The 
river supports urban water users in the intensively developed Southern 
California coastal plain, an area that includes all or parts of six 
counties and half of the State's population. More than 60 percent of 
urbanized Southern California's water supplies have historically been 
imported from elsewhere--from the Central Valley by the California 
Department of Water Resources' (CDWR's) State Water Project, from the 
Mono-Owens River area by the City of Los Angeles Aqueduct, and from the 
Colorado River by Metropolitan Water District's (MWD's) Aqueduct. More 
than half of the region's imported water supply has historically come 
from the Colorado River. The river provides valuable hydrologic 
diversification for Southern California in the event of dry conditions 
in Northern California watersheds.
    Use and management of Colorado River water is governed by the 
complex body of statutes, decrees, court decisions, and contracts known 
collectively as the Law of the River. One key California element is the 
Seven Party Agreement of 1931, which divided the Colorado River waters 
apportioned to California among local water users--PVID, Yuma Project, 
IID, CVWD, MWD, the City of Los Angeles, and the City of San Diego and 
the County of San Diego. (The City of San Diego and the County of San 
Diego are both now represented in Colorado River matters by the San 
Diego County Water Authority (SDCWA)). The local water users receive 
their share of California's apportionment through contracts with the 
U.S. Bureau of Reclamation (USBR). Expanding upon the Seven-Party 
Agreement to further quantify rights and priority to use of Colorado 
River water lies at the heart of implementing California's Colorado 
River Water Use Plan.
Development of a Plan
    California's use of Colorado River water has historically exceeded 
its basic apportionment of 4.4 MAF annually (plus half of any available 
surplus water in the Lower Basin), because California has been able to 
put to use surplus water as well as the unused apportionments of Nevada 
and Arizona. Completion of USBR's Central Arizona Project, Arizona's 
1996 enactment of a state groundwater banking act, population growth in 
Nevada and Arizona, and increased Upper Basin water use have all 
contributed to the diminution of unused apportionment water and surplus 
water. Water use in the Lower Basin States is now exceeding the yearly 
7.5 MAF basic limit established by the Law of the River.
    Renewed interest among the other Basin States regarding 
California's need to reduce its historical reliance on river water 
began during the 1987-92 drought, when shortages in imported Northern 
California supplies highlighted urban Southern California's dependence 
on the Colorado River. As set forth in the Seven Party Agreement of 
1931, this densely urbanized area is the junior water user within 
California with respect to its basic apportionment of Colorado River 
water. MWD's Colorado River Aqueduct would flow only about half full if 
California were to be suddenly limited to the 4.4 MAF basic annual 
apportionment, reducing Southern California's water supplies by as much 
as 600 thousand acre-feet and creating severe economic impacts. 
Discussions among the Basin States regarding California's need to live 
within its apportionment resulted in preparation of a document by the 
Colorado River Board of California (CRB) illustrating how the local 
agencies would reduce their use of river water through actions such as 
the conservation of agricultural water and its transfer to urban 
agencies. The first of these conservation and transfer actions was 
embodied in a 1988 agreement between MWD and IID. Subsequently, initial 
agreements were reached between SDCWA and IID for another project of 
this type.
    CRB's document, then known as the draft ``4.4 Plan'', was released 
in December 1997; it has expanded over time into the draft Colorado 
River Water Use Plan. The Plan remains in draft form today, pending 
completion of the Quantification Settlement Agreement (QSA), other 
related agreements, and resolution of Salton Sea environmental issues. 
The Plan, also intended to resolve pending legal disputes within 
California, is based on the premise that its interlinked water 
management actions and agreements among California's users of river 
water will be implemented as a package; its components are not intended 
to be separable.
    The draft Plan describes water management actions to be taken in 
the near-term to reduce river water use, and identifies other actions 
that need further evaluation before they can be implemented. Actions 
identified for near-term implementation by the local agencies involved 
in Plan preparation include lining the remaining unlined sections of 
USBR's All-American and Coachella Canals, implementation of the IID-
SDCWA transfer, and development of groundwater conjunctive use and 
storage projects. The Plan also describes actions that may be taken by 
individual water retailers or water users, especially within urbanized 
Southern California, to reduce their dependence on imported water 
supplies. These actions, including water conservation, water recycling, 
and groundwater management projects, are eligible for State financial 
assistance from voter-approved bond measures. Department of the 
Interior adoption of the Interim Surplus Guidelines for Lake Mead 
operations and the development of certain water administration/water 
accounting procedures are also key components of the Plan. The 
accounting procedures include an inadvertent overrun and payback policy 
under development by USBR in consultation with the Basin States.
    It was apparent during initial development of the 4.4 Plan that new 
Colorado River water management practices, such as the proposed 
agricultural to urban water transfers, could not be implemented without 
further quantification of rights and priority to use of Colorado River 
water. In essence, the negotiators of the 1931 agreement simplified the 
task before them by making only a partial division of California's 
apportionment, leaving it for others to complete the task. Most 
importantly, the agreement does not specifically quantify the 3.85 MAF 
of water contained in its first, second, and third priorities and 
allocated to the agricultural agencies, nor does it quantify the 
division of third-priority water among the agencies. The agreement also 
does not contain water operations or accounting provisions, such as 
measurement locations and methods and treatment of return flows.
    Much of the time needed for Colorado River Water Use Plan 
development has been spent by the local water agencies in negotiating 
the further quantification of rights and priority to the use of 
Colorado River Water needed to enable Plan implementation. The initial 
result of these negotiations was a document known as the Key Terms for 
Quantification Settlement, completed in October 1999. This document 
sets forth water budgets and transfers associated with Plan 
implementation. As stated in the document, This is not a contract or an 
enforceable legal document. Rather these key material terms will be 
utilized by the Districts to obtain public input and by the Districts' 
attorneys and negotiators to prepare legal documents that will contain 
all of the terms and provisions of the Quantification Settlement. 
Following release of these Key Terms, the local agencies began 
negotiation of the QSA, an over-arching agreement to incorporate the 
Key Terms and link together other separate agreements (among the local 
agencies themselves, between individual local agencies and the 
Secretary of the Interior, and between individual local agencies and 
the State of California) associated with elements of the QSA. These 
other agreements include, for example, local agencies' water 
acquisition agreements to match the water budgets established by the 
Key Terms. Related work includes preparation of environmental 
documentation pursuant to the California Environmental Quality Act and 
National Environmental Policy Act.
Current Status of Plan Implementation
    It is expected that the QSA and its related agreements will be 
completed for consideration by the boards of directors of the local 
water agencies by the end of this year, pending completion of 
environmental documents. The local agencies are now focusing much of 
their time on preparing the environmental documents. Addressing Salton 
Sea impacts associated with planned projects such as the IID-SDCWA 
transfer is key to moving forward with execution of the QSA and its 
related agreements. When the Key Terms were adopted in 1999, Salton Sea 
restoration work--the outcome of studies being prepared by the Salton 
Sea Authority and by the federal government--was expected to be 
implemented before the effective date of the QSA. The restoration work 
subsequently did not proceed as expected, substantially complicating 
QSA negotiations.
    Meanwhile, a major milestone was reached in January 2001 when the 
Secretary of the Interior signed a Record of Decision for the Interim 
Surplus Guidelines, as jointly recommended to him by all seven Basin 
States. Subsequently, the State of Arizona ratified a Surplus 
Guidelines Agreement with MWD as part of enabling implementation of the 
guidelines. A Surplus Guidelines Agreement is also under development 
between MWD and the Southern Nevada Water Authority. Surplus conditions 
have been declared for 2001, allowing MWD to maintain a full Colorado 
River Aqueduct. If the QSA and its related agreements are not fully 
executed in their final form by December 31, 2002, the benefits to 
California of the Interim Surplus Guidelines will be suspended until 
such time as the agreements are completed, and the reliability of 
Southern California's water supplies will be at risk.
    The Guidelines describe how USBR will manage Lake Mead releases 
over the next 15 years, and have been characterized as providing a 
``soft landing'' for California water agencies while they carry out 
Plan actions to reduce their use of river water. The Guidelines allow a 
greater fluctuation in reservoir operating levels within the historical 
range of Lake Mead operations, providing increased certainty that urban 
water users in MWD's service area will continue to experience a full 
Colorado River Aqueduct through federal declarations of surplus 
conditions. The Guidelines also provide surplus water benefits to urban 
water users in Southern Nevada and Arizona. California has appreciated 
the cooperative spirit with which its neighboring Lower Basin States 
have helped make this limited-term reservoir reoperation possible.
    The Guidelines contain incentives for California to implement the 
Water Use Plan in a timely manner. They provide that if California does 
not meet specified water use reductions during the 15-year period, Lake 
Mead operations will revert to the historical spill-avoidance mode and 
MWD will bear the associated risk of shortages to its urban service 
area. In particular, it is critical that the Plan's canal lining 
projects be completed by 2006 for MWD to avoid the risk of shortages.
    In 1998, California legislation authorized the provision of $235 
million from the State General Fund to support Water Use Plan 
implementation by providing financial assistance for lining parts of 
the All American and Coachella Canals and for groundwater storage and 
conjunctive use projects. CDWR has executed an agreement with MWD to 
provide $74 million for the Coachella Canal lining; this project is now 
at the design stage. CDWR is nearing completion of a similar agreement 
with MWD to provide $35 million for its Hayfield groundwater storage 
and conjunctive use project. Up to 800 TAF of surplus Colorado River 
water, when available, could be stored in a groundwater basin adjacent 
to the Colorado River Aqueduct at Hayfield Valley, located in a desert 
area east of the Coachella Valley. This estimated $68 million project 
is expected to be completed by 2006. Negotiations have also begun on an 
agreement with IID for funding the All American Canal lining. The 1998 
legislation placed conditions on the availability of State canal lining 
funding, including a requirement that no money be expended until 
specified environmental compliance actions were completed. Expenditure 
of State funds is pending completion of environmental compliance 
actions.
    In addition to these State monies specifically targeted for 
Colorado River Water Use Plan implementation, financial assistance 
provided by recent State bond measures will further help local agencies 
in Southern California reduce their reliance on Colorado River water. 
Statewide, the 1996 Proposition 204 made available $60 million for 
water recycling loans/grants and $25 million for groundwater recharge 
and water conservation loans, plus $2.5 million for Salton Sea 
environmental studies. Proposition 13 in 2000 provided $40 million for 
water recycling loans/grants, $155 million for recharge and water 
conservation loans/grants, $200 million for groundwater storage grants, 
and $235 million for Santa Ana River watershed project grants that 
include groundwater reclamation/water conservation/water recycling.
    In summary, water agencies throughout Southern California have been 
moving forward with projects to lessen their dependence on imported 
supplies from both the Colorado River and the SWP, facilitated by the 
substantial State bond funding recently made available, and by initial 
implementation of the CALFED Bay-Delta Program. It remains important 
for the State and federal governments to support the agencies' efforts 
to maximize their locally available supplies and to maintain the 
quality of the environmental resources associated with use of the 
imported supplies.
                                 ______
                                 
    The Chairman. Thank you. Mr. Holsinger.

   STATEMENT OF KENT HOLSINGER, ASSISTANT DIRECTOR, COLORADO 
                DEPARTMENT OF NATURAL RESOURCES

    Mr. Holsinger. Thank you, Mr. Chairman, Members of the 
Committee. I'm Kent Holsinger, Assistant Director of Colorado 
Department of Natural Resources. It's a real pleasure and a 
real honor to be here today before the Committee here in Salt 
Lake City to talk about Colorado River issues.
    Nearly four-fifths of the flow at Lee Ferry in Arizona 
originates from Colorado, the headwaters of Wedge Harbor, the 
Colorado River. From there it begins its 1,400-mile descent 
over 12,000 vertical feet until it eventually reaches the Sea 
of Cortez in the Republic of Mexico.
    Millions of Coloradans on both sides of the Continental 
Divide depend upon the Colorado River for drinking water, 
irrigation, power production, and other uses, such as 
recreation. We are allocated some 51.75 percent of the Upper 
Basin's allocation of the Colorado River. That equates to about 
3.855 million acre-feet, as set forth under the compacts.
    But Colorado, as you well know, as many of the Western 
states, is experiencing rapid growth and rapid increases in 
demand on Colorado River water from a variety of different 
sectors, and our infrastructure has not kept up with the 
demand. With 4.2 million people, we have more and more demand 
on the Colorado River for increasing drinking water supplies 
for municipal areas and other uses.
    And as we know, the best protection against increasing 
demand, against drought that is certain to occur, prolonged 
drought, is new water storage in the basin. The Army Corps of 
Engineers estimates that water storage in Colorado has saved 
some $20 billion against flooding and drought in the state; 
that's about $6 for every dollar spent on new water storage in 
our state. And demand is certain to point to the need for more 
in the future.
    Today we have several challenges on the Colorado River. One 
is implementing California's Water Use Plan. The State of 
Colorado greatly appreciates the work of the other basin 
states, and particularly of California, to coming to this 
historic agreement to limit them to their 4.4 million acre-
feet. But now we need to see that that Plan is implemented in a 
way that comports with the Plan itself and the Law of the 
River.
    Pressure from environmentalists on the Mexican delta is a 
topic that you've heard about today and one that we share great 
concerns about. I might point out to the Committee that we're 
in compliance with the 1944 treaty that regards Colorado River 
water use among the two nations, and certainly with the Law of 
the River.
    I might also add that Mexican agriculture lies between the 
border of the United States and the Sea of Cortez, and nearly 
every drop of the Colorado River is diverted for that 
agriculture in Mexico. Similarly, they have plans, great plans 
for development along the delta, and we urge the Committee to 
consider how Mexico's use of Colorado River water affects the 
environment in the delta. And we strongly oppose using Colorado 
River water from the United States to address any perceived 
problems there.
    We also see Federal challenges to Colorado River water use. 
The Endangered Species Act was mentioned earlier today. We also 
have Federal reserved rights claims, bypass flows, and other 
challenges to grapple with. Among the foremost in that arena 
may be recovery goals for the endangered Colorado River fish. 
The State of Colorado is working very hard to see that any 
goals published are consistent with the Law of the River, state 
laws, and interstate compacts that make it up, and that 
recovery goals are based on species response and not Federal 
control over the Colorado River.
    We also face quantification of the National Park Service's 
reserved rights claims to the Black Canyon and the Gunnison. 
The flows claimed by the Park Service there are so great they 
would greatly impact power production, they would ruin gold 
medal trout habitat, and potentially cause dam safety and 
flooding problems in the towns of Delta and Grand Junction in 
Colorado.
    We have the U.S. Forest Service continuing to impose bypass 
flows on our water providers whenever they have permits that 
come due, and we hope the Committee will take an interest in 
maybe creative ways to resolve problems with the Forest Service 
in protecting flows on forest lands without extorting them from 
our water providers.
    We have forest management issues as well. The same--the 
same problems that have caused the wildfires in recent years in 
the West are also greatly diminishing water yields on National 
Forest lands that otherwise would be in the system for the 
states to use. With 40 million acres subject to catastrophic 
wildfires, we've got a real problem with the density of our 
forests and how that affects our water yields.
    The best state of the science says that there is a direct 
relationship between our forest and our water, and would urge 
the Committee to consider that, and the United States Forest 
Service and the administration as well.
    Glen Canyon Adaptive Management Work Group, we have 
concerns with where we're going there, where we've been. It's 
been several years now without significant oversight, I think, 
or even an audit into how this process was proceeding, how what 
they're doing affects power production and water supply issues 
in the West.
    In conclusion, Mr. Chairman, there's a myriad of difficult 
issues along the Colorado River. We greatly look forward to 
working with the other basin states, the Congress, and the 
administration to address these issues. We have much in common. 
Perhaps, most importantly, we share a need to educate the 
public about the value of our water resources and the risk to 
our water resources.
    With that, Mr. Chairman, I'll conclude my remarks. And 
again, I appreciate the chance to be here today.
    [The prepared statement of Mr. Holsinger follows:]

Statement of Kent Holsinger, Assistant Director, Colorado Department of 
                           Natural Resources

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss management of the Colorado River 
for the 21st Century. With ever-increasing demands on Colorado River 
water, the seven Colorado Basin States must protect their ability to 
manage, allocate and use it under the complex array of state laws, 
interstate compacts, treaties and agreements that comprise ``the Law of 
the River.'' For over a century, some form of the doctrine of prior 
appropriations has guided Western states through economic prosperity 
and depression, through wet years and dry years, through thick and 
through thin. Water defined the history of the West, as it will surely 
influence its future.
Background
    The first European explorers labeled what is now the State of 
Colorado an arid wasteland--a ``Great American Desert'' unfit for 
settlement or cultivation. Easterners considered agriculture in 
Colorado impossible and irrigation absurd. But thousands traversed the 
Great Plains and followed Horace Greeley's call to ``Go West young man 
and grow with your country.'' With courage, ingenuity and grit, the 
pioneers transformed the arid desert into the fertile land we recognize 
as Colorado today.
    Perhaps no river defines the State like the Colorado River. It 
begins in the tundra of the Rocky Mountains as trickle of frigid 
snowmelt cascading down the West side of Longs Peak. There, it begins 
its fourteen hundred mile, winding descent. From its humble beginnings, 
the Colorado River quickly swells, sweeping in runoff from countless 
tributaries in Western Colorado. It then carves through mountains, 
canyons, plains and desert before quietly disappearing into the Sea of 
Cortez. Millions of people in Colorado and the West depend upon the 
Colorado River for drinking water, irrigation, recreation and power 
generation. It has earned the reputation as the most ``legislated, 
litigated, and debated'' river in the world.
Colorado's Use of the Colorado River
    The Colorado River is a vitally important resource for the State of 
Colorado. Approximately 11.0 million acre feet (MAF) of the River's 
average annual flow of 15.0 million acre feet at Lee Ferry, Arizona 
originates in Colorado. Of this 11.0 MAF, Colorado consumptively uses 
roughly 1.9 MAF. The balance currently flows out of the State for the 
benefit of downstream users. Under the Compacts, Colorado is entitled 
to the consumptive use of 3.855 MAF or 51.75% of the flows of the 
Colorado River allocated to the Upper Basin.
    More than 4.2 million people currently reside in Colorado. Within 
the State and within the Colorado River Basin, farmers and ranchers 
irrigate roughly 850,000 acres. Irrigated agriculture uses roughly 1.5 
MAF of Colorado River water and contributes hundreds of millions of 
dollars to the State's economy each year. Thousands of families depend 
on these irrigated farmlands for their livelihoods and their 
sustenance. Within the basin, rural communities are held together by 
the bonds of agriculture and water. But the river also serves some 3.0 
million people outside the basin. Eastern Slope water providers divert 
500,000 AF annually from the river to serve growing needs on Colorado's 
booming Front Range.
    The Colorado River Basin offers the only significant source of new 
developable water for the State with approximately two million acre 
feet still available under Colorado's compact apportionment. The State 
favors incentives to more efficiently use water, building additional 
water storage and improving forest management to increase supplies for 
the benefit of people and the environment. Several challenges loom in 
regards to Colorado's compact apportioned share of the Colorado River.
The California Water Use Plan
    The State of Colorado commends the State of California and its 
stakeholders for all of the hard work, negotiations and compromise that 
led to the development of the Colorado River Interim Surplus Criteria. 
Limiting California to its compact apportioned 4.4 MAF is of primary 
importance to the State of Colorado. However, the efforts to fully 
implement this plan are far from complete.
    The present plan requires over 30 separate agreements in order for 
successful implementation to occur. Those agreements will include 
federal legislation and funding mechanisms. While Colorado strongly 
supports California's efforts, such support should not come at the 
expense of present and future needs to develop compact water within the 
State of Colorado. We urge the Congress to carefully evaluate these 
agreements, and particularly any federal legislation, and to work with 
the seven Colorado River Basin States to ensure such proposals comport 
with California's Water Use Plan.
    State officials will be closely monitoring several other issues 
related to the implementation of this plan. For example, some of the 
legislative proposals to address water quality problems with the Salton 
Sea may complicate implementation of the California 4.4 plan. Any use 
of Colorado River water for the Salton Sea will be hotly contested.
    Given the short time frame anticipated before publication of the 
proposed inadvertent overrun accounting policy, several issues remain 
unresolved. We will be working with the other states to schedule a 
meeting soon to complete these discussions. We hope to see an example 
of the proposed accounting from California prior to any such meetings.
    The State of Colorado has received assurances from California 
officials that the power crisis will not affect the implementation of 
California's Water Use Plan nor negate the benefits of the Interim 
Surplus Criteria set forth in the January 17, 2001, Record of Decision. 
Nevertheless, we remain concerned about how increasing demands for 
power generation will affect water supplies in this dry year.
Mexican Delta Issues
    The State of Colorado wishes to emphasize the importance of 
proceeding with due caution on issues related to the Mexican Delta. The 
Congress should be aware that all water resource use on the Colorado 
River within the United States has been consistent with the 1944 
Mexican Treaty and other aspects of the ``Law of the River.'' The State 
of Colorado stridently objects to any suggestion that water for 
restoration efforts in Mexico come from the Colorado River in the 
United States. We urge the Congress and the Bush Administration to 
ensure any discussions regarding the Colorado River Delta be done in 
full and complete consultation with the seven Colorado River Basin 
States.
    Between the American border and the Sea of Cortez, lies Mexico's 
largest and most productive agricultural land. Each year, Mexico 
diverts nearly every drop of the Colorado River into the Central Canal 
for agricultural uses. Moreover, President Vicente Fox plans a vast 
network of upscale marinas around Baja California and the Mexican 
Delta. The program, labeled ``Nautical Steps'' would cover more than 
2,500 miles of coast, and is aimed at luring the 1.6 million boat 
owners from California and other nearby states into a new system of 
harbors, wharves, hotels and restaurants. President Fox says the 
development is critical for economic growth but some environmentalists 
call it a threat to the Mexican Delta.
    The previous Administration initiated discussions with Mexico and 
environmental organizations to address perceived water needs of the 
Colorado River Delta in Mexico. These efforts have resulted in a new 
conceptual Minute (306) to the International Treaty with Mexico. A 
symposium on these issues is planned for September. The State of 
Colorado has serious concerns with the symposium and believes Mexico 
should be responsible for water use issues within its borders. If 
environmental issues need to be addressed, we encourage Mexico to 
pursue flow management and structural alternatives within their 
borders.
    We urge the Bush Administration and the Congress to carefully 
consider how actions within Mexico affect the Delta. Specifically, more 
information is needed on water use, fishing pressure, development 
proposals and environmental laws in Mexico. A complete understanding of 
complex intrastate, interstate and international issues must predicate 
further decisions on this important issue.
Federal Challenges to State Administration
    Federal reserved water rights, bypass flows and endangered species 
requirements also strain Colorado River resources. Water rights, water 
laws and interstate compacts must be protected from unwarranted federal 
intervention. At the same time, the federal government must be held 
accountable for its own actions related to the management of land and 
water resources. For example, sound management of federal forest lands 
in the Colorado River Basin could lead to healthier, more diverse 
forests and increased water supplies for endangered species, 
agriculture and drinking water.
Endangered Species Act Issues
    The State of Colorado recognizes the importance of balancing the 
needs of native species with continued economic development. With an 
emphasis on collaboration, voluntary action, partnerships and property 
rights, the State of Colorado will take aggressive steps to keep 
species from being listed, and to delist those that are already 
federally protected. Meanwhile, the State continues its involvement in 
the Upper Colorado River Recovery Implementation Program and the San 
Juan River Recovery Implementation Program. Work continues on the Glen 
Canyon Dam Adaptive Management Program, and Lower Basin Multi-Species 
Conservation Program (MSCP) as well. All of these programs need to be 
collectively coordinated.
    In the 1960s, the federal government and the states attempted to 
eradicate native Colorado River fish in favor of non-native trout, 
catfish and other species. The State is now working with stakeholders 
and the federal government to recover these native species. Recovery 
program participants have long recognized the need to remove non-
natives and restock the endangered species. Recently, and most 
importantly, the State of Colorado has been working with other program 
participants to develop achievable recovery goals based upon sound 
science. Through these efforts, we hope to achieve the ultimate goal of 
the these efforts'recovery and delisting of the species.
    These goals must, however, be consistent with State laws, 
interstate compacts and the Law of the River. Moreover, recovery goals 
must be based upon species response--not federal control and influence 
over flows in the Colorado River. The State of Colorado will veto the 
continuation of the Upper Colorado River Recovery Program until those 
two conditions are fulfilled. Without the program, programmatic 
biological opinions will be invalidated and millions of acre feet of 
decreed water rights will be subject to rigorous Section 7 
consultations under the Endangered Species Act.
    The State of Colorado believes both basins will benefit from sound 
goals that will lead to the recovery and delisting of the species and 
expects the U.S. Fish and Wildlife Service to publish recovery goals 
soon. The Colorado pikeminnow are increasing to the point where de-
listing, or at least down-listing, is a distinct possibility. Similar 
progress is being made with the humpback chub. Razorback suckers are 
also beginning to show signs of improvement, but we need additional 
emphasis on the bonytail chub. The State does not support the 
designation of Distinct Population Segments for the pikeminnow and 
humpback chub. Rather, they should be recovered and delisted throughout 
their historic ranges. Any such designation for the razorback sucker or 
bonytail chub should be made only when more information on the species 
is available.
Glen Canyon Adaptive Management Program
    Revised recovery goals are being developed for the basin and the 
Upper Colorado and San Juan programs appear to be on fairly solid 
ground. However, we have serious concerns about the effectiveness of 
the Glen Canyon Dam Adaptive Management Program. The Glen Canyon 
Adaptive Management Workgroup established pursuant to the Federal 
Advisory Committee Act has not operated within the documents that were 
to govern its actions. As a result, its activities have far exceeded 
the scope of the program. Section 1804 of the Act calls for an audit of 
the costs and benefits of the adaptive management program to water and 
power users and to natural, recreational and cultural resources. It is 
high time for such an audit to occur.
National Parks Service Reserved Water Rights Quantification on the 
        Black Canyon
    The State of Colorado filed a Statement of Opposition to the ill-
founded National Park Service quantification of a water right filing in 
Colorado water court. After repeated requests to work with the State 
were ignored, the National Park Service filed for quantification of 
reserved water rights to the Black Canyon of the Gunnison National 
Park. State officials believe flows requested on this major tributary 
to the Colorado River will seriously impact Colorado's right to develop 
compact apportioned water, power production, fish habitat and cause dam 
safety issues and potentially flooding in the towns of Delta and Grand 
Junction.
    Some 383 Statements of Opposition were filed to the National Park 
Service claims'more than any other filing in the State's history. State 
representatives will be working closely with water providers and the 
Department of Interior to see that these issues are coordinated with 
flow recommendations pending for endangered fish and eventually 
resolved in a way that protects Colorado's compact apportionment.
Western States Join Colorado's Fight Against Federal Bypass Flows
    Many of Colorado's water supply facilities are located on, or 
transport water across, federal lands. The U.S. Forest Service (USFS) 
has imposed bypass flows requirements on water providers as conditions 
to permit renewals in an attempt to provide instream flow protection on 
federal lands. These hotly controversial, and largely unsuccessful, 
bypass flows fail to provide any real environmental protection and 
instead create an environment of hostility and distrust. Bypass flows 
fly in the face of well-established principles of federalism and 
property rights. Moreover, they simply don't work.
    Opposition to bypass flows is a bipartisan issue in Colorado. 
Attorney General Ken Salazar, in an article published by the Colorado 
Water Congress, pointed out that the federal government has spent some 
$70 million dollars fighting the states over water with little to show 
for it. Last fall, the Forest Service stated its intent to use bypass 
flows more frequently. Recently, it even advocated condemnation of 
water rights. On March 15th, the States of Alaska, Arizona, Idaho, 
Nevada, New Mexico and Wyoming filed an amicus brief in support of 
Colorado's position that the U.S. Forest Service has no legal authority 
to impose bypass flows on water providers as a condition of permit 
renewals. The case at hand was filed in federal court by Trout 
Unlimited against the U.S. Forest Service. Trout Unlimited argues in 
their complaint that not only is the federal government authorized to 
impose such extortive requirements'they are obligated to do so.
    Rather than continue with this unnecessary and wasteful practice, 
the State of Colorado favors the creation of an incentive program 
funded by the Land and Water Conservation Fund (LWCF). One of the 
purposes of the Land and Water Conservation Fund Act of 1965 is to 
``authorize the purchase of lands, waters or interests in land or 
waters within the National Forest System. In the past, this fund has 
primarily been used for the purchase of new recreational lands. Over 
the past 35 years, 7 million acres of land has been protected using the 
LWCF. With the help of the Congress, we may be able to achieve similar 
success protecting water. Given this kind of incentive, there will be 
tremendous opportunities for the states to work with the U.S. Forest 
Service to protect water resources on forest lands.
    The State of Colorado proposes Congress amend the LWCF to direct 
the Forest Service to use its allocated LWCF monies, some $130.9 
million if fully funded, to provide incentives for water right holders 
to transfer their rights to the agency. The amendment could then 
instruct the agency to donate those rights to states with instream flow 
programs, enter into contractual arrangements, or pursue other creative 
means to work with the states. Any and all measures, however, must be 
consistent with State laws, the McCarran Amendment, interstate 
compacts, and the Law of the River.
Drought and the Need for Water Storage
    Continued growth within the State of Colorado strains our ability 
to meet increasing demands on water. The failure to develop new water 
supplies has not slowed Colorado's rampant growth. It has contributed 
to the dry up of irrigated agriculture. Without new water supplies, the 
conversion of agricultural water rights will continue to threaten 
communities, ranches and farms, open space and wildlife habitat.
    The last two summers' hot, dry conditions provide a sobering 
reminder of cyclic drought and devastation. In December of 1999, 
Colorado Governor Bill Owens convened a state-wide conference on flood 
and drought preparedness. There, we learned the question is not ``if'' 
but ``when'' we will enter another severe, long-term drought like the 
dust bowl of the 1930s or the drought of the 1950s. Only water storage 
provides adequate protection against these natural disasters. So a 
recent survey that found 90% of Coloradans believe we should build 
reservoirs to conserve surplus Colorado River water did not come as a 
surprise.
    The first Europeans to explore what is now Colorado labeled it an 
arid wasteland. In this century, water storage and irrigation 
transformed the State. Cottonwoods and willows dot the once-treeless 
plains. Rivers that dried up in the summer months now provide drinking 
water, irrigation, recreation and wildlife habitat year-round. However, 
last year, Colorado suffered a dry spring and record-breaking summer 
heat which led to drought conditions. South Platte River flows were 
lower than ever in recorded history and demand for irrigation water 
drained several key reservoirs. Nearly two dozen counties were forced 
to seek federal drought disaster relief. Several other communities 
placed restrictions on lawn watering, showers and even toilet flushing. 
Conditions are not markedly better this year.
    In a sustained drought, farmers and ranchers would lack water 
required to produce food. Many could be forced to sell their land or 
water, thereby encouraging development of open space and loss of 
wildlife habitat. Even farms with senior water rights could be gobbled 
up by municipalities thirsty for drinking water. The impact on rural 
communities could be devastating. Conservation measures help stretch 
limited supplies, but conservation alone may not be enough. Some water 
users are collaborating to stretch supplies through innovative new 
measures such as conjunctive use and water reuse. These efforts, which 
examine how to recharge aquifers in wet years and reuse municipal water 
for irrigation and industrial use, hold real promise. But the most 
certain drought protection is a long-term water supply through storage.
    At Governor Bill Owens' flood and drought conference, the Army 
Corps of Engineers calculated reservoirs have saved Coloradans $19.8 
billion from natural disasters like floods and droughts. That equates 
to a six dollar savings for every dollar spent on reservoirs for flood 
control and drought mitigation. Water storage also provides resources 
for recreation and wildlife. Our challenge is to bring together diverse 
interests to find common goals for the benefit of local communities and 
the environment. Without adequate planning, innovative measures and new 
water storage, the West could once again resemble the hostile and arid 
wastelands disparaged by early travelers.
Power Production
    Because today's society is driven, more and more, by electronic 
devices such as computers, cell phones, pagers and electronic address 
books, the importance of dependable supplies of electrical power is 
more important than ever. However, power generation in the Colorado 
River Basin must be consistent with the Law of the River. Some 
legislative proposals to alleviate power demand would upset the 
delicate balance of state laws, compacts, treaties and agreements along 
the Colorado River. We urge the Congress to work with the seven 
Colorado River Basin States on any such proposals.
Forest Management
    National forests along the Colorado River are losing their 
diversity and ecological balance. A dense understory has choked out the 
hardy, fire-resistant ponderosa pines that were typical of historic 
Western forests. Paired, then-and-now photographs reveal the open 
meadows and productive savannas that once dotted healthy forests have 
been replaced by overcrowded forests choked by dense understories and 
canopies. These crowded, unnatural stands are left susceptible to fiery 
infernos, insect infestation, disease and decay. They also degrade the 
quantity of water in river systems. Only through careful, but active 
management can these destructive trends be reversed.
    An April, 1999 report from the General Accounting Office (GAO) to a 
congressional subcommittee concluded, ``[T]he most extensive and 
serious problem related to the health of national forests in the 
interior West is the overaccumulation of vegetation, which has caused 
an increasing number of large, intense, uncontrollable, and 
catastrophically destructive wildfires.'' These fires threaten not only 
the forests but human lives, safety, property, and infrastructure and 
the species that inhabit the forests. These crowded forests are also 
depriving river systems of valuable water in the arid West.
    For over one hundred years, the relationship between forests and 
water has been acknowledged. In fact, the 1897 Organic Act established 
the national forest system for two primary purposes: to secure 
favorable supplies of timber and water (the Multiple Use Sustained 
Yield Act of 1960 provided other uses, but the United States Supreme 
Court in U.S. v. New Mexico ruled they are merely secondary or 
supplemental to the primary purposes).
    Since 1937, U.S. Forest Service scientists have been studying the 
relationship between forest management and water yields in the Fraser 
Experimental Forest near Fraser, Colorado. Their studies conclude that 
water yields from the forests have been decreasing due to dense stands 
with low rates of soil moisture and high rates of evapotranspiration. 
The scale at which we are losing water resources is staggering. As an 
example, flows in the North Platte basin in Colorado are said to have 
decreased by a staggering 185,000 acre feet per year (one acre foot is 
sufficient to supply a family of four for a year) over the last 140 
years due to excessive vegetative growth. Without action, future yields 
in the basin are projected to diminish even more!
    The deficit results from the same mismanagement that fueled nearly 
seven million acres of catastrophic wildfires in the West last summer. 
These super-hot, unnatural wildfires have taken lives and property, 
ruined fish and wildlife habitat, fouled the air with smoke and denuded 
water quality. The aftermath can persist for years. Battling sediment 
and erosion from the 1996 Buffalo Creek fire in Colorado, (which burned 
a mere 12,000 acres) has already cost the Denver Water Board $25 
million.
    Public lands management has far-reaching impacts on forest health, 
wildfire risk, water, wildlife and even endangered species. Forest 
Service scientists warn the state of our forests is not sustainable. To 
reverse this trend, policy makers should pursue a cohesive strategy of 
thinning, prescribed fire and other treatments to address forest health 
problems. Sound science and proven techniques could improve the state 
of forests and watersheds.
Conclusion
    Across the West, our future is forever linked to our water. Given 
ever-increasing demands, the basin requires more, not less, water 
storage. The seven Colorado River Basin States have much in common. 
Perhaps most importantly, the states share a common need to educate the 
public about the value of water resources and the risks to water 
supplies.
    Mr. Chairman, we hope that you will continue this dialogue with the 
seven Colorado River Basin States as these important issues progress. 
Thank you for your interest in this important issue.
                                 ______
                                 
    The Chairman. Thank you very much. Patricia Mulroy.

STATEMENT OF PATRICIA MULROY, GENERAL MANAGER, SOUTHERN NEVADA 
                        WATER AUTHORITY

    Ms. Mulroy. Chairman Hanson, Chairman Calvert, on behalf of 
Governor Guinn I'd like to thank you very much for the 
opportunity to testify here before you today. Chairman Hansen, 
it's a pleasure to be here in the state of Utah and a pleasure 
to see you again.
    I'd like to tell you that your water officials have been a 
delight for us in Nevada to work with. Kathleen Clark and Larry 
Anderson, Don Christiansen and Ron Thompson over the years, 
they have been great partners and wonderful friends to the 
State of Nevada.
    I'd also like to thank you and your staff for your help in 
passing the Southern Nevada Public Lands Management Act. As you 
know, southern Nevada has exploded in growth, and this Act has 
been of great benefit to southern Nevada to help us manage our 
growth in our community.
    Congressman Calvert, it's been some time since this 
Committee has had a hearing on the Colorado River and one has 
been convened like that, and I'd like to thank you for your 
leadership. I think the timing of this hearing is extremely 
appropriate, because I think Herb expressed it very well, what 
we have here is a history of states that have been cantankerous 
with one another and have mastered the art of battle and of 
warfare, and have evolved in the last 10 years to a group of 
seven states that have proven that they can work together and 
solve some major issues, some would have said 10 years ago 
would not have been possible.
    Southern Nevada has been late coming to the table. And over 
the past decade the Southern Nevada Water Authority, in 
partnership with the Colorado River Commission under the 
leadership of its Chairman, Richard Bunker, has aggressively 
been pursuing a strategy to augment our measly 300,000 acre- 
feet of water that we have in southern Nevada. As little as 
that amount of water is, it represents 85 percent of the water 
in the--in southern Nevada, which is 75 percent-plus of the 
population of the state of Nevada. So you can appreciate the 
significance of this river system to those of us in Nevada.
    We realize that being the fastest growing community in the 
nation presents its own set of unique challenges. And even 
though our--we've been very successful with water conservation 
and wastewater reuse programs that can stretch our supply, we 
also realize that without additional water resources, we are 
going to be out of water by the year 2007. Just like all the 
bones of the body are connected, that's the way the water 
supply in the West is all interconnected.
    We've labored for the past decade with the other Colorado 
River Basin states through countless meetings to achieve a 
consensus among the states around solutions that are innovative 
and bold. And I'd like to point out at the outset that this has 
been a state-driven process, that we've appreciated the support 
and encouragement and partnership of the Department of 
Interior, but the solutions that my friends in the other states 
have laid out to you were born from within the seven-states 
process. They have made it possible.
    And I've often said that the Law of the River, as immovable 
as some would paint it, really is a protection to all the 
states, that none of the states can get rolled. If all seven 
states agree to a solution, then the Law of the River is 
flexible enough to allow for that solution to occur. I think 
the interim surplus criteria that were just recently signed and 
adopted stand testament to that. It wasn't easy for the states 
to come to an agreement around those interim surplus criteria.
    And Nevada found itself in a unique position. On the one 
hand, we sit on the shores of Lake Mead, and any subsidence or 
drop in Lake Mead's water levels would have had severe impacts 
on southern Nevada's economy and, quite candidly, on our 
environment. On the other hand, we stand to benefit by the 
interim surplus criteria. And the reality of it is now that it 
is--assures southern Nevada's water supply through the year 
2016. Because we too, just like California, will be allowed to 
use that water for M&I purposes and sustain southern Nevada's 
existence.
    One of the things that's unique about the interim surplus 
criteria is that for the first time it went opposite of what 
would be considered the traditional law of western water. For 
the first time M&I uses have priority over first in time, first 
in right. And the interim surplus criteria very carefully 
drafted around supplying municipal and industrial water first.
    Insofar as southern Nevada's water future is dependent on 
the interim surplus criteria, it also creates a unique 
relationship between ourselves and our friends in California. 
Because whether the interim surplus criteria sustains or not 
through 2016 depends on southern California's success in 
reducing its use of its Colorado River water along a very tight 
time frame, with trigger points along the way in which its 
ongoing success and progress will be measured. So we have a 
vested interest in California's internal efforts to conserve 
water and for things such as the IID transfer to San Diego to 
succeed.
    And so we support your efforts, Representative Calvert, and 
those of Senator Feinstein to pass the CALFED authorization 
bill, but we would not presume to tell California which CALFED 
projects should be built and which should not be built. But 
just like the other states, we are watching very closely to 
make sure California does meet its triggers and achieves its 
targets on its way to 4.4.
    The other thing that's happened in the last decades for 
southern Nevada has been a unique partnership with the State of 
Arizona. And we intend over the next years to bank 1.2 million 
acre-feet in Arizona's groundwater basin.
    I can tell you with all sincerity and honesty that 10 years 
ago, when I first started in this, I would probably have been 
shot and run out of the room had anyone suggested that we would 
be banking water in the state of Arizona; relationships were 
that tense at the time. Over the last 10 years, however, the 
State of Arizona has come forward and has, in great partnership 
with the State of Nevada, presented Nevada solutions that will 
solidify its water use well--or its water supply well beyond 
the year 2040. Because in banking that much water in the state 
of Arizona, we will be able to use it through a forbearance 
agreement with the State of Arizona when we need it.
    And when you look at southern Nevada's water needs to the 
year 2050, it only represents one-tenth of 1 percent of the 
flows of the Colorado River. So from a volume standpoint, 
southern Nevada's need for additional Colorado River water is 
truly infinitesimal, but in terms of its significance to the 
state of Nevada, it is tremendous.
    My friends in the other states mentioned the issues that 
are facing us in the future, and I would agree with them that 
the Mexican delta is probably one of the more significant 
things that we're going to be facing. I think, sitting here 
today, none of us know what ultimately a solution for the delta 
would be. But one thing that I think we can all agree to, and 
that is that if a solution is to be found, that solution can 
only be found with the full cooperation and participation of 
the seven states. No one understands that river better and no 
one understands the consequences of various solutions better 
than those of us in the states who live with this river system 
and depend on it so heavily. So as we begin the discussions on 
the delta on September 11th and 12th, I would also ask that the 
seven states become an integral part of that process.
    We also have the challenges of the endangered fish in the 
lower basin, and recovering some of those is going to be very 
difficult, if not impossible. We also know that we face...
    The Chairman. I didn't do it, just go ahead.
    Ms. Mulroy. We also know that we--that the challenge of 
finding a practical and an affordable solution for the Salton 
Sea looms out there. As you can see, all of these stretch the 
normal confines of what was traditionally perceived as the 
Colorado River supply. But I also know that in this collection 
of people within the--from the seven states, solutions can be 
found.
    And so with that I would conclude, and thank you for this 
opportunity to testify, and just reiterate that I know that the 
innovative solutions that I know are going to be needed for the 
future, not only for southern Nevada and for California but for 
the delta and for the environment as well, can be found from 
within the seven states. Thank you.
    [The prepared statement of Ms. Mulroy follows:]

 Statement of Patricia Mulroy, General Manager, Southern Nevada Water 
              Authority, Representing the State of Nevada

Introduction
    Chairman Hansen, Chairman Calvert, I thank you for the invitation 
to testify today. Chairman Hansen, it is a pleasure to come to Utah and 
to see you once again. I am sincere when I say that Nevada has no 
better friends along the Colorado River than your water officials in 
Utah. I have tremendous respect and admiration for Kathleen Clark, 
Larry Anderson, Don Christiansen and Ron Thompson. They are leaders in 
the field of western water resources. I also want to thank you and your 
staff for your help passing the Southern Nevada Public Lands Management 
Act. It has been a great benefit to our community as we try to manage 
our growth and I know of the significant role you played in its 
enactment.
    Congressman Calvert, it has been some time since a Committee of the 
Congress was interested enough in the Colorado River to convene a 
hearing such as this one. Thank you for the leadership you have shown 
during your short tenure as Chairman of the Water and Power 
Subcommittee.
    For over a decade, the Southern Nevada Water Authority and the 
Colorado River Commission of Nevada, which is chaired by Richard 
Bunker, have aggressively pursued a strategy to augment Nevada's 
minuscule 300,000 acre foot entitlement to Colorado river water. As the 
fastest growing community in the nation, we recognized that although 
our successful water conservation and wastewater reuse programs would 
only serve to stretch our supplies and that without additional 
resources, we would be out of water by 2007.
    Do you remember the song that goes, ``the head bone's connected to 
the neck bone, the neck bone's connected to the back bone'' etc. etc? 
Well that is the way it works in water. Everything is connected. For 
that reason we have labored for almost a decade with the other Colorado 
River basin states through countless meetings to achieve consensus 
among the seven basin states around solutions which are innovative and 
bold and still preserve the underlying fabric of the Law of the River. 
I want to point out at the outset that this has been a state driven 
process. We have appreciated the support and encouragement of the 
Interior Department, the solutions which have evolved all had their 
genesis within the seven state process and not in Washington.
Interim Surplus Criteria and the California 4.4 Plan
    Possibly the most difficult issue we have faced is the need for 
California to ween itself away from overuse of the Colorado and live 
within its 4.4 million acre foot entitlement. This will require nearly 
800,000 acre feet reduced deliveries from the amount California has 
been regularly using. The seven states developed a proposal which 
allows California an assured water supply for the next fifteen years 
during which time it must make substantial progress with periodic 
milestones to reduce its use of Colorado River water. This assured 
supply comes in the form of what we call Interim Surplus Criteria, 
which in layman's terms means that all the states agree to allow the 
Secretary of the Interior as water master for the lower basin, to 
declare each year for the next fifteen years, that there is enough 
surplus water in the reservoirs to release an extra amount above the 
lower basin's entitlement of 7.5 million acre feet. The surplus amount 
that is to be released each year depends upon the elevation of Lake 
Mead.
    This remarkable plan was signed by the Secretary of Interior last 
January and for the first time schedules the delivery of this 
additional water based upon type of uses, with Municipal and Industrial 
needs first, then agriculture, rather than on the old western water law 
doctrine of prior appropriation or put another way, first in time is 
first in right.
    Nevada benefits significantly from these surplus deliveries. 
Because we are an M&I delivery, the Interim Surplus Criteria will all 
but ensure an adequate water supply for all of southern Nevada's needs 
through 2016. Nevada shares with California these interim surplus 
supplies and therefore are vitally concerned that California meet its 
milestone targets to ramp down usage of Colorado River water. If 
California fails to do so, we will lose our assured water supply rights 
along with them. In other words, we are connected to California at the 
hip bone.
    For that reason, Nevada has a vested interest in the success of 
California internal efforts to conserve water such as the IID to San 
Diego transfer as well as to develop additional sources of supply for 
southern California. We understand the relationship between the Salton 
Sea issue and the IID-San Diego transfer and we are supportive of the 
proposal we have reviewed to provide federal funding to assist with the 
Salton Sea environmental studies and other projects needed to ensure 
the success of that water transfer.
    To the same end we support your efforts Rep. Calvert, along with 
those of Senator Dianne Feinstein to pass a CALFED authorization bill 
providing for funding for water development projects throughout 
California. These projects will help California reduce its over 
dependence upon the Colorado. Nevada is not going to presume to tell 
you Californians which CALFED water projects to build or not to build, 
that is up to you to fight out amongst yourself.
Groundwater Banking
    Another innovative solution for Nevada's problems came from Arizona 
and is called water banking. This concept was discussed for years by 
the seven states and with the Bureau of Reclamation. Just last week on 
July 3 Nevada and Arizona signed an agreement that will allow Nevada to 
store or ``bank'' unused Arizona entitlement in the ground water 
aquifers within Arizona. Over the next decade or so before Arizona's 
own needs require the full use of its Colorado river entitlement, we 
hope to be able to bank up to 1.2 million acre feet which we can use in 
the future as needed. This banking opportunity is also available for 
California and even the federal government for some of its needs.
Conclusion
    In conclusion, Nevada's water future looks far more secure today 
than it did ten years ago. This is the result of some significant 
achievements brought about by the seven basin states working together 
along with a supportive Interior Department. There is more to do. 
California has just begun its difficult task of conserving and finding 
enough water to meet its needs. We face significant and important 
environmental challenges such as the endangered fishes recovery 
program, finding a practical and affordable Salton Sea solution and 
addressing the international consequences associated with the Mexican 
Delta. I am confident in our ability to find more innovative solutions, 
working together, connected. Thank you again for the opportunity to 
testify.
                                 ______
                                 
    The Chairman. Thank you very much. Mr. Mutz.

 STATEMENT OF PHILLIP MUTZ, UPPER COLORADO RIVER COMMISSIONER, 
                      STATE OF NEW MEXICO

    Mr. Mutz. Mr. Chairman, Members of the Committee and the 
Subcommittee, my name is Philip Mutz. I am Upper Colorado River 
Commissioner for the State of New Mexico and represent the 
State on the Upper Colorado River Commission, which is an 
interstate agency created by the Upper Colorado River Basin 
Compact of 1949. The Compact--the Commission is charged with 
administration of the Compact and represents the four states on 
matters concerning operations of the Colorado River.
    Someone once observed that no river is asked to do so much 
with so little water as has the Colorado. Every acre-foot of 
water of the river's average annual flow has been apportioned 
and, as the Chairman indicated earlier, every acre-foot is used 
and reused.
    The Colorado River supplies water indirectly or directly to 
more than 25 million acre--or 25 million people located both 
within its drainage boundaries and without its drainage 
boundaries due to the large transbasin aqueducts that transport 
the river water outside the basin. With so many--much reliance 
for so many people, it might appear that management and 
distribution of the waters of the Colorado River for the next 
decades is somewhat predetermined. All the works--or at least 
most all the works are now in place to distribute its waters, 
and with the experience of existing management, it would appear 
that much of the future administration of the river is merely 
to improve efficiency. The implication may be then that change 
should not be effected, but that's not realistic. Change has 
become necessary, and will continually need to be implemented 
to accommodate the growing and differing demands placed on the 
river.
    Among the challenges of the past several decades has been 
to accommodate environmental needs of endangered species. The 
recovery programs for endangered fishes in the Upper Basin and 
the effort to establish a multiconservation--a multispecies 
conservation program in the Lower Basin are recent examples of 
changes brought about to accommodate differing needs.
    New Mexico is generally satisfied with the progress and 
results of most of the programs and initiatives initiated in 
the Colorado River Basin in recent years. The Interim Surplus 
Guidelines is a very important step to manage available supply 
to meet the growing demand on the river. Coupled with 
California's Colorado River Water Use Plan to step-down its 
current use, these two major accomplishments resulted from the 
collaborative efforts of many people, and likely would not have 
succeeded if those individuals involved had not recognized the 
need to cooperate to achieve a workable solution rather than 
rely on an unpredictable result via the litigation process to 
resolve differences.
    The other six states of the Colorado River Basin have 
insisted that the Surplus Guidelines be an interim measure and 
that benchmarks be included to measure California's progress in 
reducing its current use of Colorado River water. The continued 
implementation of the Surplus Guidelines is entirely dependent 
upon that progress by California to reduce its annual use of 
Colorado River water. Implementation of the steps necessary to 
reduce its use have taken and will continue to take time, a 
concentrated effort, and a large investment of money. We 
support California and its water use agencies involved in these 
efforts.
    As indicated by the previous commenters, an emerging issue 
concerns efforts by some to increase the flow of the Colorado 
River in its limitrophe section and its associated delta in 
Mexico to restore and preserve the riparian and estuarine 
ecology. The International Boundary Water Commission, through 
its respective Commissioners of the United States and Mexico, 
have executed Minute 306. The Minute states the intent of the 
two governments to establish a framework for cooperation in 
studies looking toward recommendations for the work needed.
    By letter dated June 18, 2001, the Governor's 
representatives of the seven Colorado River Basin states have 
directed letters to the Secretary of the Interior and the 
Secretary of State expressing their views on and requesting a 
meeting to discuss emerging issues on the Colorado River delta. 
The letters noted the United States has been in full compliance 
with its obligations under the treaty, and pointed out that 
there is no existing or anticipated action within the United 
States, including operations under the Interim Surplus 
Guidelines, that would result in any violation of any 
obligation under the treaty.
    The letter stressed that any proposal to manage or deliver 
water for any purpose in the delta must be undertaken pursuant 
to the Law of the River and must not enhance, diminish, or 
abrogate any provision of the treaty or the Law of the River.
    Further, the letter requested that the United States 
recognize the legal authority of the Colorado River Basin 
states over the appropriation and management of their 
apportioned water and the important role of the states in the 
operation and management of the river established by Federal 
law.
    What does New Mexico get out of all this management of the 
Colorado River in the Lower Basin? The competition for water 
has been a fact of life for New Mexicans for several 
generations and it continues. More than 80 years ago, New 
Mexico achieved its first goal for a reliable, though at that 
time not completely defined, share of the Colorado River by 
becoming part of the Colorado River Compact. Then about 50 
years ago, a circumscribed share of the water available to the 
Upper Basin was apportioned in perpetuity in New Mexico under 
the Upper Basin Compact.
    The current use of Upper Basin water in New Mexico by 
authorized projects will require about 90 percent of New 
Mexico's apportioned share of its supply now reasonably 
available in the basin.
    Quantification of Indian water right claims in the San Juan 
River, which is the primary source of water for New Mexico from 
the Colorado River, is a key element to ensure reliability to 
both Indian and non-Indian water users in New Mexico.
    Two Indian water rights settlements have been completed in 
the San Juan River Basin in Colorado, but remain to be fully 
implemented pending completion of the Animas-La Plata project. 
Although these settlements are in Colorado and use Colorado's 
water, they're important to New Mexico downstream water users 
because a differing settlement could adversely affect their 
supply.
    Also in New Mexico, the claims of the Jicarilla Apache 
Nation have been settled; however, not all that water has yet 
been put to use. The water right claims of the Navajo Nation 
remain to be quantified, and they are quite large. The Nation 
and the State of New Mexico have been involved in formal 
discussions for some time now, and we believe considerable 
progress has been achieved.
    New Mexico also has considerable area in the western part 
of the state that is in the Lower Basin of the Colorado River, 
in the Little Colorado and the Gila River drainages. The 
available supply in the Little Colorado River is very meager 
and essentially developed. Use of water from the Gila River and 
its tributaries in New Mexico was apportioned by decree of the 
United States Supreme Court in 1964, but that apportionment was 
only sufficient to cover existing uses. New Mexico was able to 
secure recognition in the decree that should conditions prevail 
in the future that would provide for additional water, the 
decree could be adapted, and that additional water can be 
provided under the Central Arizona Project Act of 1968, which 
authorized an additional 18,000 acre-feet of water per year for 
use by New Mexico, subject to the provisions of the 
legislation. That supply is vital to the future of that area 
and must be preserved.
    This discussion is intended to convey that New Mexico has 
much to benefit from the Colorado River. To ensure the 
availability and reliability of water in this state, we're 
committed to guarding that supply and to putting it to 
beneficial use at the earliest practical time.
    I'd like to stress that the Law of the River, however 
complex some might characterize it, has resulted primarily from 
an effort of those individuals who recognized the need for a 
basic foundation on which the apportionments and the operation 
and administration of the river are built. I believe the seven 
basin states have established a collaborative working 
relationship to approach the issues that face us in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mutz follows:]

    [GRAPHIC] [TIFF OMITTED] T3637.006
    
    [GRAPHIC] [TIFF OMITTED] T3637.007
    
    [GRAPHIC] [TIFF OMITTED] T3637.008
    
    [GRAPHIC] [TIFF OMITTED] T3637.009
    
    [GRAPHIC] [TIFF OMITTED] T3637.010
    
    [GRAPHIC] [TIFF OMITTED] T3637.011
    
    [GRAPHIC] [TIFF OMITTED] T3637.012
    
    [GRAPHIC] [TIFF OMITTED] T3637.013
    
    [GRAPHIC] [TIFF OMITTED] T3637.014
    

    The Chairman. Thank you, Mr. Mutz. Mr. Davidson, can you 
get that mike over there?

  STATEMENT OF THOMAS J. DAVIDSON, GOVERNOR'S REPRESENTATIVE, 
               WYOMING ATTORNEY GENERAL'S OFFICE

    Mr. Davidson. Thank you Mr. Chairman. Mr. Chairman and 
honorable Members of the Committee and Subcommittee, on behalf 
of myself and on behalf of Governor Geringer, I'd like to thank 
you for the opportunity to address you today.
    My compadres that have gone before me, and I can safely say 
they are compadres these days, a little different scenario than 
we might have encountered, as has been indicated to you in the 
past, several years ago, but now we have a very close and good 
working relationship. They have addressed the main issues that 
are confronting us, and so I'm going to utilize the luxury of 
going last. And I'm going to heed the Chairman's suggestion 
that I summarize my comments, and I think I can be fairly 
brief.
    I am the Commissioner for Wyoming on the Upper Colorado 
River Compact Commission. I also, in another different life, I 
guess, am also the lead litigator for Wyoming in interstate 
water disputes. I can certainly attest firsthand to the 
difference between the litigation route which we have just 
hopefully concluded with respect to a water dispute over the 
flows of the North Platte River with the State of Nebraska. 
After in excess of $20 million expended by each state in 
prelitigation costs, we finally wound up on the courthouse 
steps, and hopefully resolved the dispute before we ever 
actually opened the courtroom doors.
    That, in contrast to the relationship that has been 
developed with the other six states with respect to the 
Colorado River, I think makes a very profound statement as to 
the desirability and the utility of working together with our 
compadres, working together with the other basin states to try 
to reach the solutions, the solutions that allow the Law of the 
River to be flexible into the future.
    And I will state that the main theme of my testimony to you 
today is one that I'm merely echoing from many of the others, 
is the reason that the interim surplus criteria were able to be 
achieved, the reason that we had success like we did and didn't 
have to have the kind of litigation that I've referenced with 
respect to Wyoming and Nebraska is because of the basic premise 
that was recognized by each of the seven basin states, 
including California, as we're not going to mess with the 
entitlements under the Law of the River.
    California didn't come into the process contending that it 
needed to change its entitlement from 4.4 million acre-foot a 
year, it came into the process with the view that, we're over, 
we've got a problem, we got to address the problem, we need 
your help; we're not trying to take your entitlement, Wyoming, 
we're not trying to take your apportionment, Colorado, we're 
trying to address the problem of getting back to 4.4 million 
acre-feet; we don't deny that that's what our entitlement is, 
we don't deny that Wyoming has its entitlement, that the Upper 
Basin states have their entitlement, that all of the states 
have their entitlements; what we need to do is try to work out 
a solution. And that's what we were able to achieve with the 
interim surplus criteria in the California 4.4 Plan.
    I think Pat put it best. The reason that the deal came 
together is nobody was in jeopardy of getting rolled. I can 
assure you that Wyoming, and I know my friends from the other 
states, are not going to allow themselves to get rolled, and 
whether it's $20 million or $200 million that has to get spent, 
if someone's going to take one of the state's entitlements 
under the Law of the River, it's going to be a long, 
protracted, agonizing litigation.
    Again, the reason that this deal came together, the interim 
surplus deal came together is because that concept was 
maintained, and the states were provided the certainty that 
they were provided under the Law of the River.
    I was encouraged to hear the Chairman in his opening 
remarks state that clearly water won't be provided for some of 
these other uses without the concurrence of the seven basin 
states. Certainly that is Wyoming's view, certainly that is the 
view of the other basin states.
    I guess in quick summary, we have a long history of 
fighting hard for our water in Wyoming. This procedure has 
resulted I believe in a much better, much preferable end result 
and process; it provides flexibility that is not provided 
through litigation. And though I do love to litigate these big 
cases, this--the result that comes out from this kind of 
approach certainly is a preferable result to the 300 pages of 
settlement documents that we have in the Nebraska versus 
Wyoming litigation.
    So if I can leave you with three concepts that are very 
important to the State of Wyoming and I believe all of the 
basin states. One is preserve the certainty of the Law of the 
River; and that is, more emphatically, don't mess with our 
apportionments. And finally, we will do all that we can to 
ensure that California meets its obligations and that we all 
can meet these new environmental, Mexican, and other 
requirements for the future, while maintaining the preservation 
of the certainty of the Law of the River.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Davidson follows:]

 Statement of Thomas J. Davidson, Wyoming Commissioner, Upper Colorado 
    River Commission, and Deputy Attorney General, Wyoming Attorney 
                            General's Office

        This testimony provides the perspective and views of the State 
        of Wyoming concerning ongoing and prospective Colorado River 
        water use, reservoir operations and basin management activities 
        in the context of a House Resources Committee field hearing. 
        Wyoming is generally pleased with the current and recently 
        implemented collaborative and cooperative efforts that the 
        seven States are conducting collectively and in concert with 
        the Department of the Interior. The implementation of the 
        Interim Surplus Operating Guidelines for the Colorado River 
        System in early 2001 was an important step in implementing a 
        comprehensive plan to reduce California's long-term dependence 
        on the Colorado River. Management of the Colorado River in this 
        new century involves not only reservoir operations but 
        environmental management efforts of varying types and scopes. 
        Wyoming has long been a participant in the Colorado River Basin 
        Salinity Control Program and a partner in the collaborative 
        Upper Colorado River Endangered Fish Recovery Implementation 
        Program. These and other efforts, Wyoming believes, are 
        critically important to Wyoming's ability to continue to 
        develop its compact-apportioned water supplies in the future.
    Chairman Hansen and Members of the Committee and Subcommittees, 
thank you for the opportunity to testify on behalf of the State of 
Wyoming at today's field hearing concerning management of the Colorado 
River. My name is Thomas J. Davidson. I am the State of Wyoming's 
Commissioner on the Upper Colorado River Commission and Deputy Attorney 
General of the State of Wyoming. The Upper Colorado River Commission is 
an interstate administrative agency created by the Upper Colorado River 
Basin Compact of 1948. Since its inception, the Commission (made up of 
Commissioners appointed by the Governor of each Upper Division State 
[Colorado, New Mexico, Utah and Wyoming] and one appointed by the 
President of the United States) has actively participated in the 
development, utilization and conservation of the water resources of the 
Colorado River Basin. The Commission was created to administer the 
apportionment of the waters of the Upper Colorado River Basin system 
and represents the Upper Basin States in consultations with the 
Secretary of the Interior on matters pertaining to the operations of 
the Colorado River.
    Long known as the ``Lifeblood of the West,'' the Colorado River is 
often referred to as the most intensely regulated and over appropriated 
river in the country. Neither the biggest nor the longest river in the 
West, it is among the most disputed rivers in the world. The Colorado 
River has played a crucial role in this country's history, a role often 
overlooked or misunderstood. Perhaps no other river has been asked to 
do so much with so little. The Law of the River was born out of the 
necessity to provide secure water supplies. It is the product of two 
interstate compacts, a U.S. Supreme Court decree, and a treaty with 
Mexico allocating the River's water. It reflects the fact that, for 
over 100 years, the financial strength and national authority of the 
Congress have been absolutely necessary to avoid interstate and 
intergovernmental disputes and to secure economic stability for the 
entire Colorado River Basin.
    Before the Federal Government could construct a dam on the lower 
Colorado River, and as a result of California's increasing diversions, 
the states with an interest in the Colorado's waters needed to sort out 
their rights. The upstream states feared that a storage facility that 
made water available downstream before they could put their share to 
use upstream might form a basis for claims of appropriative rights in 
the water by downstream states. Appropriative rights are based on the 
rule ``first in time, first in right.'' Likewise, the downstream 
beneficiaries of such a storage facility feared California's existing 
lead in their race toward development. It appeared that a resolution 
could only be achieved either by a suit in the United States Supreme 
Court under its original jurisdiction over disputes between states, or 
by an agreement of the parties. The seven basin states chose the 
latter. The significance of the decision to utilize the more flexible 
interstate compact option, even though this method had never before 
been used to allocate waters of an interstate river, was realized in 
1922. In that year, the Supreme Court decided Wyoming v. Colorado (259 
U.S. 419), which, in part, utilized the doctrine of prior appropriation 
to allocate rights to water across state lines.
    Wyoming's State Engineer (and later Governor) Frank C. Emerson 
served as Wyoming's Commissioner on the Colorado River Commission that 
negotiated the compact. It is very clear that Emerson, as Wyoming's 
negotiator, recognized the very long-term perspective that this seven-
state agreement necessarily had to take and the certainty that it would 
provide. Emerson noted in his Sixteenth Biennial Report of the State 
Engineer of Wyoming (1921-1922):
        ``The present apportionment of the use of 7,500,000 acre feet 
        per annum to the Upper Basin is ``in perpetuity.'' These two 
        words are of especial significance as their use means that 
        Wyoming and the other States of the Upper Division will find 
        water supply available for the developments of the future 
        whenever our projects may become economically feasible of 
        undertaking, and whether the time may be in the near future or 
        a century or more from now.''
    The seven states recognized the importance of the Colorado River at 
the time of the Compact and correctly understood that the River would 
become ever increasingly important over time. The Compact provided a 
means to recognize the profound differences between the development the 
two segments -- Upper and Lower -- of the Colorado River Basin. On page 
19 of Emerson's report on the Compact to the Wyoming State Legislature, 
he succinctly noted:
        ``All can realize the natural physical situation which causes 
        the division of the river into two great basins; that the 
        economic conditions that apply to the two basins are entirely 
        different, and that therefore a division of water between the 
        two basins is a very logical plan; that the additional 
        development of the Green River and the Little Snake River 
        basins in Wyoming will be very tardy as compared with 
        development in California; that if proper agreement can now be 
        had between the great conflicting interests upon the Colorado 
        River this accomplishment would be most desirable for all.''
    Wyoming's leaders and citizens believe that the Compact really 
means what it says -- that Wyoming will, to again cite our Compact 
negotiator, ``find water supply available for the development of our 
future whenever our projects may become economically feasible of 
undertaking, and whether that time be in the near future or a century 
or more from now.''
    The State of Wyoming has recently engaged in river basin planning 
for each of the seven major river basins in the State. The intent of 
this water-planning program is to provide accurate, contemporary water 
information to enable state and local decision makers to manage water 
resources efficiently, maintain a water data inventory and project 
future water demands so the state can prepare for the effects of 
growth. In addition, Wyoming believes this planning process will 
provide the State with information to assist in responding to the 
mandates of federal legislation and regulation. Under the Upper 
Colorado River Basin Compact of 1948, Wyoming was apportioned 14 
percent of the total quantity available for use each year in the Upper 
Colorado River Basin as apportioned by the 1922 Colorado River Compact, 
after deducting the 50,000 acre-feet per year apportioned to Arizona. 
Using this percentage and making several best-case assumptions, Wyoming 
has estimated its probable long-term available water supply from the 
Green River and its tributaries is 833,000 acre-feet per year. In our 
Green River Basin Water Plan, we have estimated our current, normal 
year uses to be approximately 611,200 acre-feet per year. Depending on 
whether a moderate or high growth forecast scenario is assumed, 
Wyoming's present estimate of our consumptive use of the Upper Colorado 
River system's waters will be between 683,000 and 767,000 acre-feet per 
year in the year 2030. In the instance of the high growth forecast 
scenario being used, Wyoming would therefore be consuming about 92 
percent of its share of the water resources of the Colorado River by 
2030.
    On account of the certainty created by the Compact, the development 
of the large projects that has occurred in the lower basin has not 
jeopardized the water supply remaining for future Wyoming water 
development activities nor has it precluded or impeded additional 
beneficial consumptive uses of water in our State. The Compact did, and 
has continued to, provide ``broad basic principles for the equitable 
apportionment and use of the waters of the Colorado River System...'' 
(cited from page 18 of the Emerson Report on the Compact). Consistent 
with principles that were recognized in Wyoming from the initiation of 
its water law (first as a territory of the United States and later, by 
virtue of the Wyoming Constitution), beneficial consumptive use was 
adopted as the measure of the allocation of the waters of the Colorado 
River. It is Wyoming's belief that management of the Colorado River in 
the 21st Century must continue to rely on the preservation of 
sovereignty, integrity and self-determination of welfare, in short, the 
certainty, which has been afforded to Wyoming and each of the seven 
Colorado River Basin states through the legal framework of the Law of 
the River.
    Contrary to popular perception, California and the other Lower 
Division States of Arizona and Nevada have not been using ``Wyoming's 
water.'' The Colorado River Compact of 1922 allocated to the Upper 
Division States, which include Wyoming, a perpetual right of 
development. It avoided the untenable situation where we in Wyoming 
might have been forced into a race for development with California 
(under the application of the prior appropriation doctrine on an 
interstate basis), requiring us to hoard water and prevent California 
from getting it. The Compact preserves our future economic opportunity 
and our ability to rationally plan for our future here in Wyoming.
    This interstate agreement expressly preserved state-created water 
rights systems. It is the foundation upon which the large federal 
reservoirs, including Lake Mead, Lake Powell, Blue Mesa, Navajo and 
Flaming Gorge, were built and are operated. These reservoirs hold water 
for use in the Upper Basin and for delivery to the Lower Basin. The 
security for future development provided by the Compact, and operating 
flexibility of Flaming Gorge and the other Upper Colorado River Basin 
reservoirs, allows for water to be managed in environmentally enhancing 
ways. Were Glen Canyon Dam and the others not in place, the situation 
would be entirely different with regard to our ability to engage in 
many ongoing cooperative efforts, including the Colorado River Basin 
Salinity Control Program and the Upper Colorado River Endangered Fish 
Recovery Program.
    Just as Emerson drew attention of the ``especial significance'' of 
the words ``in perpetuity'' in his report to the Wyoming Legislature, 
any discussion of the future, from Wyoming's perspective, must be laid 
upon the foundation of continuity assured by the administration of the 
provisions of the Colorado River Compact. That future must continue to 
provide the certainty of a water future for Wyoming's citizens 
dependent upon development of our share of the water resources of the 
Colorado River Basin.
    While a primary intent of the Compact was to provide certainty of a 
future water supply from the River for each of the affected States, 
many Federal statutes and policies affecting water and related natural 
resources use and management can and do affect Wyoming's and the other 
Basin States' abilities to use and develop additional water. Thus, the 
search for certainty that was being sought in negotiating the Colorado 
River Compact is still a paramount factor in our present day views and 
concerns with regard to Colorado River management. Among the federal 
statutes and policies of concern are the federal Endangered Species Act 
(ESA) and the Clean Water Act (CWA), for example. Further, the manner 
in which these laws, regulations and policies are administered by the 
many federal agencies, each having different and often conflicting 
missions and jurisdictions, can profoundly impact Wyoming's water 
developmental difficulties. Accordingly, Wyoming has found it necessary 
to assist in developing, implementing and to continue to be involved in 
many programs, collaborative activities and multi-state and multi-
entity endeavors. We view our participation in these collaborative 
processes as being essential and necessary to avoid further and future 
impediments to developing our Compact-apportioned water supplies. In my 
testimony today, I wish to draw attention to several of the major 
efforts underway and to provide Wyoming's perspective on the progress 
of those efforts and their significance.

CALIFORNIA'S COLORADO RIVER WATER USE PLAN
    Wyoming is encouraged by the progress presently being made by the 
Colorado River water users within the State of California, who are 
endeavoring to implement an enforceable program to reduce California's 
dependence on Colorado River water over its basic entitlement. If 
implemented as envisioned, California's plan to gradually step-down 
from its current use of over 5.2 million acre-feet (``maf'') of 
Colorado River water to its basic apportionment amount of 4.4 maf over 
a fifteen year period will be an extremely significant accomplishment.
    Wyoming has been directly and substantially involved since its 
onset in 1991 in the ongoing dialogue which and effort that will result 
in California reducing its annual dependence on the Colorado River to 
its basic apportionment level in ``normal'' water supply years. Just as 
California's dependence on using more than 4.4 MAF did not occur 
``overnight,'' implementing the steps to reduce its use are taking, and 
will continue to take, considerable time, investment and hard work. We 
heartily support these ongoing efforts.
    The California Plan works by conserving California's agricultural 
water and redirecting that water for urban use. The Surplus Guidelines 
adopted this year allow water anticipated to be surplus to reservoir 
storage to flow to California for 15 years, while the conservation/
transfer programs are being implemented. This ``bridge'' of surplus 
water allows California to reduce its demand at an achievable pace, 
without economic dislocation. The continuation of the Surplus 
Guidelines is contingent upon California Plan progress, including 
completing a binding agreement among the California agencies to 
implement conservation/transfer programs, and achieving defined 
conservation /transfer targets by specified dates.
    The California Colorado River Water Use Plan (``California Plan'') 
is dependent upon using Colorado River water made available from 
surplus declarations on the Colorado River as a way to ease the State's 
transition to living within its basic apportionment. The other Colorado 
River Basin States have been insistent that changes to the reservoir 
operating criteria on the Colorado River to accommodate California must 
only be an interim measure while California steps down its Colorado 
River water use. The Six States insisted that California demonstrate a 
tangible commitment to reduce its water use before entertaining 
discussions of reservoir operating criteria that might facilitate that 
reduction. That commitment has been demonstrated in several ways, 
including the appropriation by the California State Legislature of over 
$238 million dollars for the lining of the All-American and Coachella 
Canals.
    Further, it seems prudent to address why the Interim Surplus 
Guidelines were needed and what would have happened in their absence. 
``Surplus water'' is available to agencies that have contracted with 
the Secretary for delivery of surplus water, for use when their water 
demand exceeds their basic entitlement, and when the excess demand 
cannot be met within the basic apportionment of their state. By 
adopting these specific interim surplus guidelines, the Secretary will 
be able to provide California users of surplus Colorado River water a 
greater degree of predictability and certainty with respect to the 
likely existence, or lack thereof, of surplus conditions on the River 
in a given year. Adoption of the interim surplus guidelines recognizes 
California's plan to reduce reliance on surplus deliveries, will assist 
California in moving toward using only its basic apportionment during 
years of ``normal'' water supply (as determined in the AOP process) and 
softens the impacts during the transition period and avoids hindering 
such efforts.
    Importantly, continuing implementation of the interim surplus 
guidelines is entirely dependent on progress by California in reducing 
its dependence on the Colorado River. The surplus guidelines will be 
used to identify the specific amount of surplus water which may be made 
available in a given year, based upon factors such as the elevation of 
Lake Mead, during a period within which demand for surplus Colorado 
River water will be reduced. The increased level of predictability with 
respect to the prospective existence and quantity of surplus water will 
assist in planning and operations by all entities that receive surplus 
Colorado River water pursuant to contracts with the Secretary. Without 
the guidelines, there would be no capability for a transition period 
during which California can and will reduce its Colorado River 
dependence and use ``rather, there would be surplus until it is gone 
and all of a sudden California would have to cut back. This would 
create severe hardship that would have attendant economic impacts in 
California.

REDUCING THE RIVER'S SALINITY BENEFITS ALL USERS
    Since the enactment of the Colorado River Basin Salinity Control 
Act in 1974 (Public Law 93-320), the seven Basin States and the Federal 
Government have been engaged in a basin-wide program to manage the 
salinity concentration of the waters of the Colorado River. The 
importance of implementing basin-wide water quality standards, as 
opposed to the very common approach of instituting Stateline standards, 
should be recognized at the onset of any discussion of what has been 
perhaps the nation's most successful non-point water pollution control 
program. Improving the quality of water received and available for use 
in the Lower Colorado River Basin is not dependent upon curtailing in 
any manner the development of compact-apportioned water in the Upper 
Colorado River Basin states.
    All states regulate water quality constituents related to health 
concerns. Other constituents may be regulated for aesthetic and 
economic reasons pursuant to the provisions of the Clean Water Act. 
This is the case with salinity in the Colorado River System, where the 
seven States who share the River's water adopted basin-wide water 
quality standards in 1974. For all practical purposes, the terms 
``total dissolved solids'' (TDS) and ``salinity'' are synonymous and 
are used interchangeably. High salinity levels make it difficult to 
grow winter vegetables and popular fruits. Water containing high TDS 
will more quickly corrode plumbing and water-using appliances and 
industrial equipment. Highly saline water has limited use for 
irrigation of agricultural crops and landscaping vegetation. Economic 
impacts (reduced crop yield, higher drainage and soil leaching 
requirements, water treatment costs, equipment repair and replacement, 
etc.) from salinity damages associated with dealing with highly saline 
water in the Lower Colorado River Basin are currently estimated at $330 
million per year, while those suffered in Mexico are presently 
unquantified.
    About one half of the salinity in the Colorado comes from natural 
sources and the other half from human uses of the water and activities 
near the river. Near its headwaters in the Rocky Mountains, the 
salinity concentration of the Colorado River is typically 50 milligrams 
per liter (mg/l) or less. Large amounts of salt load are added as the 
River flows downstream. At Hoover Dam, the River delivers about 9 
million tons of dissolved salts a year. Upon reaching the last 
diversion point in the United States at Imperial Dam, concentration 
frequently exceeds 800 mg/l.
    When Congress enacted the Colorado River Basin Salinity Control Act 
in 1974, primary responsibility for the federal program was given to 
the Secretary of the Interior, with the Bureau of Reclamation 
(Reclamation) being instructed to investigate and build several 
salinity control units. Amendments to the Act in 1984 mandated the 
creation of comprehensive salinity control programs by the Department 
of Agriculture and the Bureau of Land Management (BLM). The USDA has 
instituted a highly successful, voluntary on-farm salinity control 
program which provides for voluntary replacement of incidental fish and 
wildlife values foregone due to the installation of on-farm salinity 
reduction measures. The 1984 amendments to the Act (P.L. 98-569) also 
directed the BLM to implement comprehensive salinity control activities 
on the large land area administered by BLM within the Basin and, 
further, directed the Secretary of the Interior to give preference to 
those projects that reduce salinity for the least cost per ton of 
salinity control.
    In 1996, the Farm Bill (the Federal Agriculture Improvement and 
Reform Act, P.L. 106-20) combined the USDA's Colorado River Salinity 
Control Program and three other conservation programs into the new 
Environmental Quality Incentives Program (EQIP). Since that time, 
funding for the USDA's salinity control efforts has dramatically 
decreased, despite the efforts of Wyoming and the other Basin States 
urging USDA to adequately fund these important basin-wide water quality 
maintenance program efforts. With this Congress enacting a new farm 
bill to go into effect for the next fiscal year (2002), we are quite 
hopeful that the Congress will see fit to direct the Department of 
Agriculture to give it Colorado River salinity control program the 
emphasis and funding which the Basin States believe it deserves.
    While we are generally supportive of the concept that government 
closest to the people is better, in the case of the USDA's EQIP there 
is a disconnect. EQIP's locally led, locally derived resource 
management priorities are both displacing and preempting salinity 
reduction program activities that have both international and basin-
wide significance and importance. Working experience gained with EQIP 
has shown that local working groups and state technical committees are 
unable and cannot be expected to maintain the ``national perspective'' 
regarding maintenance of basin-wide water quality standards and a water 
quality commitment to the Republic of Mexico. Further, the great 
majority of the water quality improvements occurring as a direct result 
of the CRSCP irrigation water management practices are accruing to 
beneficiaries far downstream (in Arizona, California and Nevada) and 
distant from the point at which the practices are being implemented (in 
Colorado, Utah and Wyoming). EQIP's locally led process also does not 
provide a forum for the many municipal and agricultural interests in 
the Lower Colorado River Basin who are directly benefiting from the 
salinity reduction efforts to engage in dialogue with local working 
groups and state technical committees in the Basin's upstream states.
    As noted above, the Bureau of Land Management was directed by 
Congress in the 1984 amendments to the Salinity Control Act to 
implement a comprehensive program to reduce salt loading to the 
Colorado River System. Nearly 40 percent of the Basin's land area is 
BLM-administered public land. Through improved management practices, 
there is tremendous opportunity for the BLM to decrease salt 
contributions from public lands. Public Law 106-489, enacted to 
increase the funding authorization for the Bureau of Reclamation's 
basin-wide salinity control program, also contained a directive to the 
BLM to report to the Congress on the status of its salinity control 
program <SUP>1</SUP>. We appreciate the interest the Resource Committee 
has shown in this program by including this directive to the BLM in 
that law.
---------------------------------------------------------------------------
    \1\ The Secretary of the Interior shall prepare a report on the 
status of implementation of the comprehensive program for minimizing 
salt contributions to the Colorado River from lands administered by the 
Bureau of Land Management directed by Sec. 203(b)(3) of the Colorado 
River Basin Salinity Control Act (43 U.S.C. 1593). The report shall 
provide specific information on individual projects and funding 
allocation. The report shall be transmitted to the Committee on Energy 
and Natural Resources and the Committee on Resources of the House of 
Representatives no later than June 30, 2000.
---------------------------------------------------------------------------
    Frankly, we have been disappointed for many years at the lack of 
emphasis that BLM places upon its responsibility to implement a 
comprehensive salinity control program. In its agency section of the 
Federal Accomplishments Report to the Colorado River Basin Salinity 
Control Advisory Council (created by Section 204 of P.L. 93-320) dated 
October 2000, BLM began with the following: ``The Bureau of Land 
Management recognizes and is committed to its role in reducing the 
mobilization of salt from public lands. As in past years, we undertake 
this responsibility through the multitude of individual management 
decisions that are made within each BLM jurisdiction. While salinity is 
not segregated as a specific program, it is affected by almost all 
other land management decisions that are made'' (emphasis added). This 
acknowledgment that the BLM does not segregate salinity as a specific 
program is contrary to BLM's Land Use Planning Manual which states: 
``The Colorado River Basin Salinity Control Act, 43 U.S.C. 1593, 
requires a comprehensive program for minimizing salt contributions to 
the Colorado River from BLM lands.'' How can the BLM be meeting the 
directive, recognized in its own agency planning manual, requiring 
``... a comprehensive program for minimizing salt contributions...'' 
through efforts, explicitly acknowledged in its October 2000 progress 
report that are not even ``... segregated as a specific program?'' This 
presents a clear incongruity. Either BLM has a salinity control program 
or it does not. We sincerely hope that the BLM will address this 
incongruity in its report to your Committee, and we look forward to 
working with your Committee on this matter.
    Ongoing support of the Congress is necessary to maintain the needed 
implementation of the Colorado River Basin Salinity Control Program. 
The Program is a carefully designed series of sequentially staged 
elements that are only put in place as needed. The Program's success is 
dependent upon continued funding by Congress of the federal portions of 
the three agency's successful, cost-sharing, salinity-reduction 
partnership programs. Greater levels of Environmental Quality 
Incentives Program (EQIP) funding dedicated to the Colorado River 
Salinity Control Program for implementing on-farm salinity reduction 
practices would assist in reducing the backlog of USDA projects 
awaiting federal cost-share financial assistance. More focus on the 
lack of initiative and accountability on the part of the BLM to 
actually conduct a comprehensive salinity control program is warranted.

MANAGING ENDANGERED SPECIES AND WATER DEVELOPMENT CONFLICTS IS CRITICAL
    Having a compact-apportioned water supply remaining available for 
further use and development is of no practical benefit whatsoever if 
users cannot obtain federal permits (be they CWA Section 404 dredge and 
fill permits, right of way or special use permits) on account of 
``jeopardy'' biological opinions rendered under Section 7 of the 
federal Endangered Species Act. An impasse occurred in the early 1980s 
between further water development and administration of the federal 
ESA, with the U.S. Fish and Wildlife Service taking the position that 
any additional depletion of the waters of the Upper Colorado River 
system would jeopardize the continued existence of the endanger native 
fish species. Faced with this tremendous problem, water users, the 
States of Colorado, Utah and Wyoming and involved federal agencies, 
along with power consumer and conservation community interest groups 
negotiated, and in 1988, initiated, an innovative, collaborative 
partnership program to resolve these difficult endangered species and 
water management and development conflicts. The Program's negotiators 
were very clear in establishing dual objectives for the Program: allow 
further water development to occur while carrying out the mandate of 
the ESA to recover, and delist, the four Upper Colorado River 
endangered fish species. A sister program was initiated in the San Juan 
River Basin in 1992.
    On behalf of the State of Wyoming, let me take this opportunity to 
thank Chairman Hansen and members of the Resources Committee for their 
leadership and support in enacting H.R. 2348, which became Public Law 
106-392 on October 30, 2000. This Act's authorization of funding for 
the Bureau of Reclamation to continue as a cost-sharing partner in 
implementing the endangered fish recovery implementation programs for 
the Upper Colorado River and San Juan River Basins was critically 
important to continuing the success that these programs are enjoying.
    As you may be aware, then Secretary of the Interior Babbitt, in the 
last of what had become annual addresses to the Colorado River Water 
Users Association, on December 14, 2000 praised the Upper Colorado 
River Endangered Fish Recovery Program as an ``ongoing success story.'' 
Secretary Babbitt stated that Public Law 106-392 could provide a 
pattern for both funding and collaboration for the Lower Colorado River 
Multi-species Conservation Program (LCR MSCP) currently being 
developed. While we recognize that the levels of cost and commitment 
required in conducting endangered species recovery programs such as the 
Upper Colorado River Endangered Fish Recovery Program are very high, we 
believe that in the current climate, these types of approaches are the 
only viable approach available. We in Wyoming will work with your 
Committee in seeking refinements and revisions to the Endangered 
Species Act that can facilitate, simplify and generally improve 
collaborative, species recovery programs. Certainly, Mr. Chairman, it 
is our view that revisions to the ESA must recognize that the U.S. Fish 
and Wildlife Service cannot accomplish recovery of species by itself. 
Reform of ESA must include this acknowledgment and provide more 
meaningful and greater roles for the states.

INCREASING PRESSURE FOR ADDITIONAL WATER SUPPLIES TO MEET COLORADO 
        RIVER DELTA ENVIRONMENTAL USES
    Over the past several years, those seeking to increase the flow of 
the Colorado River at its mouth in the Gulf of California have become 
more vocal and visible in their calls for more water for maintaining 
and ``restoring'' the ecological values of the estuary area at the 
Colorado River's terminus. On December 12, 2000, the International 
Boundary and Water Commissioners (IBWC) for the United States and 
Mexico executed Minute 306 entitled ``Conceptual Framework for United 
States--Mexico Studies for Future Recommendations Concerning the 
Riparian and Estuarine Ecology of the of the Colorado River and Its 
Associated Delta.''
    The Minute indicates the intent of the United States and Mexico to 
establish a framework for cooperation for developing studies and 
recommendations for preservation of the riparian and estuarine ecology 
of the Colorado River Delta. This work will be carried out through an 
existing binational technical task force that was established to 
facilitate such studies. Further, the IBWC will establish a forum for 
the exchange of information and advice among government and non-
government organizations in the United States and Mexico.
    As a follow-on to that agreement, the IBWC, working in concert with 
small planning committees in both the United States and Mexico, is 
completing arrangements to hold a Symposium on Colorado River Delta 
ecosystem issues on September 11-12, 2001 in Mexicali, Baja California, 
Mexico. The intent of this symposium is to provide United States and 
Mexican stakeholders with ``baseline information'' on the Delta. The 
two country's planning committees have agreed that the symposium will 
address three topical subjects. These are: 1) the legal framework for 
water use and allocation in both countries; 2) the water conveyance 
systems in the Lower Colorado River Basin from Imperial Dam to the Gulf 
of California; and 3) the ecological/scientific knowledge based on 
existing studies and research of the Colorado River Delta ecosystem and 
its geographical area. We believe that it is important that the 
upcoming symposium be on the Congressional ``radar screen'' and that 
you are aware there are numerous interests pressing the Federal 
Government to provide additional Colorado River water to Mexico. It is, 
of course, problematic, to consider that -- even if there were 
additional sources of water that could be provided across our Nation's 
border -- we have no ability to control how or whether another 
sovereign nation, in this case Mexico, decides to allow those flows to 
pass down to the estuary environment or diverts that additional 
increment of water to consumptive uses enroute to the Gulf. The 
Colorado River is fully appropriated so finding additional sources of 
water to meet environmental needs is a most challenging proposition.
    On June 18, 2001, on behalf of Wyoming, I joined with the other 
Governor's Representatives on Colorado River Operations for the other 
six states, in sending letters to Secretary of the Interior Gale Norton 
and Secretary of State Colin Powell concerning the matter of additional 
water to meet the estuary environmental needs in Mexico. Our letter 
expressed several key points, including the United States' past and 
continuing full compliance with all provisions of the Mexico/United 
States Treaty of 1944 and all subsequent minutes thereto. Our letters 
requested that the United States, through the IBWC and the Department 
of the Interior, recognize the legal authority of the Basin States over 
the appropriation, administration, development, use and management of 
their apportioned water and associated water rights, and the important 
and central role of the States in operating and managing the Colorado 
River, as established under U.S. law. The letter requested that the 
U.S. ``cooperate and communicate closely with, and seek the 
participation of, the Basin States'' and noted that each of the 
``States are committed to playing a cooperative and constructive role 
in addressing these issues.'' Further, ``any proposal to manage water 
and other natural resources for environmental purposes in the Delta 
that includes the cooperation, participation or funding by the United 
States should be consistent with clearly articulated and agreed-upon 
habitat, species or environmental goals.''
    As with regard to recovery of endangered species, the federal 
government of the United States must realize and recognize that these 
issues cannot be solved without the Basin States and that attempts to 
broker a deal for providing additional flows to Mexico cannot be placed 
upon the backs of the Basin States.

CONCLUSION
    There are several foundations upon which the ``Law of the River'' 
rest. Centrally important to Wyoming's long-term interests is the 
certainty that is provided to the Upper Basin by the Law of the River, 
including the right of future development. Further, the Law of the 
River defines the apportionments of the states. Under ``normal'' water 
supply determinations, there is a limit in the Lower Colorado River 
Basin of 7.5 million acre-feet per year of beneficial consumptive use 
from the mainstem Colorado River. The implementation of the California 
Plan is necessary on account of that fact. Wyoming's efforts in each of 
the management arenas discussed above, and others not addressed and 
beyond the scope of this testimony, are important components of 
maintaining our ability to develop our apportioned share of the 
Colorado River in the 21st Century, and beyond.
    As the Basin States, working cooperatively together on a myriad of 
issues within the complex framework of the Law of the River, have 
certainly come to appreciate, the best escape from a problem is to 
solve it. Since water is such an indispensable and scarce natural 
resource in the American West, resulting disputes and the manner in 
which they are resolved, whether through litigation, or through the 
cooperative approaches being undertaken in the Colorado River Basin 
presently, deserve careful attention. We greatly appreciate the 
interest, concern and attention which this Committee places in these 
matters and which are reflected in the conduct of today's field 
hearing. Thank you for the opportunity to submit this testimony.
                                 ______
                                 
    The Chairman. Thank you, Mr. Davidson, and I thank the 
witnesses for their excellent testimony. And what we intend to 
do now is recognize each Member for 5 minutes. Keep in mind it 
will go as many rounds as these folks can handle. If you get so 
you can't handle any more, walk out. Of course, if you walk 
out, we're going to hammer you and your respective state. Just 
kidding.
    Ms. Jones, let me say something to you if I may. Mr. 
Anderson, Mr. Holsinger, Mr. Dishlip, Patricia Mulroy, Mr. 
Mutz, and Mr. Davidson all alluded to California stepping up 
and living within their 4.4. This agreement's there, you all 
feel good about it, you think it's going to work. And yet 
they've all alluded also--Mr. Anderson alluded to the Salton 
Sea. If Mary Bono was sitting here, who represents that area, 
she would go in great detail how important it is to flush out 
the Salton Sea. It would take all of Lake Mead and Lake Powell 
probably to do it, but she talks about that on a regular basis.
    You have alluded to some drought figures you've got. 
California is a growing--I mean, let's face it, the biggest 
state in America right now. Two members of this panel are from 
California. You really think you can do it, I mean we're all 
counting on it. I kind of got the impression from everybody 
else here that they're counting on California living up to 
their agreement. To add, even more complicated than that, we're 
going to talk about the same with our friends from the south, 
from Mexico, how are we going to resolve all that. I'd kind of 
like to hear your opinion of those things.
    Ms. Jones. Well, I think I might start off by noting that 
in your opening remarks, Mr. Chairman, you had mentioned the 
massive bill introduced by our Subcommittee Chairman here with 
respect to the CALFED Bay-Delta Program. I think that if you 
looked at the CALFED program or the Bay-Delta issues perhaps 10 
years ago, as people have mentioned with regard to the Colorado 
River, you would never have thought that people came as far on 
that issue as they have so far, and that is giving us 
encouragement that we can move forward with these Colorado 
River issues in a similar way. Certainly, as has been 
mentioned, the CALFED Bay-Delta program is a very expensive 
proposition to move forward.
    The Salton Sea is one of those emerging environmental 
issues that has perhaps been in the shadow of more well known 
environmental resources to the north in the Bay-Delta, but we 
are hopeful that we will be able to work out among the 
competing interests and the folks that have different views 
about what the future of the sea should be a way that allows 
that to be resolved, as well as being able to go forward with 
implementing the 4.4 Plan, which is very key to California, and 
which we do believe that our local agencies are working with us 
to make good on-the-ground progress in some of the projects 
such as the canal lining projects, the groundwater storage 
projects, and putting together the water transfers.
    It hasn't been mentioned here yet this morning, but this 
week Metropolitan Water District of Southern California, in its 
board meeting, will be asked to consider approving yet another 
ag-to-urban water transfer with Palo Verde Irrigation District, 
located in the Blythe area of California, yet another thing to 
move forward on the 4.4 Plan. So we are hopeful that with 
continued effort in this area, we will be able to keep this 
process moving.
    The Chairman. It's going to be very interesting. It should 
be a real challenge to California, because you're accustomed to 
using a lot of our Upper Basin water. Mr. Dishlip pointed out 
that Arizona was using their full allotment during his 
testimony. Mr. Anderson, does Utah use their full allotment?
    Mr. Anderson. At the present time the State of Utah's 
allocation would be about 1.37 million acre-feet. We're 
currently using about 950 to one million acre-feet of water 
within the state of Utah. The remainder of our water either 
goes down into Glen Canyon Dam and is stored there, or if Glen 
Canyon needs to be released downstream because it may spill, 
then it would go on downstream to Lake Mead.
    The Chairman. And Parker and Davis in California. Mr. 
Holsinger, what about Colorado, are you using your full 
allotment?
    Mr. Holsinger. No, Mr. Chairman, at this time Colorado is 
using, on a rough average, about 2.6 million acre-feet per 
year. The remainder of our Compact apportionment flows 
downstream for storage in Lake Powell and use by the other 
states.
    The Chairman. Ms. Mulroy, are you using yours?
    Ms. Mulroy. Almost.
    The Chairman. You don't have much, but how much do you use?
    Ms. Mulroy. We expect to use our full apportionment by the 
year 2004. That's what we're estimating. We're diverting our 
full apportionment at this point, but we're recharging our own 
groundwater basins with it. So from--for river purposes from a 
diversion standpoint, yes, we are diverting our full 300,000, 
but we're not using it for M&I yet.
    The Chairman. Mr. Mutz?
    Mr. Mutz. Mr. Chairman, New Mexico's Upper Basin allotment 
is a little over 700,000 acre-feet. We're presently using about 
450,000 acre-feet of that water. But projects are authorized, 
and some under construction, most under construction except for 
the Animas-La Plata, that will utilize about 90 percent of that 
allocation. We are planning a project that will use the 
remaining 10 percent of that basic apportionment in the Upper 
Basin.
    And of course the Upper Basin Compact provides that one 
state may use another state's unused apportionment with no 
right to it. And we're not bashful about using that for a short 
period of time.
    In the lower basin, as I indicated earlier, we still have 
not put to use any of the 18,000 acre-feet authorized by the 
Central Arizona Project, but we're working on it.
    The Chairman. Mr. Davidson?
    Mr. Davidson. Mr. Chairman, no, we are not, and we're proud 
of it. And just as the original framers of the Compact, we 
believe that the certainty that we're provided under the Law of 
the River and under the Compact allows us to develop that 
remaining portion. We have probably, depending on the 
estimates, roughly 200,000 acre-foot a year that we're not 
using right now that we want to be able to develop reasonably 
and responsibly, rather than hurry up and develop before 
California gets their hands on it.
    The Chairman. So there are only two states that are using 
their full capacity, that would be Arizona and Nevada; is that 
right? Well, California, they use over their capacity, which 
they've done--well, that's what I'm saying. You really got your 
work cut out for you, if I may respectfully say so.
    Chairman of the Committee on Water and Power, Mr. Calvert, 
you're recognized.
    Mr. Calvert. Thank you, Mr. Chairman, I think. As was 
pointed out, southern California is dependent upon the Colorado 
for 60 percent of its water needs. Los Angeles is not able to 
import as much water from the Owens Valley area, based upon 
recent court decisions; the same applies to the Mono Lake area. 
Imported water from northern California has been threatened by 
recent decisions both for the Endangered Species Act, and 
Native Americans most recently on the Trinity River, which 
involves 300,000 acre-feet of water which, by the way, is the 
entire allocation for the state of Nevada within the Colorado 
River.
    On top of that, of course, California, under this interim 
agreement, must meet its 4.4 million acre allocation by 2016, 
and put on top of that the demand in California, as throughout 
the entire West, is going up dramatically. That's before we get 
into the Mexican delta, before we get into the Salton Sea, 
before we get into ESA and the rest of it. So when people refer 
to HR 1985 as a massive bill, it may be, but we've got a 
massive problem.
    I guess the question, and I think everyone here pretty much 
answered that question, is that--and I think Mr. Dishlip of 
Arizona said that the best security for Arizona, I suspect the 
best security for both the Upper and Lower Basin state, is make 
sure that California lives within its 4.4 million acre-foot 
allocation. Does everybody agree to that? Yes, I don't see any 
disagreement with that. So how do we do that? And that's why we 
have legislation that we want to move forward that most 
Californians are already on board with.
    Miss Jones, do you believe that California in the future 
can meet its future needs without additional storage in the 
north, on top of--obviously we'll get into other programs, but 
let's talk about additional storage, both off stream, 
groundwater and the rest.
    Ms. Jones. The storage is a very important part of our 
package of meeting California's water reliability, as was 
alluded to by the other states. Right now the focus has been on 
the groundwater storage side. To some extent we have neglected 
large-scale groundwater storage programs, you might say, in 
past years, and only are recently beginning to implement these 
kind of actions. Since California's last drought, for example, 
we now have another half dozen or so of large-scale groundwater 
storage programs on line, some with capacities of as large as a 
million acre-feet, bringing to nearly 20 the number of large-
scale groundwater management programs--
    Mr. Calvert. Specifically--
    Ms. Jones. Semitrophic Water Storage District, Arvin-Edison 
Water Storage District, the programs by the two Alameda 
districts in the Bay area, those kinds of projects--
    Mr. Calvert. Miss Jones, reclaiming my time. Surface 
storage, how about surface storage, is your office prepared to 
support additional surface storage in the state of California?
    Ms. Jones. I might have to punt that question for the 
Governor's office to answer. Surface storage, as you know, is 
a--surface storage outside of what is under discretion in the 
CALFED Bay-Delta Program remains a controversial subject 
politically within California, certainly--
    Mr. Calvert. Reclaiming my time again, I just want to make 
this point because we're limited to these 5 minutes, and 
certainly we'll come back, is that within HR 1985, obviously it 
supports all the groundwater storage solutions that we can 
possibly come up with, also it does not preclude the fact that 
we can move toward surface storage in the state of California 
if it--obviously, is what we need. Based upon everything that 
I've heard in this testimony today, California's diminishing 
supply of water, based upon existing reality and its increasing 
demand, we're going to need all of that water in order to meet 
our requirement by 2016 to the 4.4 million acre feet Plan 
allocation. Wouldn't you agree?
    Ms. Jones. Absolutely. We need every resource we can get 
our hands on.
    Mr. Calvert. Talk to the Governor, if you can get a hold of 
him, and let him know that we need to make sure that we--we're 
all supportive of this legislation, and so we can develop 
additional water resources in the state of California.
    The issue on Salton Sea came up, and obviously that's a 
tough issue. But--and obviously there's some discussion about 
the link between the 4.4 million acre feet allocation and the 
Salton Sea. Somebody wanted to get more specific about that. In 
the interim agreement is there some legal requirement that the 
Department of Interior come up with a preferred solution to the 
Salton Sea prior to some of the litigation work with the 
irrigation district and the water transfer in San Diego, is 
someone aware of that? Is there some kind of--Miss Jones, is 
there--
    Ms. Jones. The real requirement for us is within the 
Interim Surplus Guidelines themselves, which say that if by the 
end of 2002 California has not executed the Quantification 
Settlement Agreement package and is moving forward, then the 
surplus criteria do not take effect. That's the rule.
    Mr. Calvert. So that's a real problem that we're going to 
have to--Has the Department of Interior indicated to you yet 
when they're going to come up with a preferred solution on the 
Salton Sea?
    Ms. Jones. Not directly, no.
    Mr. Calvert. I'll come back for a second round, Mr. 
Chairman.
    The Chairman. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. I feel like I've 
been battered. California seems to be the target. And the 
reason, as I stated in my opening statement, that I'm very 
concerned is because all of us have a vested interest in it.
    I've heard a lot of the talk concentrated on the 
allocations, on the issues between the different states, but 
I've heard nobody talk to the quality of the water of the 
river. And my concern, of course, has been Moab, which we 
pushed through last administration. And the second one that is 
totally a very big bone of contention in my area is the cost of 
the salinity, taking the salinity out of the river water. Yet 
I've heard nobody say that this is an issue that we need to 
look at. Because there's a big cost to taking that salt out of 
the water that can be used to promote the underwater--the 
underground, the river--underground river, I'm sorry, my mind 
is a little on California time yet, the storage of water, 
extension of the infrastructure of recycling of water, I mean 
all of that can be utilized to be able to help California, yet 
I'm not listening to anybody saying these are issues that may 
be able to help California meet that 4.4. And I'd like to ask 
anybody how they feel about it. Yes, we are under great time 
constraints, if you will, we all know it, at least those of us 
that have been involved in the water. And we need to undertake, 
of course, a big program of education for everybody to 
understand how important the correct usage of water, where that 
includes agriculture, urban, et cetera. But I'd like to hear 
from any of you as to how you feel you could help us deal with 
that issue.
    Mr. Anderson. I was just going to say we have a program 
called Colorado River Basin Salinity Control Program in place 
in the Colorado River Basin. All seven states are involved. 
Many of us here at the table are involved with that program, 
serve on the Colorado River Basin Salinity Control Forum. And 
it's one of the best programs, if not the best water quality 
program in the country. And I know we're trying to do a lot to 
control the salts that get into the water.
    Much of the salts that enter the water comes in naturally. 
The Basin itself sits on an old sea bed and the formations are 
such that as the water goes down through, travels through the 
country, picks up about 400 part per million of salts. The 
remaining salts, another approximately 400 part per million, 
almost doubles, comes from irrigation, generally irrigation 
runoff, much of it from the Upper Basin, probably most of it 
from the Upper Basin. And the Colorado Basin Salinity Control 
Program is an effort that we are working on to improve 
irrigation efficiency, therefore reducing deep percolation, 
reducing runoff from irrigated ground, that has proven to be 
very cost-effective in controlling salt loading.
    And so I think the reason that we probably haven't talked 
about it is we think we have a program in place that is 
addressing the issue, and we are meeting all of the water 
quality criteria that has been established under the Clean 
Water Act for the Colorado River system.
    We continue to implement these programs in Utah. We have 
numerous programs in the Uintah Basin and in the Price San 
Rafael area where we're funding irrigation improvements through 
this program--
    Mrs. Napolitano. Mr. Anderson, I understand that, and I'm 
very happy to hear that you have those very wonderful programs. 
The issue though is that a lot of the water that we receive in 
the southern basin, the south basin is heavily--well, it is a 
problem for MWD and other water agencies, that they have to 
take salt still out of that water.
    Now, my understanding, and this is in speaking to the 
former Secretary of... I've lost it, Mr. Richardson, Secretary 
Richardson, that the lands that provide a lot of the salinity 
to the river, over half of them are Federal lands. My concern 
then is why are we not asking the Federal Government to take 
its share of the cost of taking the salt out of the water, 
helping the states that deal with the issues, especially in the 
Lower Basin, that will allow us to be able to again conserve 
funds to be able to deal with our own reduction of the 4.4 
Plan?
    Mr. Anderson. Again, some of the others may want to 
respond. One of the--you're right, one of the big issues is 
that in--for example, in Utah, about 67 percent of the state is 
owned by the Federal Government. You get out in the Colorado 
River Basin, that percentage goes up much higher than that; it 
might be 75 percent of that area is operated--is owned and 
controlled by the Federal Government.
    The Bureau of Land Management is the biggest landowner out 
in that part of the country. Bureau of Land Management is a 
participant in the salinity control program. We, as the basin 
states, have been trying to get the Bureau of Land Management 
to do more, to go into their lands and try and put some money 
in to control runoff from their land, to control the amount of 
salinity that's coming.
    I think there was a bill passed earlier this year requiring 
the BLM to submit a report to Congress on their activities. We 
support that legislation, and are hoping that will help put 
some additional pressure on the Bureau of Land Management--
    Mrs. Napolitano. Well, I think it goes beyond helping BLM 
do its job, I think we need to force BLM to do its job to a 
certain degree.
    All of you mentioned Mexico. My understanding is you have a 
desal plant down near Yuma, if I remember correctly, that 
sometimes does not go on line. I don't hear anybody saying that 
it is on line, that it is used to be able to clear the water 
before going to Mexico, per the treaty. And that's an issue 
also. If we're all going to say, well, let's give them water, 
what about the quality of water that's required, even for those 
riparian areas, or especially for the riparian areas that 
they're talking about?
    Ms. Mulroy. Herb may want to jump in on the desalter, but 
I'll go ahead and take that. We mentioned earlier that the lack 
of using the desalter has created the Cienega de Santa Clara, 
which is a huge bird sanctuary. I think if the desalter were to 
be started and that water would no longer flow into Mexico and 
that habitat would be destroyed, you would have a major 
international incident. Because there is huge value to the 
Mexicans in the Cienega de Santa Clara, so it's not that 
simple.
    Mrs. Napolitano. Right, no, I understand, and there's also 
litigation currently.
    Ms. Mulroy. By United States environmental groups.
    Mrs. Napolitano. And Mexican environmentalists, right. You 
might also note that part of the water that flows into the Rio 
Bravo and eventually into the Rio Grande is being dammed on the 
Mexican side, creating about a $90 billion loss to Texas 
farmers.
    The Chairman. The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. Again, I would like to 
thank all of our panelists for being here, and welcome to my 
district. We're right on the edge here of Mr. Hansen's district 
and mine. He got the airport because he loves to fly, but we 
got the Department of Natural Resources buildings in my 
district. All that may change here in the near future though.
    I was pleased to hear about the collegiality among the 
states and the development of working relationship that's 
happening there. I couldn't help but think about in Utah here, 
where we have a bit of a water shortage. And so the last few 
days, as the heat has gone up and the ditches have decreased in 
their volume, I've gotten to know my neighbors a lot better, 
and I'm hoping that we can maintain that same kind of 
collegiality that you have.
    Interestingly, we have about 12 families that use a 
pressurized sprinkler system, and it is so much more efficient 
that the water district doesn't even count what we do because 
we're way under what our rights would allow there. And that all 
worked quite well until recently; one of our neighbors was 
unhappy with the flow, and so he decided instead of sprinkling 
he would open all his valves and flood his area, which leads us 
back I guess to the salinity problem that Ms. Napolitano was 
concerned about. So these issues that we're dealing with are 
important issues. They go all the way up from individuals and 
up to states, of course.
    There are a couple things that I was interested in if I 
could just get a bit of a follow-up. I appreciate, Miss Mulroy, 
your information about the Cienega de Santa Clara. And I'd 
actually like to know a little bit more about that, how big it 
is, how it works. And Mr. Dishlip, if you could address that, I 
would appreciate that.
    Mr. Dishlip. Well, the Cienega de Santa Clara is the result 
of a project constructed by the Bureau of Reclamation to remove 
the drainage water from the Wellton-Mowhawk Irrigation District 
that at the time was, back in the 1960's, I guess, was adding a 
great deal of salt to the--drainage waters were being 
discharged back to the Colorado River and being delivered to 
Mexico. And because of that, it was creating a great deal of 
problems with irrigation in Mexico. And so it led to an 
international negotiation, which led to a Minute to the Mexican 
Water Treaty. Part of the result of that Minute was an 
agreement that the United States would not put too much salt or 
much greater salt loading in the salt--in the Colorado River 
than what would divert at Imperial Dam. Well, the solution to 
that problem was to make sure that this drainage water did not 
discharge any longer to the Colorado River, at least at the 
high parts per million that it was.
    And for a period of time it was felt we could divert that 
water around the Colorado River and discharge it to the ocean 
in Mexico, and so the Congress passed the Salinity Control Act, 
and on Title 1 of that led to a construction of a bypass canal. 
And now the water that's pumped to a drainage in the Wellton-
Mowhawk area which is high is salt is bypassed from the river 
and it's discharged. And instead of being discharged actually 
to the ocean, it was discharged near the ocean in an area that 
historically had some marshlands in Mexico.
    Well, what was thought to be a fairly short-term solution 
until the Yuma Desalt Plant was up and running turned out to be 
a 25- or 30-year issue. And as a result of that, this about 
130,000 acre-feet of discharge water annually has been bypassed 
to the Cienega. And I believe it's created about 10,000 acres, 
or hectares, I'm not sure which, of marshland habitat. That 
marshland habitat is very high quality for bird life. The water 
is very salty that is discharged there, so you don't get a 
diverse riparian habitat, but you get a lot of cattails and 
marshes. And as a result it's developed a very high quality 
habitat in the Republic of Mexico for bird life.
    Now the issue really has come about, I believe, as a result 
of these limits being placed on the use of water in the United 
States, and California no longer having access to an unlimited 
supply of water, the Lower Basin now must live within its 
entitlement. As a result of that process that led to the 
construction of the desalt plant, which was now we have to 
treat that water and not bypass it to the ocean any more, but 
treat it and deliver it to Mexico as higher quality water has 
become the issue of the day.
    And the issue really comes about, what do we do? Do we turn 
that desalt plant that has been constructed and it's kind of 
mothballed in the Yuma area on--carry out the activity as it 
was planned in the early 1970's to offset and reclaim that 
water and make it useful and deliverable, or do we maintain 
that habitat in Mexico and find some other way to meet the 
intent of the Salinity Control Act. And this is a real 
challenge.
    On top of that challenge is that the operation of the Yuma 
Desalt Plant is quite expensive; I think the estimate is it 
could cost as much a $25 million a year to run that desalt 
plant. And even after you run that desalt plant, it will only 
treat about two-thirds of the water supply. The way the desalt 
plant works is it treats a portion of the water to very high 
quality, and then that's released to the river and blended, but 
the remaining part is very high concentration in salts, it's 
called the brine stream. And so about a third of the water 
supply would continue to have to be discharged to the Cienega 
even if you ran the plant, and now the quality of that water is 
going to increase in salinity by a multifactor because now 
you're dealing with a much higher level concentration.
    The Bureau of Reclamation is actively involved in looking 
at alternatives of what to do about this issue. From the State 
of Arizona standpoint, we look at it as a combination of a 
water quality issue, but also water supply issue. This water 
that's being discharged to the Cienega is usable water, all it 
needs to do is to be treated. And considering the value and the 
shortage of supply in the Colorado River, a hundred or 130,000 
acre-feet is a significant water resource available not just to 
the state of Arizona, but to the entire basin states. But 
things have happened over those 30 years and the situation's 
changed, and I don't know right now what the answer is.
    Mr. Cannon. I think my time has about expired, but can just 
I ask one quick--if you turned the desalinization plant on, 
what would the cost per acre be? Do you have any idea?
    Mr. Dishlip. I believe the Bureau of Reclamation estimates 
the cost per acre-foot of treated water, on the order of $350 
an acre-foot.
    Mr. Cannon. Great. Thank you for your patience, Mr. 
Chairman.
    The Chairman. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. Coming from 
the state that has the smallest appropriated allocation of 
Colorado River water, I'm very pleased also to be here as 
officious intermeddler on this Committee. I'm also pleased to 
see the State of Nevada representative in this issue as well 
because of the significance, as Miss Mulroy has said, about the 
state of Nevada.
    My concern, however, is the fact that there's so much 
complexity in our legal system with regard to this, the 
complexity of state versus state, state versus Federal, Federal 
versus international laws, all riding together to come to some 
sort of uniform agreement, and the effect that's going to have 
not only on the users, but on the ultimate condition and 
quality of the Colorado River as well.
    I was very pleased when I read Mr. Holsinger's testimony. I 
came to page 6 and in that, Mr. Holsinger, you proposed that 
Congress amend the Land/Water Conservation Fund to direct the 
Forest Service to use its allocated Land/Water Conservation 
Fund moneys to acquire water rights, and then transfer those 
water rights to each state. This, to me, sounds like a far 
better idea than having the United States own and control water 
rights themselves because, as we in the West know, states do 
have the right and title to the water that's within the states 
themselves. So is Colorado prepared from a political standpoint 
to make that recommendation in Congress?
    Mr. Holsinger. Thank you, Congressman. The State of 
Colorado just recently contacted our delegation about this very 
idea. We've yet to have a great deal of dialogue, but we're 
optimistic that working with our delegation and others, we'd be 
able to try to do something like that.
    Mr. Gibbons. Good. Let me, in the bit of time I've got 
remaining, talk about some of our state of Nevada issues. Miss 
Mulroy, you know, obviously the State of Nevada is either--very 
close to its allocated share right now, 300,000 acre-feet. 
Knowing that we've gone through a series of steps internally in 
the State of Nevada to make more efficient our utilization of 
water, in turn, using return flow credits to be able to extend 
the utilization of that water, what--what's the State of Nevada 
preparing to do in the year 2016, when it reaches the ultimate 
cap, even with the bypass surpluses, in terms of its 
utilization? What are we--what do we plan to do beyond 2016? 
That date is not that far away, and we certainly have a great 
deal resting on any planning that may take place.
    Ms. Mulroy. That's correct. In the--after 2016, we would 
first begin to use the water that we've banked in the State of 
Arizona. We have also put some things into place, we have 
bought significant shares in the Muddy River within the State 
of Nevada, and that's a tributary to the Colorado River, and it 
would be our intent to begin utilizing those. We have an 
agreement with the Muddy River Irrigation District that will 
allow us to begin utilizing that water. So we're looking at any 
and all alternatives.
    But our safety net is the water that we have banked in the 
State of Arizona. Because the combination of the interim 
surplus criteria, water conservation, and banking in the state 
of Arizona will take us beyond the year 2040.
    Mr. Gibbons. Thank you very much, Mr. Chairman, I 
appreciate that. And I'll reserve any future questions till the 
next round.
    The Chairman. I thank the gentleman. If Josh here figured 
this right, when you all told me what you weren't using, 
there's about three million acre-feet that's flowing to 
California that's not being used by the other states. Did I 
figure that right, Josh? Anyway, this hearing, to me, jumps out 
as the problem that's going to happen in 2016. And I guess it's 
kind of a responsibility for all these other states to, as Miss 
Mulroy just pointed out, make sure they're able to take care of 
their water after that time.
    And what I really feel good about is the cooperation that 
seems to be here among the seven states on how they're going to 
do this. You know, and I hope that stays there. But sometimes 
I've seen these things happen, over my 20 years of Congress, 
when it finally comes down to push and shove, we're back in 
court. And I hope that doesn't happen. So I think what would 
avert that is if people make the--whatever is necessary to take 
care of those things prior to that date coming about.
    I appreciate Mr. Holsinger's comment on what he just said 
to Mr. Gibbons. That's a very interesting concept, we'll look 
forward to seeing that. There's just a lot of things that are 
pretty sacrosanct, you know, when you start talking these areas 
of who has control of water. I don't know of anything in the 
West that's more important than water; we live and die with 
water.
    This isn't a hearing on the Endangered Species Act or 
energy, but the Colorado River has those two problems also. I 
don't think a lot of people realize the ramifications of the 
Colorado River. A few of you have alluded to the Endangered 
Species Act. Does anyone want to tackle some of that? Let me 
tell you what we'll do. The Committee has put together a 
working group, comprised of five Republicans and five 
Democrats. The Endangered Species Act was passed in 1973, and I 
assume most of us probably would have voted for it if the 
intent of the Act was carried out. If you go back and read the 
original hearing on it and what was said on the House floor and 
the Senate floor, it was for kind of major species, for 
example, the bald eagle was mentioned a number of times, the 
grizzly bear was mentioned a number of times. The Act just 
somehow got a little carried away, in the opinion of a lot of 
us, and has gone way beyond that. And if there's any Act that 
is difficult for BLM, Forest Service, Park Service, you folks 
who work with water, people that work with energy, it turns out 
to be the Endangered Species Act. We're hoping that it can be 
somewhat worked out. It will not go away. I mean, I get letters 
every day saying repeal it. It's not going to happen. What has 
to be and what should be done is to modify the Act so it's a 
more working Act and we can work with it.
    I'll throw out one recommendation just that the Committee 
has worked on, and you tell me what you think about other 
recommendations that you may have that you feel would be 
workable, because I'm sure every one of you has to work on it. 
Do you know, if you wanted to go into the Grand Canyon right 
now and do something, you'd have to have a permit from the 
Superintendent of the Grand Canyon? And that's how the Park 
Service works.
    Now what if someone came in to one of your states and 
wanted to explore the possibility of putting some species on to 
the Endangered Species Act. Would you feel comfortable if, 
right here in the state of Utah, if Kathy Clark, the Natural 
Resource Director, if she had a peer-review group, and that 
peer-review group said, well, let's see your qualifications, 
and let's also see what this species is and why you want to 
preserve it. And then if they agree, you get the go-ahead. Now 
this is done in other areas, we've done it in the Park Service. 
And in a way, it puts a little more responsibility on the 
states, but it would probably curtail the listing problem that 
we have. Biggest problems we have are listing and delisting, 
they're the two biggest problems we have with the Act.
    Now with that said, I've used more than half of my time. 
Does anybody want to respond to that? Mr. Davidson, you looked 
like you could hardly wait to say something. I'd like to turn 
to you.
    Mr. Davidson. Thank you, Mr. Chairman. Pretty good mind 
reader too, I guess.
    The--without knowing the details of this peer-review group 
itself, certainly I don't know how capably I can respond to it, 
although I think it probably gets at one of the issues that I 
believe is at the heart of some of the problems with the 
Endangered Species Act, and that is the whole, as you 
mentioned, the listing determination. And right now, basically 
it takes a postage stamp for an individual organization to 
request or insist upon the listing of species. And then of 
course, as you all know, that triggers a number of requirements 
for the Fish and Wildlife Service, and ultimately can trigger a 
number of obstacles for anyone who wants to, for example, float 
a portion of the river that--under a situation where they 
require some kind of a major Federal action.
    So certainly from Wyoming's perspective, we believe that 
there needs to be some kind of a realistic assessment of the 
science that goes into determination of whether there's a 
listing or not. As you all know, it's based upon--currently 
based upon the best available science, but that determination 
of best available science is oftentimes left to individuals who 
use their discretion pretty broadly, I might say, and we 
believe that some kind of a peer review to assess the science 
behind any type of a listing determination, or delisting 
determination, for that matter, would certainly be very useful.
    The Chairman. Do you think the economy of the area should 
be a consideration on listing species?
    Mr. Davidson. Again, Mr. Chairman, absolutely. And I 
believe it technically is required to be a determination, but 
it is given very short shrift, generally, in the 
determinations.
    The Chairman. Do any of you feel that when Fish and 
Wildlife takes over private property, that they should pay the 
market value, or should they pay the depreciated value because 
of the species? Does anyone want to tackle that one?
    Mr. Davidson. Mr. Chairman, this would be my own personal 
viewpoint, not that perhaps of the Governor of the State of 
Wyoming, although perhaps it would be, I don't know. Certainly 
my viewpoint is that it should be the fair market value, not 
the value that's been depreciated as a result of listing.
    The Chairman. Coming out of the Attorney General's office, 
you read the Constitution where it says just compensation?
    Mr. Davidson. That's correct, Mr. Chairman.
    The Chairman. That's the way I read it too, as Chairman of 
this Committee. The gentleman from Colorado, Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. California certainly 
must help themselves, and certainly we're trying to do that in 
California to meet our obligation for future water, but would 
you all be supportive of Federal assistance leverage to build 
water projects in California if it helps us meet the 4.4 Plan? 
Why don't we start off with Mr. Anderson.
    Mr. Anderson. Again, we've been very supportive. I think 
California's been very honest with us in their desires. I 
believe them when they say they will do whatever's necessary to 
be done to comply with the Interim Surplus Guidelines, the 
record decision, and implement their four point plan. If it 
requires Federal funding for that to be successful, then from 
our--from my perspective as a person who visits with them and 
sits at the table with them, I would support that.
    Mr. Calvert. Thank you. Mr. Holsinger?
    Mr. Holsinger. Thank you. Mr. Chairman, the State of 
Colorado is very supportive of actions such as that for 
California to implement their water use plan.
    I might qualify it with, so long as it doesn't affect our 
ability to go forward with the implementation of Animas La 
Plata in Colorado; that's also very important for Colorado and 
New Mexico. But yes, we're very supportive of that.
    Mr. Calvert. We'll work with you on that. I would hope you 
say yes, Miss Jones.
    Ms. Jones. Oh, absolutely, and as you probably know, some 
of our California water users are starting to talk about a 
proposed legislative proposal for such a system.
    Mr. Dishlip. I think through the discussions we had with 
the 4.4 Plan, we were all educated to a high degree on the 
interconnection between state water projects, central valley 
projects, Colorado River supplies, and how the plumbing all 
links together, including Arizona's perspective that California 
does have enough water available if they can find ways to put 
it to use. And our interest in the Colorado River was that we 
recognize that California's going to have an increasing need 
for water, but they needed to reduce on the Colorado River 
side, and might require additional expenditures in the northern 
California side. We clearly are supportive of that.
    But on the other hand, we believe that the proposal that's 
been put forth on the 4.4 Plan can be accomplished within 
California even without funding from--on the northern 
California side.
    Ms. Mulroy. We concur with the State of Arizona. We are--we 
are very supportive of any funding for CALFED projects, but 
would have to leave the burden on the State of California to 
meet its obligation. And as--we would be concerned if it would 
be in competition with any of the water quality issues that we 
have, requests for funding out in front of Congress to help 
improve the water quality in Lake Mead, to remove perchlorides 
and urban contaminants from entering Lake Mead. And we, with 
Congressman Gibbons' assistance, are looking for assistance in 
that area. So to the extent that it doesn't compete.
    And let me throw in one other thing. We would be supportive 
of northern California projects, but there is a project in the 
state of California being looked at that we would not only not 
be supportive of, but we would violently oppose, and that would 
be another aqueduct for diversion into San Diego. If that were 
part of any funding plan, then that would crater any support.
    Mr. Mutz. Congressman, we, as indicated in our statement, 
are supportive of California's efforts to reduce its use of 
Colorado River water. And they've got a big job ahead of them. 
We recognize the effort that's been put forth to date.
    Again, as indicated by my colleagues, we would look 
carefully at any competition for funds with projects with which 
we are interested in at home. But generally we would support 
California in its efforts, looking, however, to California to 
take the initiative in doing its development.
    Mr. Davidson. Thank you, Congressman Calvert. We also would 
support request for funding from California's part that would 
result in their ability to comply with the 4.4 Plan. I would 
caution though, sometimes things work slowly through the 
Federal processes, and we would not be supportive of any 
slippage in the schedule, I guess, whether that's caused by 
lack of Federal funds or just through California's own actions.
    Mr. Calvert. Yeah, and I'm glad that you primarily seem to 
be supportive of this, or you are supportive of that, because 
obviously cooperation is important, not just with all of the 
Western states in order to meet our future water demands. And 
certainly we know water is fungible just like electricity, and 
that has an effect on the entire West. And I assure you as the 
Chairman of the Subcommittee, I have been and will continue to 
work with each one of you to try to meet your future water 
needs and demands.
    But I just want to make the point that based upon my 
earlier statement, based upon the fact that California must 
meet its 4.4 Plan based upon the interim decision, based upon 
the fact that we have at this point a diminishing supply of 
water in California, increasing demand on water, that we're 
going to have to do a lot, and we'll need to leverage Federal 
money to assist California to meet future demands and make sure 
we don't have a problem down the road which will affect the 
entire western United States. So I appreciate your support in 
that, and look forward to working with each one of you.
    And now I will recognize Miss Napolitano from Los Angeles, 
California.
    Mrs. Napolitano. Thank you, Mr. Calvert. I'm very 
interested in a lot of the dialogue on some of the solutions. 
One of the questions that I have is--had since the Chairman 
brought up the endangered species, and Mr. Dishlip, is there 
any program similar to the Upper Colorado River Basin Fish 
Recovery Program being--I know there was talk of it to the 
Lower Basin to help maintain the endangered species, fish.
    Mr. Dishlip. Yes, Congressman Napolitano, the program in 
the Lower Basin is called the Multispecies Conservation 
program. It's a little different than the recovery program in 
the Upper Basin. The recovery program in the Upper Basin is 
geared at recovery of certain listed endangered species. In the 
Lower Basin, we looked more toward a comprehensive approach to 
recover existing endangered species, but also to look at a wide 
range of additional species to avoid future listing. And so 
it's taken on a broader scale, you might say, in the Lower 
Basin. It's a cooperative effort. Right now it's just still in 
the formulation standpoint. We really don't have other than a 
pilot program anticipated that the current time. But the idea 
is to move forward potentially with a 50-year program to lead 
to recovery of the species and avoiding of additional listing.
    It's a cooperative effort between the water users, the 
power users, the Federal Government obviously is a very 
critical player in all of this, both because they manage the 
Lower Colorado River Basin, and also a considerable amount of 
water use in the Lower Basin is for Federal purposes, including 
Indian tribes'.
    Right now what some of the difficulties are is getting 
established exactly what that program will be. There has been 
some contractors hired to help a Steering Committee put that 
program together to get a better concept of what needs to be 
done. Then that has to be costed out, and then some kind of a 
funding mechanism has to be put in place.
    I think the idea right now know though is to move forward 
with a pilot program as soon as possible. And I believe Members 
of the Steering Committee have gone back to Washington, maybe a 
few weeks ago, even, to discuss that with some of the Members 
of Congress about getting some potential funding for some pilot 
programs.
    I think the idea of a multispecies conservation program is 
a very good one, it's a creative program, again, a 
collaborative program. Exactly how it's going to work is not 
quite in place yet.
    Now one of the comments that I had to Chairman Hansen is 
that in the lower Basin, one of our particular issues is that 
under the Endangered Species Act, Federal actions, and in this 
case, since the river really is a Federalized river, it's run 
by the Secretary of the Interior, leads directly to 
consultation between the Federal Government and the Fish and 
Wildlife Service, the Interior Department, the Bureau of 
Reclamation and Fish and Wildlife Service. And yet the direct 
water users, the beneficiaries, the people who have a big stake 
in the water supply is not the Federal Government, it's the 
private and the Indian tribes who use the water and the power. 
And just the structure of the Section Seven consultation makes 
it fairly difficult sometimes for the people who have the most 
at stake to be at the table to--
    Mrs. Napolitano. How do we improve it?
    Mr. Dishlip. Well, we hope that the multispecies approach 
does improve that, because that creates a Habitat Conservation 
Program where everyone works together, including the Fish and 
Wildlife Service, to avoid that problem.
    Mrs. Napolitano. That's in a sense just a task force, so to 
speak. What if the Federal Government were to allow the input 
at--dealing with different--
    Mr. Dishlip. I think that is exactly what most of the water 
users would like. They would like to be at the table as well as 
the Federal Government. I believe that might take a 
modification to the Act though. And so short of that, we found 
this other solution which may work as well, which is be at the 
table through this cooperative effort.
    Mrs. Napolitano. Does it also include Indian--
    Mr. Dishlip. Yes.
    Mrs. Napolitano. --groups?
    Mr. Dishlip. Yes.
    Mrs. Napolitano. And the players are then the lower basin 
states?
    Mr. Dishlip. The lower basin states and the water users in 
the lower basin states, and the power users, the game and fish 
departments within the three lower basin states, and also the 
Steering Committee and many nongovernmental/environmental 
groups.
    Mrs. Napolitano. Are they also looking at contamination in 
the rivers?
    Mr. Dishlip. Not particularly. This focus is to be in 
compliance with the Endangered Species Act.
    Mrs. Napolitano. Okay, but is it not--the water quality 
affecting the future of the endangered species?
    Mr. Dishlip. Well, to the extent it would, I'm sure that 
would be a factor. I think right now the focus really is on 
habitat, restoration and recovery of currently listed 
endangered species.
    Mrs. Napolitano. Thank you very much. Mr. Chairman.
    Mr. Calvert. Mr. Cannon?
    Mr. Cannon. Given the time frame for flights this 
afternoon, I think I'll pass, Mr. Chairman.
    Mr. Calvert. Mr. Gibbons?
    Mr. Gibbons. Thank you. Mr. Calvert, I have just a couple 
of brief questions and maybe some follow-up with regard to what 
we discussed earlier. And I was curious if all of you would 
agree that once we reach these accommodations and these 
agreements and put these programs into place, do you feel 
confident that we are fairly well out of the woods with regard 
to any long-term protracted litigation over the river? Mr. 
Davidson, we'll start down there with you, because you always 
have that wonderful smile on your face that you want to talk, 
and then we'll work our way back this direction.
    Mr. Davidson. Thank you, Congressman Gibbons. My belief is 
that if we can pull all these pieces together with respect to 
California and the 4.4 Plan, that we will avoid--we will be 
able to avoid an interstate dispute, we will be able to avoid 
interstate litigation.
    What I can't predict, what I can't give you any assurance 
of is that we will be able to avoid a dispute between the 
states who comprise the seven states entitled to the flows of 
the Colorado River and either environmental groups or some 
activity for or on behalf of Mexico. That's just--those are two 
unknowns that are--that are out there that we just don't have 
enough of a handle on to be able to provide that assurance.
    Mr. Gibbons. Well, let me add a part to that question, if I 
may. If in fact the states are permitted to join in this 
agreement and in the September negotiations in Mexico over the 
wetlands down there, do you feel that there is a strong 
likelihood that the agreement or any discussions that are 
reached would have a likelihood of taking effect contra to the 
idea that if you weren't involved with it, there is less of a 
likelihood that the seven states would agree?
    Mr. Davidson. I'll take a shot and then I'll pass it on to 
my compadres here.
    I believe that certainly we are going to be involved, 
because we believe that there is that possibility, maybe even 
rising to the level, we hope, of a likelihood, that we can 
avoid those kinds of disputes. And that's why we are intending 
to be involved, we are hoping to be included as much as 
possible so that we can avoid it. If we're not included, then I 
think the disputes are almost inevitable.
    Mr. Mutz. Congressman, I would echo what my colleague, Mr. 
Davidson, has said. I would observe, however, that one does not 
know what might be thrown off the wall by groups that we have 
not had a lot of experience with. We have not dealt a lot with 
the Mexican nongovernmental agencies, and I'm not--I just 
cannot predict where we might come from with them. But as Mr. 
Davidson said, that's what we're in this for. We hope to 
preclude further dispute.
    Ms. Mulroy. I agree with Mr. Davidson, with one extension 
on that. I mean I think over the last 10 years I think one of 
the things that we as the states have realized is that shared 
solutions are really the only solution that can be found on the 
river. Litigation is a luxury of abundance, and as the river 
becomes tighter and tighter in terms of its supply, the 
immediate consequences of litigation become very real. They're 
not something that will occur 15, 20 years, 30 years down the 
road; they'll happen tomorrow. So in pursuing litigation, I 
think all of us are reluctant and would prefer not to go that 
route. We would really have to be pushed against the wall.
    As this river system becomes tighter, the only real 
solutions are those in which we appreciate the situation of our 
neighbor and can walk in their shoes, and not ones where we 
manage the river as seven separate water supply sources.
    Mr. Dishlip. Basically I think that coming out of our more 
recent experience, the attitude in Arizona is to avoid 
litigation wherever we can. I think our concern in the future 
would be that we would still have to be prepared to protect our 
rights and protect our interpretation of the Law of the River 
as we see it. And the concern may arise, it has not arisen to 
date, but it may arise, that the Secretary of the Interior 
really is the master of the river, and it's his job to 
interpret how he sees the Law of the River. And it could well 
be that his interpretation of the Law of the River and how he 
chooses to operate it is in conflict with how we see it. That 
would be something we would certainly not look forward to, 
suing the Secretary of the Interior. But I think that's 
probably the hardest issue right now in the future looking--the 
Secretary of the Interior wears so many hats and he has so many 
trust responsibilities in so many different areas, sometime or 
other it could well be that an issue will arise where the hat 
that he wears to be the master of the river and the hat that he 
wears to be the head of the Fish and Wildlife Service or the 
head of the Bureau of Indian Affairs could conflict him in a 
way that would lead us to a position where we feel we'd have to 
go to court to seek remedy.
    Ms. Jones. I wholeheartedly agree with the previous 
speakers about the desire that we have to avoid future 
litigation. And I think we all recognize that the money that 
would be otherwise expended on litigation buys a lot in terms 
of on-the-ground habitat restoration or water management 
improvements.
    Mr. Holsinger. I don't really have much to add, other than 
that perhaps the comity that's arisen as a result of the 
negotiations that led to the California Water Use Plan is 
certainly a good step in the right direction.
    Mr. Anderson. Again, I can support the statements that have 
been made. I think to me it's obvious that from the perspective 
of those who are involved today, we're not looking to 
litigation, we're looking to try to find a solution. But we 
absolutely have no control of outside groups who may initiate 
lawsuits and--but we will be very protective. Our Attorney 
General staffs are always meeting when lawsuits are filed to 
determine whether we as states should join in in one side or 
the other to protect our rights, and we will do that. But I 
believe the seven basin states, we have a desire to try to find 
solutions to the problems that don't include litigation.
    Mr. Gibbons. Thank you very much. And thank all of you for 
your presence here and your testimony, it's certainly been 
enlightening to hear from you.
    And Mr. Chairman, Chairmen, with regard to Chairman 
Hansen's question about ESA, I find it very difficult to 
envision any statute in the United States that could be applied 
outside or extraterritoriality to the borders of the United 
States with regard to any Endangered Species Act. First of all, 
we have no means of enforcement, we have no means to ensure 
that there is a recovery plan that would benefit the species. 
And I think that begs a very serious legal challenge, one which 
could be directed to the heart of the Endangered Species Act 
itself if there is an application of that outside the borders 
of the United States.
    The Chairman. Almost impossible, I agree with the 
gentleman. I don't think a lot of people realize out of all of 
the things that have been put on the list, there's only been 
about 11 or 12 recoveries. So it's kind of a disaster. I mean 
huge amounts of money we've put into that thing, huge amounts 
of money, and we don't see any recovery, so we wonder where 
we're going.
    Is this our last round? Okay, I'll start it out. You know, 
there's been some talk by a lot of folks, and a lot of money 
raised, about draining Lake Powell. What would that do to you? 
Mr. Mutz?
    Mr. Mutz. That might bring on a fight, Mr. Chairman. And I 
should mention that litigation is a pretty good stick, and the 
states, at least New Mexico, is not willing to hold that stick 
back when it comes to things like draining Lake Powell. The 
future development of the Upper Basin depends on that.
    The Chairman. Well, if you consider everywhere you're 
talking about the necessity of water, that we're overallocated, 
that there's not enough to go around, we can't live with the 
growth, the supply, the demand, this whole thing would go down 
the tubes. I mean this whole agreement you're just talking 
about, it's gone. If you drain the Lake Powell, the whole 
shooting match is gone, is that right, am I wrong?
    Mr. Anderson. That's right.
    Ms. Mulroy. Yes.
    The Chairman. All this work, the Law of the River, all the 
things we've done, all these times, it's gone.
    Ms. Mulroy. There would be no Interim Surplus Guidelines 
without Lake Powell, none of this would be feasible without it.
    The Chairman. People in the United States, regardless how 
they feel, have certain rights to talk to Congress, and we did 
have one hearing, what was that, about four or five, 6 years 
ago? We had a hearing on this issue. We didn't get much out of 
it. Got a lot of talk, but we didn't really get much as far as 
the meat of it, the science, the water, the power, all that 
type of thing.
    Excuse me, did somebody have a comment? Mr. Dishlip?
    Mr. Dishlip. Well, obviously Lake Powell has been a major 
point of discussion in our state. Glen Canyon Dam's in Arizona, 
and it's a major recreation area and a destination resort area 
for people in Arizona, and the Navajo Nation are very 
supportive.
    Probably most important from a water supply standpoint, 
what makes the Colorado River work is the storage capability, 
that we have more storage on the Colorado River than almost any 
other river basin in the United States relative to the average 
annual flow. And when you look at the erratic nature of the 
flows of the Colorado River, 1 year it may be the driest year 
on record and the next year may be the wettest year on record. 
The storage is what's evened out the water supply and really 
what's allowed the development to occur in the Lower and Upper 
Basins. And having those two very large reservoirs, Lake Mead 
and Lake Powell, are really the linchpin.
    And not only the political and the legal aspect to make 
sure that the Compact works, but just to the physical aspect, 
to make sure that water supplies are reliable, I just can't 
imagine a system without tremendous disruption without a Lake 
Powell or something similar.
    The Chairman. So every state would oppose that, all seven 
of you would really oppose this big time; is that right?
    Ms. Mulroy. Yes.
    The Chairman. You point out, Mr. Dishlip, the amount of 
water that is stored, starting at Fontanelle I guess in Wyoming 
and working all way down Parker and Davis and all those in 
between, that's a sizeable amount of water stored.
    Mr. Dishlip. It's on the order of 60 million acre-feet of 
storage, and 54 million of that is located in those two large 
reservoirs, 24 million in Lake Powell. Without it, the system 
is completely different.
    The Chairman. So let the record show that these seven 
states totally oppose this. Is that correct?
    Mr. Mutz. Agree.
    Ms. Mulroy. Yes.
    The Chairman. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I have just one 
question. I was kind of curious more than anything else. The 
gentlelady from Nevada, Miss Mulroy, you mentioned a conveyance 
system from--I assume from the purification district area into 
San Diego.
    Ms. Mulroy. No.
    Mr. Calvert. Or from--directly from the Colorado River, all 
right. I hadn't heard of that so I was just curious.
    Ms. Mulroy. The state of California has funded a 
feasibility study for that.
    Mr. Calvert. If California met its 4.4 million acre-foot 
allocation, why would any state be opposed to any kind of 
conveyance system within state?
    Ms. Mulroy. Well, it wouldn't be within state. California 
has more than enough capacity to move its full allocation into 
the state of California.
    Mr. Calvert. Well, I was just curious, that hadn't been 
brought up to me so--as far as a way to convey water.
    But I--since this is the last of my time, I wanted to thank 
this panel and look forward to working with all of you to try 
to work out the very difficult problem with the Colorado River. 
It's a little bit like playing three-dimensional chess, because 
there's so much demands that are placed upon such a body of 
water that many millions of Americans depend upon. So again, I 
look forward to working with all of you, and certainly with 
Miss Jones and the State Legislature in California, and we 
certainly need the help of the Chairman of this Committee and 
the entire House of Representatives to help resolve some of 
these major issues that are affecting the West. And I say that 
water is right on top of the list, Mr. Chairman.
    The Chairman. I couldn't agree more. Gentlelady from 
California.
    Mrs. Napolitano. Thank you, Mr. Chair. I'd like to 
introduce for the record as a courtesy a letter from Tom Graff, 
Environmental Defense. It's a letter that supports timely 
implementation of the 4.4 Plan and expresses support for 
legislation to amend the Interim Surplus Guidelines and related 
documents.
    The Chairman. Without objection, it's admitted.
    [The letter from Thomas J. Graff, Regional Director, 
Environmental Defense, follows:]

July 5, 2001

Hon. Gale Norton
Secretary of the Interior
1849 C. Street, N.W.
Washington, D.C. 20240

Hon. Barbara Boxer
U.S. Senate
112 Hart Senate Office Bldg.
Washington, D.C. 20510

Hon. Dianne Feinstein
U.S. Senate
331 Hart Senate Office Bldg.
Washington, D.C. 20510

Dear Secretary Norton and Senators Boxer and Feinstein:

    I write on behalf of Environmental Defense to urge your concerted 
attention to a proposal for federal legislation now being circulated on 
a draft basis by the Coachella Valley Water District, the Imperial 
Irrigation District, the Metropolitan Water District of Southern 
California, and the San Diego County Water Authority.
    The underlying purposes of the draft legislation are crucial to 
California's future, as they are to the other six Colorado River Basin 
states, to northern Mexico, and to the environments impacted by lower 
Colorado River water development and management. These purposes are to 
facilitate implementation of the San Diego--IID water transfer 
agreement, of the four agency quantification settlement agreement (QSA) 
establishing rights within California's 3.85 million acre foot 
agricultural entitlement from the Colorado River, and of the California 
plan to reduce California's annual usage of Colorado River water to 4.4 
million acre feet. Also implicated are a variety of other agreements, 
administrative actions, and environmental commitments related to the 
Colorado River, including commitments to various Indian tribes, to the 
Colorado River Delta, and to the Sacramento-San Joaquin Delta.
    The most immediately crucial objective of the draft legislation the 
four above-enumerated agencies are floating is the authorization of a 
program to implement a set of habitat enhancement projects meant to 
offset the incremental negative environmental effects occasioned by the 
San Diego-IID water transfer, the QSA, and the California 4.4 plan.
    Given the many environmental benefits that should arise out of the 
timely implementation of those agreements, and the risks that would 
attend a failure to complete the agreements on the timetable set forth 
in the QSA and elsewhere, there is cause here for especially prompt 
action on Congress' part.
    The proposed legislation as drafted has a number of controversial 
provisions, the most significant of which relate to the desire of the 
four agencies involved to be called upon to reckon with the negative 
environmental impacts only of the subject agreements themselves. It 
appears to me that the four agencies are particularly concerned that 
other environmental problems, whose origins predate the agreements, 
should be addressed in other processes and forums and that solutions to 
those problems, including the ultimate solution to the problem of 
salinity in the Salton Sea, not be attributed to the San Diego-IID 
transfer, the QSA, and the 4.4 plan.
    Environmental Defense has long been on record as having sympathy 
for this perspective. When EDF published Trading Conservation 
Investments for Water: A Proposal for the Metropolitan Water District 
of Southern California to Obtain Additional Colorado River Water by 
Financing Water Conservation Investments for the Imperial Irrigation 
District in 1983, we advocated a water conservation-and-transfer 
scenario for southern California even though we recognized that this 
could accelerate the rate at which salinity would increase in the 
Salton Sea. Administrative and Congressional decisions on what to do 
about the increasing salinization of the Sea are pending and should be 
forthcoming on an expeditious basis, particularly insofar as they bear 
upon the health of endangered species and their habitat. To wait for 
those decisions, however, before acting on legislation to facilitate 
the San Diego-IID water transfer and other agreements promoting water 
conservation in the Imperial and Coachella Valleys, in our judgment, 
would be to risk those agreements' fruition, without corresponding 
benefits.
    Significant elements of the draft legislation do require further 
discussion and likely amendment, especially those provisions that 
affect the proper administration of the Endangered Species Act, that 
deal with judicial review of the subject agreements, and that 
distribute risks and financial obligations between the United States 
and the parties. But, with your assistance and active involvement and 
with the continued good faith of the four agencies, I am convinced that 
these difficult issues can be resolved on a satisfactory basis.
    Please let me know if we at Environmental Defense can be helpful to 
you on this matter. Years ago, I personally served on the Colorado 
River Board of California. Based on that experience and on subsequent 
involvement in many water policy issues in California and elsewhere, I 
am convinced that a positive resolution of the issues involved here 
would make a crucially important contribution to California's, the 
nation's, and even North America's future.

Sincerely yours,

Thomas J. Graff
Regional Director
                                 ______
                                 
    Mrs. Napolitano. Thank you. I'd like to ask Miss Jones if 
she'd heard of any such plan that Miss Mulroy was referring to, 
because it's news to me also.
    Ms. Jones. This has been kicking around for a while. In our 
State Bond Act in 1996, the Legislature directed that a share 
of the money provided for feasibility studies be given for a 
feasibility study of what the San Diego Water Authority would 
call an alternate conveyance facility from the Colorado River 
in the area of Imperial Valley, as a shared facility through 
Mexico, going to the San Diego area. And in fact the water 
agencies in the San Diego area are continuing to discuss with 
their neighbors over the border about joint water management 
activities, particularly with the city of Tijuana, that would 
include such a feature. There are no plans at the state level 
to do anything further with it unless we are otherwise 
directed.
    Mrs. Napolitano. Thank you. One of the other things that 
strikes me as we were listening to the testimony about 
California reducing its allocation to 4.4 is that we have been 
notified, I say "we," my sanitation district, that tertiary 
treated water must now effect a fourth treatment, which will 
cost billions of dollars for the taxpayers for a treatment 
plant. Has anybody heard anything? Because understand that the 
utilization of recycled water is key for not only industrial 
and commercial use, but for community use. And that could mean 
a great impact, because that's a costly proposition.
    I have requested EPA to let us know why they're doing it, 
on what basis, what findings they're relating to, and I have 
not heard anything. I don't know if you have. But that would 
mean a lot of funding from the taxpayer pocket to set up a 
fourth treatment plant for use of that recycled water. Nobody's 
heard? Well, it will affect every other state, and my 
suggestion is look into it. Thank you.
    The Chairman. Thank you, gentlelady. Gentleman from Nevada.
    Mr. Gibbons. Thank you very much. Mr. Chairman, I can only 
say that I believe at this point in time that what needs to 
have been said has been said by everybody, so I'm going to 
yield back and thank you for the invitation to come to your 
Congressional District. That is, since Mr. Cannon's not here.
    The Chairman. I thank the gentleman. Let me thank the 
witnesses who have all been very good, excellent testimony, 
well thought out, well delivered. We really appreciate it, 
believe me. Everything that you've said we will pour over. 
Also, I would like the prerogative to be able to send you 
questions that we may have from time to time that come up, and 
we would like to ask you to elaborate on something. If you 
wouldn't mind, we would appreciate it if you would take care of 
that.
    Let me also thank the Members of the Committee who came 
here today for this testimony, and it was very good. I 
appreciate the Members being here, as well as the staff people 
who had to come from Washington to do this. These field 
hearings require more logistics than you can believe, and so we 
appreciate the staff for coming, and everyone who is here, for 
having the interest to come to hear this very, very important 
issue.
    Water is the critical thing in America, basically. I got 
into this business 42 years ago, trying to fix a water system 
in Farmington, Utah, and so the theory is if you've got any 
sense, don't try to fix your water system, you'll end up a 
Congressman.
    Anyway, with that said we'll stand adjourned, and thank all 
of you.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]


</pre></body></html>
